<html>
<title> - INTERNET POSTING OF CHEMICAL ``WORST CASE'' SCENARIOS: A ROADMAP FOR TERRORISTS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 INTERNET POSTING OF CHEMICAL ``WORST CASE'' SCENARIOS: A ROADMAP FOR 
                               TERRORISTS

=======================================================================

                             JOINT HEARING

                               before the

                            SUBCOMMITTEES ON
                         HEALTH AND ENVIRONMENT

                                  and

                      OVERSIGHT AND INVESTIGATIONS

                                 of the

                         COMMITTEE ON COMMERCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 10, 1999

                               __________

                            Serial No. 106-3

                               __________

            Printed for the use of the Committee on Commerce


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 55-147CC                   WASHINGTON : 1999
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON COMMERCE

                     TOM BLILEY, Virginia, Chairman

W.J. ``BILLY'' TAUZIN, Louisiana     JOHN D. DINGELL, Michigan
MICHAEL G. OXLEY, Ohio               HENRY A. WAXMAN, California
MICHAEL BILIRAKIS, Florida           EDWARD J. MARKEY, Massachusetts
JOE BARTON, Texas                    RALPH M. HALL, Texas
FRED UPTON, Michigan                 RICK BOUCHER, Virginia
CLIFF STEARNS, Florida               EDOLPHUS TOWNS, New York
PAUL E. GILLMOR, Ohio                FRANK PALLONE, Jr., New Jersey
  Vice Chairman                      SHERROD BROWN, Ohio
JAMES C. GREENWOOD, Pennsylvania     BART GORDON, Tennessee
CHRISTOPHER COX, California          PETER DEUTSCH, Florida
NATHAN DEAL, Georgia                 BOBBY L. RUSH, Illinois
STEVE LARGENT, Oklahoma              ANNA G. ESHOO, California
RICHARD BURR, North Carolina         RON KLINK, Pennsylvania
BRIAN P. BILBRAY, California         BART STUPAK, Michigan
ED WHITFIELD, Kentucky               ELIOT L. ENGEL, New York
GREG GANSKE, Iowa                    THOMAS C. SAWYER, Ohio
CHARLIE NORWOOD, Georgia             ALBERT R. WYNN, Maryland
TOM A. COBURN, Oklahoma              GENE GREEN, Texas
RICK LAZIO, New York                 KAREN McCARTHY, Missouri
BARBARA CUBIN, Wyoming               TED STRICKLAND, Ohio
JAMES E. ROGAN, California           DIANA DeGETTE, Colorado
JOHN SHIMKUS, Illinois               THOMAS M. BARRETT, Wisconsin
HEATHER WILSON, New Mexico           BILL LUTHER, Minnesota
JOHN B. SHADEGG, Arizona             LOIS CAPPS, California
CHARLES W. ``CHIP'' PICKERING, 
Mississippi
VITO FOSSELLA, New York
ROY BLUNT, Missouri
ED BRYANT, Tennessee
ROBERT L. EHRLICH, Jr., Maryland

                   James E. Derderian, Chief of Staff
                   James D. Barnette, General Counsel
      Reid P.F. Stuntz, Minority Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Health and Environment

                  MICHAEL BILIRAKIS, Florida, Chairman

FRED UPTON, Michigan                 SHERROD BROWN, Ohio
CLIFF STEARNS, Florida               HENRY A. WAXMAN, California
JAMES C. GREENWOOD, Pennsylvania     FRANK PALLONE, Jr., New Jersey
NATHAN DEAL, Georgia                 PETER DEUTSCH, Florida
RICHARD BURR, North Carolina         BART STUPAK, Michigan
BRIAN P. BILBRAY, California         GENE GREEN, Texas
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
CHARLIE NORWOOD, Georgia             THOMAS M. BARRETT, Wisconsin
TOM A. COBURN, Oklahoma              LOIS CAPPS, California
  Vice Chairman                      RALPH M. HALL, Texas
RICK LAZIO, New York                 EDOLPHUS TOWNS, New York
BARBARA CUBIN, Wyoming               ANNA G. ESHOO, California
JOHN B. SHADEGG, Arizona             JOHN D. DINGELL, Michigan,
CHARLES W. ``CHIP'' PICKERING,         (Ex Officio)
Mississippi
ED BRYANT, Tennessee
TOM BLILEY, Virginia,
  (Ex Officio)

                                  (ii)

              Subcommittee on Oversight and Investigations

                     FRED UPTON, Michigan, Chairman

JOE BARTON, Texas                    RON KLINK, Pennsylvania
CHRISTOPHER COX, California          HENRY A. WAXMAN, California
RICHARD BURR, North Carolina         BART STUPAK, Michigan
  Vice Chairman                      GENE GREEN, Texas
BRIAN P. BILBRAY, California         KAREN McCARTHY, Missouri
ED WHITFIELD, Kentucky               TED STRICKLAND, Ohio
GREG GANSKE, Iowa                    DIANA DeGETTE, Colorado
ROY BLUNT, Missouri                  JOHN D. DINGELL, Michigan,
ED BRYANT, Tennessee                   (Ex Officio)
TOM BLILEY, Virginia,
  (Ex Officio)

                                 (iii)


                            C O N T E N T S

                               __________
                                                                   Page

Testimony of:
    Blitzer, Robert M., Associate Director, Center for 
      Counterterrorism Technology and Analysis, Science 
      Applications International Corporation, and Former 
      Director, Counterterrorism Planning Section, National 
      Security Division, Federal Bureau of Investigation.........    43
    Burdick, Brett A., Environmental Programs Manager, Department 
      of Emergency Services, Commonwealth of Virginia............    34
    Burk, Arthur F., Senior Safety Fellow, DuPont Company, 
      representing the Chemical Manufacturers Association, and 
      Member, Clean Air Act Advisory Subcommittee on Accident 
      Prevention.................................................    80
    Burnham, Robert M., Section Chief, Domestic Terrorism, 
      National Security Division, Federal Bureau of Investigation    67
    Eversole, John M., Chief Fire Officer and Commander, 
      Hazardous Materials Division, City of Chicago Fire 
      Department, and Chairman, Hazardous Materials Committee, 
      International Association of Fire Chiefs...................    46
    Fields, Timothy, Jr., Acting Assistant Administrator, Office 
      of Solid Waste and Emergency Response, Environmental 
      Protection Agency..........................................    63
    Gablehouse, Timothy R., Chair, Jefferson County Local 
      Emergency Planning Committee, and Member, Clean Air Act 
      Advisory Subcommittee on Accident Prevention...............    37
    Littles, Paula R., Legislative Director, Pace Workers 
      International Union........................................    92
    Monihan, E. James, Volunteer, Lewes Fire Department, and 
      Delaware State Director, National Volunteer Fire Council...    40
    Orum, Paul, Coordinator, Working Group on Community Right-To-
      Know.......................................................    84
    Scannell, Jerry, President, National Safety Council, and 
      Member, Clean Air Act Advisory Subcommittee on Accident 
      Prevention.................................................    89
Additional material submitted for the record:
    Fields, Timothy, Jr., Acting Assistant Administrator, Office 
      of Solid Waste and Emergency Response, Environmental 
      Protection Agency, undated letter, enclosing response for 
      the record.................................................   111
    Gablehouse, Timothy R., Chair, Jefferson County Local 
      Emergency Planning Committee, and Member, Clean Air Act 
      Advisory Subcommittee on Accident Prevention, letter dated 
      March 18, 1999, enclosing response for the record..........   107
    Littles, Paula R., Legislative Director, Pace Workers 
      International Union, letter dated March 18, 1999, enclosing 
      response for the record....................................   110
    Orum, Paul, Coordinator, Working Group on Community Right-To-
      Know, letter dated March 31, 1999, enclosing response for 
      the record.................................................   111
    Scannell, Jerry, President, National Safety Council, and 
      Member, Clean Air Act Advisory Subcommittee on Accident 
      Prevention, letter dated March 19, 1999, enclosing response 
      for the record.............................................   109
    Walsh, A. Robert, Legislative Counsel, Federal Bureau of 
      Investigation, letter dated March 25, 1999, enclosing 
      response for the record....................................   105

                                  (v)


       INTERNET POSTING OF CHEMICAL ``WORST CASE SCENARIO'' DATA

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 1999

              House of Representatives,    
                         Committee on Commerce,    
                Subcommittee on Health and Environment,    
      and the Subcommittee on Oversight and Investigations,
                                                    Washington, DC.
    The subcommittees met, pursuant to notice, at 10:30 a.m., 
in room 2123, Rayburn House Office Building, Hon. Michael 
Bilirakis (Chairman, Subcommittee on Health and Environment) 
and Hon. Fred Upton (Chairman, Subcommittee on Oversight and 
Investigations) presiding.
    Members present Subcommittee on Health and Environment: 
Representatives Bilirakis, Upton, Greenwood, Burr, Bilbray, 
Whitfield, Norwood, Coburn, Cubin, Pickering, Bryant, Bliley 
(ex officio), Brown, Stupak, Green, DeGette, Barrett, Capps, 
and Eshoo.
    Members present Subcommittee on Oversight and 
Investigations: Representatives Upton, Burr, Bilbray, 
Whitfield, Blunt, Bryant, Bliley (ex officio), Klink, Stupak, 
Green, McCarthy, and DeGette.
    Staff present: Joseph Stanko, majority counsel; Tom 
Dilenge, majority counsel; Eric Link, majority counsel; Chris 
Wolf, majority counsel; Bob Meyers, majority counsel; Jason C. 
Foster, legislative clerk; Alison Berkes, minority counsel; and 
Edith Holleman, minority counsel.
    Mr. Bilirakis. The hearing will come to order.
    I would like to welcome our witnesses today, and especially 
thank Chairman Bliley and Chairman Upton for their hard work in 
making today's hearing a reality.
    As members of the audience may or may not know, the Health 
and Environment Subcommittee and the Oversight and 
Investigations Subcommittee have a long history of working 
together, particularly in Clean Air Act issues. Our 
subcommittees have cooperated on a number of hearings and 
investigative efforts involving the implementation of the Clean 
Air Act and the Clean Air Act amendments of 1990. Today's 
hearing continues this cooperation and will additionally serve 
as an initial effort to determine if legislation in this matter 
is necessary.
    Although I have tried not to prejudge this issue, and look 
forward to receiving testimony from all of our witnesses, the 
relevant provisions of law in this matter appear to be fairly 
clear. Section 112(r)(7) of the Clean Air Act requires, in 
part, that risk management plans prepared by owners and 
operators of stationary sources shall be registered with the 
EPA and further made available to the public under section 
114(C) of the act. Furthermore, legal opinion from the 
Department of Justice and EPA indicates that EPA may be 
required to make risk management plans public and in an 
electronic format, if the information is submitted in that 
format.
    Clearly, then, there is a danger that even the best 
intentions by EPA concerning the dissemination of sensitive 
data may be overridden by new technology and the requirements 
of black letter law. Internet access is not only a question of 
speed, but the ability to search for specific information using 
different variables and to perhaps rank and select targets of 
opportunity. We must, therefore, be prepared. I think you all 
would agree to weigh the goals of the Clean Air Act against the 
competing considerations of national, community, and personal 
security.
    This will inevitably require a careful balancing, and I 
will look to the testimony of our witnesses to help illuminate 
our thinking and the proper balance between public information 
and public threats.
    Let me say initially, however, that while I fully respect 
the need for individuals and communities to be informed of 
risks to their health and for fire and emergency personnel to 
have current, detailed information to ensure their safety, we 
cannot simply ignore the potential of a competing threat 
emanating from an anonymity of cyberspace.
    If we can reasonably determine from this hearing, and from 
our subcommittees' review of available information that there 
is a real threat, I am unwilling to just wait and see what 
happens.
    One of the lessons of history is that we must never fight 
the last war. Surely, we cannot depend on our enemies to not 
use all the technology and all the resources that are available 
to them.
    All together, I would like to recognize again the hard work 
of Chairman Bliley in bringing this matter to the attention of 
the committee and, indeed, to the attention of the entire 
Congress and the administration.
    There is an old adage which says simply, ``Trust, but 
verify.'' I think today's hearing will help us to verify 
whether or not a targeted change to the law is required or 
whether we can, indeed, trust that this new information will 
not be put to tragic use.
    The Chair now recognizes Mr. Brown of Ohio, the ranking 
member of the Health and Environment Subcommittee, for an 
opening statement.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Bilirakis. Please proceed, sir.
    Mr. Brown. I would like to thank both Chairman Bilirakis 
and Chairman Upton for holding today's hearings on the 
requirements in the Clean Air Act for providing information to 
the public about the possible results of serious accidents at 
chemical facilities.
    I would also like to recognize two new members of the 
subcommittee on our side, Lois Capps and Tom Barrett. They are 
joining us in our first hearing.
    The 1990 Clean Air Act amendments directed the EPA to 
implement a program that would address the dangers of releasing 
hazardous chemicals into the air. The program requires chemical 
facilities to file risk management plans describing, ``worst 
case scenarios'' with EPA, and for the information to be 
publicly available so that communities can prepare adequately 
for potential accidents.
    Concerns have been raised that terrorists could use this 
data to carry out acts of sabotage. The questions raised by the 
FBI and others about the potential misuse of the ``worst case 
scenario'' information certainly deserve our careful 
consideration. We should not open our communities, obviously, 
to new threats. However, it is important to maintain a balance 
between concerns about terrorism and the usefulness of this 
information to citizens.
    It is worth noting that the ``worst case scenario'' data 
that EPA has directed to collect and disseminate would give a 
location and potential effects of an accident, but it would not 
in any way provide a blueprint for terrorist attacks.
    The risk management plans do not include specifics such as 
tank locations, plant security systems, or methods of causing 
an explosion or chemical release. Furthermore, potential 
terrorists can already obtain information on chemical 
facilities through a variety of public sources.
    Communities have legitimate reasons to seek information 
about chemical facilities in their vicinity. We are not talking 
hypothetically when we talk about accidents at chemical plants. 
In 1997, more than 38,000 chemical fires, spills, and 
explosions were reported through the EPA's emergency response 
notification system. Communities have the right to know what 
risks are posed by facilities in their midst.
    With the risk management plans in hand, emergency response 
personnel can lay appropriate plans for handling accidents. 
Workers and neighbors can approach the facilities to propose 
improvements in safety at and around the site. Communities can 
use the risk management plans as a basis for decisions on 
zoning, for instance.
    I understand that EPA and the FBI have held discussions on 
how to balance concerns with terrorism about access to 
information. I would encourage these agencies and other 
interested parties to work out a solution cooperatively, as I 
believe that they have begun to.
    However, if my colleagues feel that we should consider 
legislation on this issue, an additional hearing on the 
specific legislative proposals would be essential. I would want 
to review our legislative proposal carefully and to hear the 
views of others to be certain that the underlying purpose of 
effectively disclosing this information to the public is not 
compromised.
    Thank you, Mr. Chairman, for raising this important issue.
    Mr. Bilirakis. I thank the gentleman from Ohio, Mr. Brown.
    The Chair now recognizes the joint chairman of this hearing 
and the chairman of the Oversight and Investigations 
Subcommittee of Commerce, Mr. Upton, for an opening statement.
    Mr. Upton. Thank you, Mr. Chairman, and it is my pleasure 
to jointly chair this with you and have the support of the full 
committee chairman, Mr. Bliley, as well.
    We are here today to review the manner in which the 
Environmental Protection Agency plans to disseminate, to the 
public, hazardous material reports that at least 66,000 
facilities nationwide are required to file with the Agency 
under the Clean Air Act. These reports include ``worst case 
scenario'' information, such as what would happen if all risk 
management plans failed and hazardous chemicals were released. 
The ``worst case scenario'' data specifically include a 
chemical-by-chemical analysis of the key accidental release 
points within a facility, and an estimate of the impact of each 
``worst case'' chemical release on the people living in nearby 
communities.
    The Clean Air Act requires the EPA to make this information 
available to the public, but the statute does not specify the 
method by which the information should be disseminated.
    Let me make it very clear at the outset of this hearing; we 
support the right of communities to know the risks of living 
near facilities using hazardous materials, including potential 
``worst case scenarios,'' and to let the right people know as 
well.
    Our purpose here today is not to question or limit the 
rights of communities to this information. We are concerned, 
however, that the widespread electronic dissemination of this 
``worst case scenario'' information on the Internet will, in 
fact, provide a roadmap for terrorists, putting communities 
across the country in great danger from targeted terrorist 
attacks planned with information provided in user-friendly 
format by our own government.
    The question before us today is how should EPA handle the 
dissemination of this highly sensitive information to ensure 
that communities continue to have the right to know about 
potential hazards, but, to protect those same communities from 
terrorists bent on wreaking havoc?
    We have an impressive group of witnesses here to discuss 
the matter from all sides of the issue. The first panel will 
include experts in the field of law enforcement, 
counterterrorism, and emergency response. We will discuss the 
nature and extent of the terrorist threat posed by the 
widespread electronic dissemination of a national database 
containing ``worst case scenario'' information.
    Our second panel will consist of officials from the FBI and 
the EPA who have been attempting to resolve these security 
concerns and agree upon a controlled public dissemination plan.
    Finally, our third panel will include representatives from 
the environmental, worker and public safety, and industrial 
communities, including two members of the Public Advisory 
Committee established by EPA to address the issue.
    From an oversight perspective, I also believe that there 
are serious questions about how EPA has, to date, dealt with 
this issue--or I guess I should say how EPA has failed to deal 
with this issue in a responsible or timely manner. It appears 
that the EPA has only reluctantly come to the view that 
Internet dissemination poses a security risk, and even then, 
the Agency still has not come to terms with the third-party 
access problem. In the meantime, the proverbial clock is 
ticking with a statutory deadline for the facilities section of 
this data only months away.
    I hope to get some answers from EPA today on how we get to 
this point, what the Agency plans to do about it, now that we 
are in this difficult position, and I continue to oversee EPA's 
implementation of this section of the Clean Air Act to make 
sure that their actions remain consistent.
    I might just add a point here at the end. Yesterday, I had 
the opportunity to meet with a survivor or a spouse of a 
wonderful man that was killed in the Oklahoma City bombing. She 
was very supportive of the actions taken by these subcommittees 
today. And as we chatted a little bit about it, I thought about 
my own perspective of being at home working on the Internet 
with my family; fifth grade daughter, first grade son. We 
worry, as parents, about some of the things that get on the 
Internet, particularly, pornography, and our efforts to make 
sure that that does not come into our home. I never thought 
that we would actually dream of the day when our Government 
would, perhaps, put this same information on for terrorists--
who knows where in the world--to, perhaps, target some of our 
best and brightest here within the United States.
    And it is with that thought that I yield back the balance 
of my time and look forward to this hearing.
    [The prepared statement of Hon. Fred Upton follows:]
   Prepared Statement of Hon. Fred Upton, Chairman, Subcommittee on 
                      Oversight and Investigations
    We are here today to review the manner in which the Environmental 
Protection Agency plans to disseminate to the public hazardous material 
reports that at least 66,000 facilities nationwide are required to file 
with the agency under the Clean Air Act. These reports include worst-
case scenario information, such as what would happen if all risk 
management plans failed and hazardous chemicals were released. The 
worst-case scenario data specifically include a chemical-by-chemical 
analysis of the key accidental release points within a facility and an 
estimate of the impact of each worst-case chemical release on the 
people living in nearby communities.
    The Clean Air Act requires the EPA to make this information 
available to the public, but the statute does not specify the method by 
which the information should be disseminated.
    Let me make it very clear at the outset of this hearing. We support 
the right of communities to know the risks of living near facilities 
using hazardous materials, including potential worst-case scenarios. 
Our purpose here today is not to question or limit the rights of 
communities to this information. We are concerned, however, that 
widespread electronic dissemination of this worst-case scenario 
information on the Internet will provide a road map for terrorists, 
putting communities across this country in great danger from targeted 
terrorist attacks planned with information provided in user-friendly 
format by our own government. The question before us today is how 
should EPA handle the dissemination of this highly sensitive 
information to ensure that communities continue to have the right to 
know about potential hazards, but to protect those same communities 
from terrorists bent on wreaking havoc.
    We have an impressive group of witnesses here to discuss this 
matter from all sides of the issue. Our first panel will include 
experts in the field of law enforcement, counter-terrorism, and 
emergency response, who will discuss the nature and extent of the 
terrorist threat posed by widespread, electronic dissemination of a 
national database containing worst-case scenario information. Our 
second panel will consist of officials from the FBI and the EPA, who 
have been attempting to resolve these security concerns and agree upon 
a controlled public dissemination plan. Finally, our third panel will 
include representatives from the environmental, worker and public 
safety, and industrial communities, including two members of the public 
advisory committee established by EPA to address this issue.
    From an oversight perspective, I also believe that there are 
serious questions about how EPA has, to date, dealt with this issue--
or, I guess I should say, how EPA has failed to deal with this issue in 
a responsible or timely manner. It appears that EPA has only 
reluctantly come to the view that Internet dissemination poses a 
security risk, and even then, the agency still has not come to terms 
with the third-party access problem. In the meantime, the proverbial 
clock is ticking, with a statutory deadline for facilities' submission 
of this data only months away.
    I hope to get some answers from EPA today on how we got to this 
point, and what the agency plans to do about it now that we are in this 
difficult position. I also plan to continue our oversight of EPA's 
implementation of this section of the Clean Air Act, in order to ensure 
that the agency's actions remain consistent with congressional intent 
and do not threaten the safety of America's citizens and communities.
    At no other time in our history has an invention transformed our 
economy and our society as quickly as the development of the Internet. 
Each day, millions of us use the Internet to access information, to 
visit new places, and gain new knowledge. My 11-year-old daughter is 
already web savvy. She uses our home computer to help with homework and 
connect with friends.
    As a parent, the greatest concern I used to have about the Internet 
was porn and the other things that sickos would post . . . until this.
    The thought that a terrorist could research devastation and terror 
with little more than a web account and a mouse is troubling. 
Information to help terrorize the people of St. Joseph or Kalamazoo, 
Michigan, Richmond, Virginia, or West Palm, Florida should be made more 
difficult to find, not easier. And to think that the federal government 
could help make that happen is even a greater concern.
    By posting this information, it seems that the Internet crosses the 
line from helpful to harmful.
    The Internet should be a place where 11-year-old girls can do their 
homework, not terrorists.
    I look forward to hearing from today's witnesses.

    Mr. Bilirakis. I thank the gentleman.
    Mr. Klink, the ranking member of the Oversight and 
Investigations Subcommittee, my good friend from western 
Pennsylvania.
    Mr. Klink. I thank my friend for that kind introduction, 
and I look forward to working with not only him but my good 
friend, Mr. Upton, who worked on some environmental legislation 
with me during the last Congress. We enjoyed working with him. 
But we are not, I think, in some ways, getting off to the best 
kind of start today. I know we have great affection for each 
other, and we like to work together, but somehow I don't think 
it has gotten down to our staff level. I think we need to work 
on having our staffs be able to be a little bit better informed 
about where we are going on these issues, because we begin the 
work of the subcommittee in the new Congress by looking for a 
solution to a problem that is not yet defined, will not be 
defined at this hearing, and we don't whether or not it really 
exists.
    The congressionally mandated release of ``worst case 
scenario'' impacts in an easily assessable format is to help 
the public, relevant State and local officials, and industry 
avoid and mitigate the results of the accidental release of 
dangerous chemicals. At least for the majority's press purpose, 
it has become a roadmap for terrorism.
    Now yesterday, before a hearing was even held, before we 
heard from a single witness, Chairman Bliley held a press 
conference and announced that there was a problem and that he 
would correct that terrorism threat by introducing legislation. 
And I simply would ask, from the minority, if the majority has 
a crystal ball that can tell us what this hearing and any 
future hearings is going to discover, would they, please, share 
that crystal ball with the minority, because we have not 
predetermined what we are going to hear at these sessions, and 
what the witnesses are going to tell us?
    One of the real questions that we would like to address 
today is: Will this information be accessible to all to help 
avoid the 8,000 serious chemical releases and those 300 to 400 
deaths every year that result from those releases?
    Some witnesses today will call for changes in the Freedom 
of Information Act, in which Congress apparently would create a 
two-tier system of access to information, depending on where 
you live and what media you get to get your information. We 
have no evidence of why we should do this. We have seen no 
draft language to consider. We have no FOIA expert before us, 
or even an administration position.
    Mr. Chairman, we hope that when we have draft language, 
that it can be shown to us and that we will then have a hearing 
on that piece of legislation.
    Mr. Bilirakis. I would suggest, if the gentleman would 
yield, that you, hopefully, would be a part of that draft 
language if, in fact, there is going to be any need for draft 
language----
    Mr. Klink. I am glad to hear that.
    Mr. Bilirakis. [continuing] which has not been determined, 
as far as I am concerned.
    Mr. Klink. Well, thank you. Because we heard yesterday 
following the press release that, very shortly after this 
hearing, a bill was going to be dropped, and we hadn't had a 
discussion. And so that is the reason for some of this dismay. 
I hope that we are going to be able to put behind us--and I 
have spoken with Mr. Upton--some of the problems that existed 
in the previous Oversight and Investigations Subcommittee as we 
looked for crimes that really didn't exist. I am a little 
bothered now that we are now searching for problems that may or 
may not exist.
    Terrorist scenarios are very popular fodder for the press, 
for movies, for sci-fi writers, and for politicians. 
Counterterrorism experts and centers are springing up 
everywhere to make sure they get a part of the Federal largess. 
But when my staff probed more deeply, we could not find any 
documented evidence of increased threats to chemical plants. In 
fact, we could not find any evidence worldwide that chemical 
plants had been terrorist targets. Military targets, yes, as 
demonstrated in the Sudan recently, when the U.S. attacked that 
chemical plant. But terrorist target; we have seen no evidence.
    The creation and release of information about chemicals at 
industrial facilities in the United States was mandated by 
Congress in 1990. The world had witnessed the terrible results 
of releases from a chemical plant on humans in Bhopal, India, 
and the frightening chemical releases from a sister plant in 
Institute, West Virginia. There are, as I said, over 60,000 
accidental releases every year, of which about 8,000 result in 
significant human or property damage. Between 300 or 400 
people, mostly workers and first responders, die every year. 
This is the known documented danger that Congress has told the 
Environmental Protection Agency to address by providing the 
public with information they needed to force these facilities 
to become safer.
    Much information is now available from the Environmental 
Protection Agency in various media and on the Internet about 
these chemicals, where they are, and their effects when they 
are released. Thousands of communities, investors, first 
responders, medical people, workers, industrial safety 
officers, and just plain citizens use that information every 
day. Many ``worst case scenarios'' are already available 
because they have been provided to the communities involved and 
to the press.
    There seems to be a consensus that this information has 
reduced the threat of accidents, helped prepare first 
responders, assisted companies in identifying and eliminating 
or better handling their most dangerous chemicals, and helped 
communities in planning decisions about the siting of schools 
and residential facilities and the need for buffer zones 
between those facilities and the chemical plants.
    Now, right now, it is not difficult for you or I, or a 
terrorist, to determine by observation and a little bit of 
research where chemical facilities are, what they manufacture, 
how close they are to residential facilities. One of the 
witnesses is going to tell us today--and the world--that there 
are a large number of chemical facilities near Wilmington, 
Delaware, which he will describe as a potential ``terrorist 
dream'' that would allow an attack of massive proportion. Well, 
that is pretty public, making the statement here in a hearing. 
And it didn't take the Internet or the EPA to figure it out. We 
could find out that chemical plant was there simply by driving 
down I-95 and opening our eyes.
    So, what new threat are we looking for here today? What 
would force us to rewrite our laws?
    The chairman would have us believe--as he said yesterday--
that there are sophisticated, professional foreign terrorists, 
as he said, ``from Los Angeles to Libya,'' who, only because of 
access to this information, will move to the United States, 
bomb chemical plants, and decimate entire population centers 
nearby. What evidence do we have of this?
    Well, we have a 1-month study that was done for the EPA's 
Advisory Committee, which attempted to model the possible 
increases in terrorist attacks on chemical plants caused by 
putting ``worst case scenarios'' on the Internet, and you will 
hear that study cited today. It has many faults.
    This week, I am going to ask the General Accounting Office 
to review the methodology, the credibility, and the reliability 
of that study. But we already know that the modeling of the 
study is questionable, because there was only one terrorist 
incident involving chemical plants to provide a baseline. The 
other one cited was actually a scam in which the owner of some 
worthless chemicals in Virginia tried to blow them up to recoup 
insurance money. The other involved a group of Ku Klux Klan 
members who were going to blow up some tanks at a gas refinery 
in Texas to create a diversion so they could rob an armored 
car.
    The contractor also assumed incorrectly that the industry 
had done all it could to improve safety. The criteria used in 
this study to define the type of information that would be 
useful were from military organizations, not from terrorist 
experts. Let me remind you, military organizations and 
terrorists have completely different agendas, motives, and 
resources available to them.
    And without objection, Mr. Chairman, I would like to offer 
up, for the record, an article from a recent foreign policy 
issue by an Israeli historian of terrorism, who describes 
extremely well the psychological and the other goals of 
terrorists, based on actual events, and why he believes the 
current discussions of terrorism threats are vastly overblown.
    And I would ask----
    Mr. Bilirakis. Without objection.
    [The information article referred to follows:]

                  [Thursday, October 1, 1998--No. 112]

                     The Great Superterrorism Scare
                            By Ehud Sprinzak
    Last March, representatives from more than a dozen U.S. federal 
agencies gathered at the White House for a secret simulation to test 
their readiness to confront a new kind of terrorism. Details of the 
scenario unfolded a month later on the front page of the New York 
Times: Without warning, thousands across the American Southwest fall 
deathly ill. Hospitals struggle to rush trained and immunized medical 
personnel into crisis areas. Panic spreads as vaccines and antibiotics 
run short--and then run out. The killer is a hybrid of smallpox and the 
deadly Marburg virus, genetically engineered and let loose by 
terrorists to infect hundreds of thousands along the Mexican-American 
border.
    This apocalyptic tale represents Washington's newest nightmare: the 
threat of a massive terrorist attack with chemical, biological, or 
nuclear weapons. Three recent events seem to have convinced the 
policymaking elite and the general public that a disaster is imminent: 
the 1995 nerve gas attack on a crowded Tokyo subway station by the 
Japanese millenarian cult Aum Shinrikyo; the disclosure of alarming new 
information about the former Soviet Union's massive biowarfare program; 
and disturbing discoveries about the extent of Iraqi president Saddam 
Hussein's hidden chemical and biological arsenals. Defense Secretary 
William Cohen summed up well the prevailing mood surrounding mass-
destruction terrorism: ``The question is no longer if this will happen, 
but when.''
    Such dire forecasts may make for gripping press briefings, movies, 
and bestsellers, but they do not necessarily make for good policy. As 
an unprecedented fear of mass-destruction terrorism spreads throughout 
the American security establishment, governments worldwide are devoting 
more attention to the threat. But, as horrifying as this prospect may 
be, the relatively low risks of such an event do not justify the high 
costs now being contemplated to defend against it.
    Not only are many of the countermeasures likely to be ineffective, 
but the level of rhetoric and funding devoted to fighting 
superterrorism may actually advance a potential superterrorist's 
broader goals: sapping the resources of the state and creating a 
climate of panic and fear that can amplify the impact of any terrorist 
act.
                         capabilities and chaos
    Since the Clinton administration issued its Presidential Decision 
Directive on terrorism in June 1995, U.S. federal, state, and local 
governments have heightened their efforts to prevent or respond to a 
terrorist attack involving weapons of mass destruction. A report issued 
in December 1997 by the National Defense Panel, a commission of experts 
created by congressional mandate, calls upon the army to shift its 
priorities and prepare to confront dire domestic threats. The National 
Guard and the U.S. Army Reserve must be ready, for example, to ``train 
local authorities in chemical- and biological-weapons detection, 
defense, and decontamination; assist in casualty treatment and 
evacuation; quarantine, if necessary, affected areas and people; and 
assist in restoration of infrastructure and services.'' In May, the 
Department of Defense announced plans to train National Guard and 
reserve elements in every region of the country to carry out these 
directives.
    In his 1998 State of the Union address, President Bill Clinton 
promised to address the dangers of biological weapons obtained by 
``outlaw states, terrorists, and organized criminals.'' Indeed, the 
President's budget for 1999, pending congressional approval, devotes 
hundreds of millions of dollars to superterrorism response and recovery 
programs, including large decontamination units, stockpiles of vaccines 
and antibiotics, improved means of detecting chemical and biological 
agents and analyzing disease outbreaks, and training for special 
intervention forces. The FBI, Pentagon, State Department, and U.S. 
Health and Human Services Department will benefit from these funds, as 
will a plethora of new interagency bodies established to coordinate 
these efforts. Local governments are also joining in the campaign. Last 
April, New York City officials began monitoring emergency room care in 
search of illness patterns that might indicate a biological or chemical 
attack had occurred. The city also brokered deals with drug companies 
and hospitals to ensure an adequate supply of medicine in the event of 
such an attack. Atlanta, Denver, Los Angeles, San Francisco, and 
Washington are developing similar programs with state and local funds. 
If the proliferation of counterterrorism programs continues at its 
present pace, and if the U.S. army is indeed redeployed to the home 
front, as suggested by the National Defense Panel, the bill for these 
preparations could add up to tens of billions of dollars in the coming 
decades.
    Why have terrorism specialists and top government officials become 
so obsessed with the prospect that terrorists, foreign or homegrown, 
will soon attempt to bring about an unprecedented disaster in the 
United States? A close examination of their rhetoric reveals two 
underlying assumptions: The Capabilities Proposition. According to this 
logic, anyone with access to modern biochemical technology and a 
college science education could produce enough chemical or biological 
agents in his or her basement to devastate the population of London, 
Tokyo, or Washington. The raw materials are readily available from 
medical suppliers, germ banks, university labs, chemical-fertilizer 
stores, and even ordinary pharmacies. Most policy today proceeds from 
this assumption.
    The Chaos Proposition. The post-Cold war world swarms with shadowy 
extremist groups, religious fanatics, and assorted crazies eager to 
launch a major attack on the civilized world--preferably on U.S. 
territory. Walter Laqueur, terrorism's leading historian, recently 
wrote that ``scanning the contemporary scene, one encounters a 
bewildering multiplicity of terrorist and potentially terrorist groups 
and sects.'' Senator Richard Lugar agrees: ``fanatics, small 
disaffected groups and subnational factions who hold various grievances 
against governments, or against society, all have increasing access to, 
and knowledge about the construction of, weapons of mass destruction . 
. . Such individuals are not likely to be deterred . . . by the 
classical threat of overwhelming retaliation.''
    There is, however, a problem with this two-part logic. Although the 
capabilities proposition is largely valid--albeit for the limited 
number of terrorists who can overcome production and handling risks and 
develop an efficient means of dispersal--the chaos proposition is 
utterly false. Despite the lurid rhetoric, a massive terrorist attack 
with nuclear, chemical, or biological weapons is hardly inevitable. It 
is not even likely. Thirty years of field research have taught 
observers of terrorism a most important lesson: Terrorists wish to 
convince us that they are capable of striking from anywhere at anytime, 
but there really is no chaos. In fact, terrorism involves predictable 
behavior, and the vast majority of terrorist organizations can be 
identified well in advance.
    Most terrorists possess political objectives, whether Basque 
independence, Kashmiri separatism, or Palestinian Marxism. Neither 
crazy nor stupid, they strive to gain sympathy from a large audience 
and wish to live after carrying out any terrorist act to benefit from 
it politically. As terrorism expert Brian Jenkins has remarked, 
terrorists want lots of people watching, not lots of people dead. 
Furthermore, no terrorist becomes a terrorist overnight. A lengthy 
trajectory of radicalization and low-level violence precedes the 
killing of civilians. A terrorist becomes mentally ready to use lethal 
weapons against civilians only over time and only after he or she has 
managed to dehumanize the enemy. From the Baader-Meinhoff group in 
Germany and the Tamil Tigers in Sri Lanka to Hamas and Hizballah in the 
Middle East, these features are universal.
    Finally, with rare exceptions--such as the Unabomber--terrorism is 
a group phenomenon. Radical organizations are vulnerable to early 
detection through their disseminated ideologies, lesser illegal 
activities, and public statements of intent. Some even publish their 
own World Wide Web sites. Since the 1960s, the vast majority of 
terrorist groups have made clear their aggressive intentions long 
before following through with violence.
Today's hype or tomorrow's nightmare?
    We can draw three broad conclusions from these findings. First, 
terrorists who threaten to kill thousands of civilians are aware that 
their chances for political and physical survival are exceedingly slim. 
Their prospects for winning public sympathy are even slimmer. Second, 
terrorists take time to become dangerous, particularly to harden 
themselves sufficiently to use weapons of mass destruction. Third, the 
number of potential suspects is significantly less than doomsayers 
would have us believe. Ample early warning signs should make effective 
interdiction of potential superterrorists easier than today's 
overheated rhetoric suggests.
                        the world's most wanted
    Who, then, is most likely to attempt a superterrorist attack? 
Historical evidence and today's best field research suggest three 
potential profiles:
    Religious millenarian cults, such as Japan's Aum Shinrikyo, that 
possess a sense of immense persecution and messianic frenzy and hold 
faith in salvation via Armageddon. Most known religious cults do not 
belong here. Millenarian cults generally seclude themselves and wait 
for salvation; they do not strike out against others. Those groups that 
do take action more often fit the mold of California's Heaven's Gate, 
or France's Order of the Solar Temple, seeking salvation through group 
suicide rather than massive violence against outsiders.
    Brutalized groups that either bum with revenge following a genocide 
against their nation or face the prospect of imminent destruction 
without any hope for collective recovery. The combination of 
unrestrained anger and total powerlessness may lead such groups to 
believe that their only option is to exact a horrendous price for their 
loss. ``The Avengers,'' a group of 50 young Jews who fought the Nazis 
as partisans during World War II, exemplifies the case. Organized in 
Poland in 1945, the small organization planned to poison the water 
supply of four German cities to avenge the Holocaust. Technical 
problems foiled their plan, but a small contingent still succeeded in 
poisoning the food of more than 2,000 former SS storm troopers held in 
prison near Nuremberg.
    Small terrorist cells or socially deranged groups whose alienated 
members despise society, lack realistic political goals, and may 
miscalculate the consequences of developing and using chemical or 
biological agents. Although such groups, or even individual ``loners,'' 
cannot be totally dismissed, it is doubtful that they will possess the 
technical capabilities to produce mass destruction.
    Groups such as Hamas, Hizballah, and Islamic Jihad, which so many 
Americans love to revile--and fear--do not make the list of potential 
superterrorists. These organizations and their state sponsors may 
loathe the Great Satan, but they also wish to survive and prosper 
politically. Their leaders, most of whom are smarter than the Western 
media implies, understand that a Hiroshima-like disaster would 
effectively mean the end of their movements.
    Only two groups have come close to producing a superterrorism 
catastrophe: Aum Shinrikyo and the white supremacist and millenarian 
American Covenant, the Sword and the Arm of the Lord, whose chemical-
weapons stockpile was seized by the FBI in 1985 as they prepared to 
hasten the coming of the Messiah by poisoning the water supplies of 
several U.S. cities. Only Aum Shinrikyo fully developed both the 
capabilities and the intent to take tens of thousands of lives. 
However, this case is significant not only because the group epitomizes 
the kind of organizations that may resort to superterrorism in the 
future, but also because Aum's fate illustrates how groups of this 
nature can be identified and their efforts preempted.
    Although it comes as no comfort to the 12 people who died in Aum 
Shinrikyo's attack, the cult's act of notoriety represents first and 
foremost a colossal Japanese security blunder. Until Japanese police 
arrested its leaders in May 1995, Aum Shinrikyo had neither gone 
underground nor concealed its intentions. Cult leader Shoko Asahara had 
written since the mid-1980s of an impending cosmic cataclysm. By 1995, 
when Russian authorities curtailed the cult's activities in that 
country, Aum Shinrikyo had established a significant presence in the 
former Soviet Union, accessed the vibrant Russian black market to 
obtain various materials, and procured the formulae for chemical 
agents. In Japan, Asahara methodically recruited chemical engineers, 
physicists, and biologists who conducted extensive chemical and 
biological experiments in their lab and on the Japanese public. Between 
1990 and 1994, the cult tried six times--unsuccessfully--to execute 
biological-weapons attacks, first with botulism and then with anthrax. 
In June 1994, still a year before the subway gas attack that brought 
them world recognition, two sect members released sarin gas near the 
judicial building in the city of Matsumoto, killing seven people and 
injuring 150, including three judges.
    In the years preceding the Tokyo attack, at least one major news 
source provided indications of Aum Shinrikyo's proclivity toward 
violence. In October 1989, the Sunday Mainichi magazine began a seven-
part series on the cult that showed it regularly practiced a severe 
form of coercion on members and recruits. Following the November 1989 
disappearance of a lawyer, along with his family, who was pursuing 
criminal action against the cult on behalf of former members, the 
magazine published a follow-up article. Because of Japan's 
hypersensitivity, to religious freedom, lack of chemical- and 
biological-terrorism precedents, and low-quality domestic intelligence, 
the authorities failed to prevent the Tokyo attack despite these ample 
warning signs.
                        anatomy of an obsession
    If a close examination reveals that the chances of successful 
superterrorist attack are minimal, why are so many people so worried? 
There are three major explanations:
Sloppy Thinking
    Most people fail to distinguish among the four different types of 
terrorism: mass-casualty terrorism, state-sponsored chemical- or 
biological-weapons (CBW) terrorism, small-scale chemical or biological 
terrorist attacks, and superterrorism. Pan Am 103, Oklahoma City, and 
the World Trade Center are all examples of conventional terrorism 
designed to kill a large number of civilians. The threat that a ``rogue 
state,'' a country hostile to the West, will provide terrorist groups 
with the funds and expertise to launch a chemical or biological attack 
falls into another category: state-sponsored CBW terrorism. The use of 
chemical or biological weapons for a small-scale terrorist attack is a 
third distinct category. Superterrorism--the strategic use of chemical 
or biological agents to bring about a major disaster with death tolls 
ranging in the tens or hundreds of thousands--must be distinguished 
from all of these as a separate threat.
    Today's prophets of doom blur the lines between these four distinct 
categories of terrorism. The world, according to their logic, is 
increasingly saturated with weapons of mass destruction and with 
terrorists seeking to use them, a volatile combination that will 
inevitably let the superterrorism genie out of the bottle. Never mind 
that the only place where these different types of terrorism are lumped 
together is on television talk shows and in sensationalist headlines.
    In truth, the four types of terrorism are causally unrelated. 
Neither Saddam Hussein's hidden bombs nor Russia's massive stockpiles 
of pathogens necessarily bring a superterrorist attack on the West any 
closer. Nor do the mass-casualty crimes of Timothy McVeigh in Oklahoma 
City or the World Trade Center bombing. The issue is not CBW quantities 
or capabilities but rather group mentality and psychological 
motivations. In the final analysis, only a rare, extremist mindset 
completely devoid of political and moral considerations will consider 
launching such an attack.
Vested Interests
    The threat of superterrorism is likely to make a few defense 
contracters very rich and a larger number of specialists moderately 
rich as well as famous. Last year, Canadian-based Dycor Industrial 
Research Ltd. unveiled the CB Sentry, a commercially available 
monitoring system designed to detect contaminants in the air, including 
poison gas. Dycor announced plans to market the system for 
environmental and antiterrorist applications. As founder and president 
Hank Mottl explained in a press conference, ``Dycor is sitting on the 
threshold of a multi-billion dollar world market.'' In August, a New 
York Times story on the Clinton administration's plans to stockpile 
vaccines around the country for civilian protection noted that two 
members of a scientific advisory panel that endorsed the plan 
potentially stood to gain financially from its implementation. William 
Crowe, former chair of the joint chiefs of staff, is also bullish on 
the counterterrorism market. He is on the board of an investment firm 
that recently purchased Michigan Biologic Products Institute, the sole 
maker of an anthrax vaccine. The lab has already secured a Pentagon 
contract and expects buyers from around the world to follow suit. As 
for the expected bonanza for terrorism specialists, consultant Larry 
Johnson remarked last year to U.S. News & World Report, ``It's the 
latest gravy train.''
    Within the U.S. government, National Security Council experts, 
newly created army and police intervention forces, an assortment of 
energy and public-health units and officials, and a significant number 
of new Department of Defense agencies specializing in unconventional 
terrorism will benefit from the counterterrorism obsession and 
megabudgets in the years ahead. According to a September 1997 report by 
the General Accounting Office, more than 40 federal agencies have been 
involved already in combating terrorism. It may yet be premature to 
announce the rise of a new ``military-scientific-industrial complex,'' 
but some promoters of the superterrorism scare seem to present 
themselves as part of a coordinated effort to save civilization from 
the greatest threat of the twenty-first century.
Morbid Fascination
    Suspense writers, publishers, television networks, and 
sensationalist journalists have already cashed in on the superterrorism 
craze. Clinton aides told the New York Times that the president was so 
alarmed by journalist Richard Preston's depiction of a superterrorist 
attack in his novel The Cobra Event that he passed the book to 
intelligence analysts and House Speaker Newt Gingrich for review. But 
even as media outlets spin the new frenzy out of personal and financial 
interests, they also respond to the deep psychological needs of a huge 
audience. People love to be horrified. In the end, however, the tax-
paying public is likely to be the biggest loser of the present scare 
campaign. All terrorists--even those who would never consider a CBW 
attack--benefit from such heightened attention and fear.
                    counterterrorism on a shoestring
    There is, in fact, a growing interest in chemical and biological 
weapons among terrorist and insurgent organizations worldwide for 
small-scale, tactical attacks. As far back as 1975, the Symbionese 
Liberation Army obtained instructions on the development of germ 
warfare agents to enhance their ``guerrilla'' actions. More recently, 
in 1995, four members of the Minnesota Patriots Council, an antitax 
group that rejected all forms of authority higher than the state level, 
were convicted of possession of a biological agent for use as a weapon. 
Prosecutors contended that the men conspired to murder various federal 
and county officials with a supply of the lethal toxin ricin they had 
developed with the aid of an instruction kit purchased through a right-
wing publication. The flourishing mystique of chemical and biological 
weapons suggests that angry and alienated groups are likely to 
manipulate them for conventional political purposes. And indeed, the 
number of CBW threats investigated by the FBI is increasing steadily. 
But the use of such weapons merely to enhance conventional terrorism 
should not prove excessively costly to counter.
    The debate boils down to money. If the probability of a large-scale 
attack is extremely small, fewer financial resources should be 
committed to recovering from it. Money should be allocated instead to 
early warning systems and preemption of tactical chemical and 
biological terrorism. The security package below stresses low-cost 
intelligence, consequence management and research, and a no-cost, 
prudent counterterrorism policy. Although tailored to the United 
States, this program could form the basis for policy in other countries 
as well: International deterrence. The potential use of chemical and 
biological weapons for enhanced conventional terrorism, and the limited 
risk of escalation to superterrorism, call for a reexamination of the 
existing U.S. deterrence doctrine--especially of the evidence required 
for retaliation against states that sponsor terrorism. The United 
States must relay a stern, yet discreet message to states that continue 
to support terrorist organizations or that disregard the presence of 
loosely affiliated terrorists within their territory: They bear direct 
and full responsibility for any future CBW attack on American targets 
by the organizations they sponsor or shelter. They must know that any 
use of weapons of mass destruction by their clients against the United 
States will constitute just cause for massive retaliation against their 
countries, whether or not evidence proves for certain that they ordered 
the attack.
    Domestic deterrence. There is no question that the potential use of 
chemical and biological weapons for low-level domestic terrorism adds a 
new and dangerous dimension to conventional terrorism. There is 
consequently an urgent need to create a culture of domestic deterrence 
against the nonscientific use of chemical and biological agents. The 
most important task must be accomplished through legislation. Congress 
should tighten existing legislation against domestic production and 
distribution of biological, chemical, and radiological agents and 
devices.
    The Anti-Terrorism Act of 1996 enlarged the federal criminal code 
to include within its scope a prohibition on any attempts, threats, and 
conspiracies to acquire or use biological agents, chemical agents, and 
toxins. It also further redefined the terms ``biological agent'' and 
``toxin'' to cover a number of products that may be bioengineered into 
threatening agents. However, the legislation still includes the onerous 
burden of proving that these agents were developed for use as weapons. 
Take the case of Larry Wayne Harris, an Ohio man arrested in January by 
the FBI for procuring anthrax cultures from an unknown source. Harris 
successfully defended his innocence by insisting that he obtained the 
anthrax spores merely to experiment with vaccines. He required no 
special permit or license to procure toxins that could be developed 
into deadly agents. The FBI and local law enforcement agencies should 
be given the requisite authority to enforce existing laws as well as to 
act in cases of clear and present CBW danger, even if the groups 
involved have not yet shown criminal intent. The regulations regarding 
who is allowed to purchase potentially threatening agents should also 
be strengthened.
    A campaign of public education detailing the dangers and illegality 
of nonscientific experimentation in chemical and biological agents 
would also be productive. This effort should include, for example, 
clear and stringent university policies regulating the use of school 
laboratories and a responsible public ad campaign explaining the 
serious nature of this crime. A clear presentation of the new threat as 
another type of conventional terrorism would alert the public to groups 
and individuals who experiment illegitimately with chemical and 
biological substances and would reduce CBW terrorism hysteria.
    Better Intelligence. As is currently the case, the intelligence 
community should naturally assume the most significant role in any 
productive campaign to stop chemical and biological terrorism. However, 
new early warning CBW indicators that focus on radical group behavior 
are urgently needed. Analysts should be able to reduce substantially 
the risk of a CBW attack if they monitor group radicalization as 
expressed in its rhetoric, extralegal operations, low-level violence, 
growing sense of collective paranoia, and early experimentation with 
chemical or biological substances. Proper CBW intelligence must be 
freed from the burden of proving criminal intent.
    Smart and compact consequence management teams. The threat of 
conventional CBW terrorism requires neither massive preparations nor 
large intervention forces. It calls for neither costly new technologies 
nor a growing number of interagency coordinating bodies. The decision 
to form and train joint-response teams in major U.S. cities, prompted 
by the 1995 Presidential Decision Directive on terrorism, will be 
productive if the teams are kept within proper proportions. The ideal 
team would be streamlined so as to minimize the interagency rivalry 
that has tended to make these teams grow in size and complexity. In 
addition to FBI agents, specially trained local police, detection and 
decontamination experts, and public-health specialists, these compact 
units should include psychologists and public-relations experts trained 
in reducing public hysteria.
    Psychopolitical research. The most neglected means of countering 
csw terrorism is psychopolitical research. Terrorism scholars and U.S. 
intelligence agencies have thus far failed to discern the psychological 
mechanisms that may compel terrorists to contemplate seriously the use 
of weapons of mass destruction. Systematic group and individual 
profiling for predictive purposes is almost unknown. Whether in Europe, 
Latin America, the Middle East, or the United States, numerous former 
terrorists and members of radical organizations are believed to have 
considered and rejected the use of weapons of mass destruction. To help 
us understand better the considerations involved in the use or nonuse 
of chemical and biological weapons, well-trained psychologists and 
terrorism researchers should conduct a three-year, low cost, 
comprehensive project of interviewing these former radicals.
    Reducing unnecessary superterrorism rhetoric. Although there is no 
way to censor the discussion of mass-destruction terrorism, President 
Clinton, his secretaries, elected politicians at all levels, 
responsible government officials, writers, and journalists must tone 
down the rhetoric feeding today's superterrorism frenzy.
    There is neither empirical evidence nor logical support for the 
growing belief that a new ``postmodern'' age of terrorism is about to 
dawn, an era afflicted by a large number of anonymous mass murderers 
toting chemical and biological weapons. The true threat of 
superterrorism will not likely come in the form of a Hiroshima-like 
disaster but rather as a widespread panic caused by a relatively small 
CBW incident involving a few dozen fatalities. Terrorism, we must 
remember, is not about killing. It is a form of psychological warfare 
in which the killing of a small number of people convinces the rest of 
us that we are next in line. Rumors, anxiety, and hysteria created by 
such inevitable incidents may lead to panic-stricken evacuations of 
entire neighborhoods, even cities, and may produce many indirect 
fatalities. It may also lead to irresistible demands to fortify the 
entire United States against future chemical and biological attacks, 
however absurd the cost.
    Americans should remember the calls made in the 1950s to build 
shelters, conduct country-wide drills, and alert the entire nation for 
a first-strike nuclear attack. A return to the duck-and-cover 
absurdities of that time is likely to be as ineffective and 
debilitating now as it was then. Although the threat of chemical and 
biological terrorism should be taken seriously, the public must know 
that the risk of a major catastrophe is extremely minimal. The fear of 
CBW terrorism is contagious: Other countries are already showing 
increased interest in protecting themselves against superterrorism. A 
restrained and measured American response to the new threat may have a 
sobering effect on CBW mania worldwide.
                           want to know more?
    Brian Jenkins first makes his well-known argument that terrorists 
want a lot of people watching, not a lot of people dead, in ``Will 
Terrorists Go Nuclear?'' (Orbis, Autumn 1985). More recently, Jenkins 
provides a reasoned analysis of weapons-of-mass-destruction (WMD) 
terrorism in the aftermath of the Tokyo subway attack in ``The Limits 
of Terror: Constraints on the Escalation of Violence'' (Harvard 
International Review, Summer 1995). For a counter argument, see Robert 
Kupperman's ``A Dangerous Future: The Destructive Potential of Criminal 
Arsenals'' in the same issue. Ron Purver reviews the literature on 
superterrorism and weighs the opportunities for, and constraints on, 
terrorists considering a WMD attack in ``Chemical and Biological 
Terrorism: New Threat to Public Safety?'' (Conflict Studies, December 
1996/January 1997). Jerrold Post and Ehud Sprinzak stress the 
psychopolitical considerations inhibiting potential WMD terrorists in 
``Why Haven't Terrorists Used Weapons of Mass Destruction?'' (Armed 
Forces Journal, April 1998). For a solid compilation of essays on 
superterrorism, see Brad Roberts, ed., Terrorism with Chemical and 
Biological Weapons: Calibrating Risks and Responses (Alexandria: 
Chemical and Biological Arms Control Institute, 1997). Walter Laqueur 
surveys the history of terrorism and finds an alarming number of 
barbarians at the gate in ``Postmodern Terrorism'' (Foreign Affairs, 
September/October 1996). John Deutch takes a counterintuitive look at 
the subject in ``Think Again: Terrorism'' (FOREIGN POLICY, Fall 1997). 
Finally, David Kaplan provides the best available study of Aum 
Shinrikyo in his excellent book The Cult at the End of the World: The 
Terrifying Story of the Aum Doomsday Cult, from the Subways of Tokyo to 
the Nuclear Arsenals of Russia (New York: Crown Publishers, 1996).
    The World Wide Web provides a number of resources for 
superterrorism research. The Carnegie Endowment for International 
Peace's Nonproliferation Project and the Henry L. Stimson Center 
provide regular coverage of nuclear-, chemical-, and biological-weapons 
issues, including terrorism. The Federation of American Scientists 
publishes a wealth of government documents as well as excellent news 
and analysis pertaining to weapons of mass destruction. And the State 
Department's ``Patterns of Global Terrorism'' provides one-stop 
shopping for information on some of the world's more notorious 
organizations. For links to these and other Web sites, as well as a 
comprehensive index of related articles, access www.foreignpolicy.com.

    Mr. Klink. I thank the chairman.
    Mr. Chairman, again, to you and my friend, Mr. Upton, I 
hope that we have an ability to work better together on these 
than we have on this instance.
    And I think that this is an important issue. As I said 
before, it may or may not be a problem, but we would like the 
opportunity for our staffs to be involved with the majority 
staffs in helping to put these hearings together on a little 
closer basis.
    [The prepared statement of Hon. Ron Klink follows:]
Prepared Statement of Hon. Ron Klink, a Representative in Congress from 
                       the State of Pennsylvania
    Today, we are beginning the work of the Subcommittee in the new 
Congress by looking for a solution to a problem that is not yet 
defined, will not be defined in this hearing and may not really exist. 
The Congressionally mandated release of worst case scenario impacts in 
an easily accessible format to help the public, relevant state and 
local officials and industry avoid and mitigate the results of the 
accidental release of dangerous chemicals has now--at least for the 
majority's press purposes--become a ``road map for terrorism.'' 
Yesterday, before hearing even a single witness, Chairman Bliley held a 
press conference and announced that there was a problem that he would 
correct by introducing legislation.
    The real question we should be addressing today is will this 
information accessible to all help us avoid the 8,000 serious chemical 
releases and those three to four hundred deaths every year that result? 
We are not doing that. The hysteria about terrorism that the majority 
is attempting to whip up may just be another in a long line of attempts 
by the chemical industry to once again to avoid disclosures about the 
very real risks their plants pose to communities. Some witnesses today 
will call for changes in the Freedom of Information Act in which 
Congress apparently would create two tiers of access, depending on 
where you live and what media you use to get your information. We have 
no evidence of why we should do this, no draft language to consider, no 
FOIA experts before us or even an administration position. Mr. 
Chairman, we expect that when you have draft language to show us, we 
will have that hearing.
    I spent most of the last Congress on this Committee looking for 
crimes that didn't exist, so I should not be surprised that we are now 
trying to solve problems that may not exist. Terrorist scenarios are 
very popular fodder for the press, the movies, sci-fi writers and some 
politicians right now. Counterterrorism experts and centers are 
springing up everywhere to make sure they get part of the federal 
largesse. But when my staff probed more deeply, we could not find any 
documented evidence of increased threats to chemical plants. In fact, 
we could not find any evidence worldwide that chemical plants had been 
terrorist targets. Military targets, yes, as the U.S. demonstrated in 
the Sudan recently; terrorist targets, no.
    The creation and release of information about chemicals at 
industrial facilities in the United States was mandated by Congress in 
1990. The world had witnessed the terrible results of releases from a 
chemical plant on humans in Bophal, India, and the frightening chemical 
releases from a sister plant in Institute, West Virginia. There are 
over 60,000 accidental releases every year, of which about 8,000 result 
in significant human or property damage. Between 300 and 400 people, 
mostly workers and first responders, die every year. This is the known, 
documented danger that Congress has told the Environmental Protection 
Agency to address by providing the public with information they needed 
to force these facilities to become safer.
    Much information is now available from the Environmental Protection 
Agency, in various media--and on the internet--about these chemicals, 
where they are and their effects when they are released. Thousands of 
communities, investors, first responders, medical people, workers, 
industrial safety officers and just plain citizens use it. Many worst 
case scenarios are already available because they have been provided to 
the communities involved and the press. There seems to be consensus 
that this information has reduced the threat of accidents; helped 
prepare first responders; assisted companies in identifying and 
eliminating or better handling their most dangerous chemicals; and 
helped communities in planning decisions about the siting of schools 
and residential facilities and the need for buffer zones.
    Right now, it is not difficult for you or I or a terrorist to 
determine by observation and a little research where chemical 
facilities are, what they manufacture, and how close they are to 
residential facilities. One of the witnesses today will tell us--and 
the world--that there are large numbers of chemical facilities near 
Wilmington, Delaware which he describes as a ``potential terrorists' 
dream'' that would allow ``an attack of massive proportions.'' That's 
pretty public, and it didn't take the internet or EPA to figure it out. 
We can see most of them from I-95.
    So what new threat are we looking at here today that would force us 
to rewrite our laws? The Chairman would have you believe that there are 
sophisticated, professional foreign terrorists from ``Los Angeles to 
Libya''--as he said yesterday--who only because of access to this 
information will move to the United States, bomb chemical plants and 
decimate entire population centers nearby.
    What evidence do we have of this? A one-month study done for EPA's 
advisory committee which attempted to model the possible increases in 
terrorists' attacks on chemical plants caused by putting worst case 
scenarios on the internet. You will hear that study cited today. It has 
many faults. This week, I will ask the General Accounting Office to 
review its methodology, credibility and reliability. But we already 
know that the modeling is questionable because there was only one 
terrorist incident involving chemical plants to provide a baseline. The 
other one cited was actually a scam in which the owner of some 
worthless chemicals in Virginia tried to blow them up for insurance 
money. The other involved a group of Klu Klux Klan members who were 
going to blow up some tanks at a gas refinery in Texas to create a 
diversion so they could rob an armored car.
    The contractor also assumed incorrectly that the industry had done 
all it could to improve plant safety. The criteria used in this study 
to define the type of information that would be useful were from 
military organizations, not from terrorist experts. Military 
organizations and terrorists have different agendas, motives and 
resources. Without objection, I would like to put into the record an 
article from a recent Foreign Policy issue by an Israeli historian of 
terrorism who describes extremely well the psychology and goals of 
terrorists based on actual events, and why he believes the current 
discussions of terrorism threats are vastly overblown.
    This, Mr. Chairman, is what we should be looking at--not trying to 
make sensational headlines.

    Mr. Bilirakis. I thank the gentleman.
    The Chair now recognizes the chairman of the full 
committee, the gentleman from Virginia, Mr. Bliley.
    Chairman Bliley. Thank you, Mr. Chairman, and I want to 
thank the chairmen of both subcommittees for holding this very 
important joint hearing today.
    Back in 1990, Congress required an estimated 66,000 
facilities to submit chemical accident prevention plans to the 
Environmental Protection Agency that, ultimately, would be made 
available to the public. Back then, Congress and the American 
people surely never imagined that the EPA would ever propose 
posting all of this information, including human injury 
estimates of a ``worst case'' chemical release, in a worldwide 
electronic database easily searchable from--as I said 
yesterday--from Boston to Baghdad or from Los Angles to Libya.
    Outside of a small group of researchers, no one even knew 
what the World Wide Web was back then. Today, we now know that 
the Internet has revolutionized information gathering and 
communication on a global scale.
    As Secretary of State Madeleine Albright recently stated 
about the growing threat of worldwide terrorism, ``the advance 
of technology has given us new means to counter terrorists, but 
it has also enabled terrorists to development more powerful 
weapons and to travel, communicate, recruit, and raise funds on 
a global basis.''
    It is against this dangerous background that we are here 
today to consider the best method of distributing sensitive 
information to the public, while also doing our very best not 
to facilitate acts of terrorism against those who live near or 
work in these facilities throughout our Nation.
    In response to security concerns from the FBI, the CIA, 
this committee, and others, EPA recently abandoned its original 
reckless plan to put the ``worst case scenario'' data at every 
terrorist's fingertips by posting it on the Agency's own 
Internet website.
    But EPA has yet to propose a suitable plan for providing 
this sensitive information to third parties, despite being 
aware of the potential danger for the last year, if not longer. 
And now we are facing a June 21, 1999, deadline to correct this 
problem. Because that is the date by which all these facilities 
must submit their data to EPA.
    Reasonable people can debate how much the terrorist threat 
to these communities will be increased by posting ``worst case 
scenarios'' on the Internet, but I believe the consequences of 
just a single actual attack could be so deadly, so tragic, that 
we cannot ignore even a small increased risk. We are talking 
about the life or death of real people, fellow Americans.
    In this regard, I was honored to meet yesterday Ms. Diane 
Leonard, a remarkable woman who was married to a Secret Service 
Agent killed in the Oklahoma City bombing, in April, 1995. 
Since then, she has worked to help victims of terrorism and to 
persuade legislators to take seriously the fight against 
terrorism. We learned from her that our debate has a human face 
and, with it, a human tragedy.
    I would like to share with you what she told me yesterday. 
I hope EPA is listening. She said, ``If any of those supporting 
the dissemination of this information on the Internet could 
step inside any of us who have lost loved ones to terrorism, 
they would change their position on this issue. They could feel 
the immense pain and the enormous hole that is left in your 
heart. They would not want to take the slightest risk with the 
lives of their husbands, wives, parents, children, or 
grandchildren.''
    Let me stress that no one here, including those in law 
enforcement and the intelligence communities, is advocating 
that we should keep this information locked up or away from 
those communities that have these facilities located within 
them or nearby. I, for one, certainly support making sure that 
these communities have access to all information about the 
risks associated with their facilities. But we also must ensure 
that the way this information is provided does not end up 
harming the very people that Congress intended to protect. 
While no plan is foolproof, we certainly shouldn't do anything 
to make it easier for those who want to harm our Nation and our 
neighbors.
    Because we can achieve both these goals without sacrificing 
the other, I believe we must achieve both. We owe nothing less 
to the American people.
    I hope by holding this hearing today, we can persuade those 
groups that seem intent on acquiring and spreading this 
information to do so responsibly.
    And, Mr. Chairman, I would like, at this time, to ask 
unanimous consent to insert in the record a letter that I 
received from the Assistant Director of the Office of Public 
and Congressional Affairs at the FBI concerning this. And I 
will quote briefly from it.
    ``This communication is sent in response to your letter 
dated September 17, 1998. Publishing the Offsite Consequence 
Analysis (OCA) data of the risk management plans on the 
Internet would provide a targeting tool for a person planning a 
terrorist or criminal act. The OCA contains the `worst case 
scenario' information, which includes distance to endpoint 
calculations detailing the size of an area affected in a 
release.'' And it goes on from there.
    And with that, Mr. Chairman, I ask unanimous consent to 
make it a part of the record, and thank you for yielding me 
this time.
    Mr. Upton. Without objection, so ordered.
    [The information referred to follows:]

                        U.S. Department of Justice,
                           Federal Bureau of Investigation,
                                                   October 9, 1998.
Honorable Tom Bliley
Chairman, Committee on Commerce
House of Representatives
Washington, DC 20515
    Dear Mr. chairman: This communication is sent in response to your 
letter dated September 17, 1998.
    Publishing the Offsite consequence analysis (OCA) data of the Risk 
Management Plans (RMP) on the Internet would provide a targeting tool 
for a person planning a terrorist or criminal act. The OCA contains the 
Worst Case Scenario information which includes distance to end point 
calculations detailing the size of an area affected in a release. The 
OCA information also provides the population affected which, stated in 
another way, is the number of potential casualties from an attack on a 
particular facility. Additionally, the RMP information could be 
searched by zip code or address to target a particular area first, and 
then by reviewing the available RMPs an attack could be tailored for 
effectiveness.
    EPA proposed placing all of the information on the Internet, while 
including ``speed bumps'' in the system to slow down access. This 
proposal has been reviewed within the FBI and the Intelligence 
Community and has generally been determined to be an ineffective means 
of protecting the information.
    The FBI and the EPA have been working together to identify options 
to the Internet distribution. The following mechanisms have been 
identified, which would provide the information as directed in the 
Clean Air Act and yet limit the potential for misuse of the information 
for a terrorist or criminal act:
<bullet> The RMPs, minus the OCA data, would be available on the 
        Internet. This would eliminate the targeting potential. This 
        would however provide individuals with registration information 
        regarding facilities in their area, Five Year Accident History, 
        Prevention Programs, and Emergency Response information. This 
        would be available in an open format.
<bullet> State and local government agencies would have access to all 
        national RMP data via a closed computer system. This system may 
        have resource implications involved, however, this will allow 
        for up to date immediately available information to first 
        responders and emergency planning agencies while protecting the 
        information from improper dissemination.
<bullet> A compact disk (CD) of the information could be created for 
        research and environmental organizations with all of the 
        comparison data, without the identifying or contact 
        information. This would allow for national trends and to be 
        analyzed and nationwide data to be studied, but would alleviate 
        the potential for targeting of particular facilities based on 
        this information.
    These mechanisms should address all of the compliance issues facing 
EPA regarding the implementation of the Community Right to Know 
legislation and will also provide useful information to researchers and 
environmental groups.
    One issue left unresolved by these suggestions involves the re-
distribution of information on the Internet by private groups. The 
information could be collected by private agencies through Freedom of 
Information Act requests (FOIA). Current FOIA law would require release 
of this information in an electronic format. EPA advised FBI that 
environmental groups have stated they will acquire the information and 
disseminate over their web sites if EPA does not provide the 
information in its entirety via the Internet.
            Sincerely yours,
                                       John E. Collingwood,
    Assistant Director, Office of Public and Congressional Affairs.

    Mr. Upton. The gentleman from the great State of Michigan, 
Mr. Stupak, is recognized for----
    Mr. Stupak. Thank you, Mr. Chairman.
    Mr. Upton. [continuing] an opening statement.
    Mr. Stupak. Thank you, Mr. Chairman, and thank you for 
holding the hearing here today. First, let me say I look 
forward to working with Chairman Bilirakis, again, on the 
Health and Environmental Subcommittee. And I want to welcome my 
colleague from Michigan, Mr. Upton, as Chair of the Oversight 
and Investigations Subcommittee.
    The Oversight and Investigations Subcommittee of the 
Commerce Committee has a very distinguished history. I am proud 
to work with my friend and colleague from Michigan and look 
forward to him returning the Oversight and Investigations 
Subcommittee to its proper role.
    I know there are no shortages of work in areas like 
healthcare, the environment, telecommunication, energy, and 
securities. It is my hope we can examine many of these issues 
to perform oversight on the Federal Government, State 
government, and private industry.
    As a former law enforcement official, I feel very strongly 
about preventing terrorism and protecting our citizens. I 
believe it is reasonable to question how the information 
required by section 112(r) of the Clean Air Act should be made 
available to the public and to emergency response units.
    I want to hear from the EPA, the FBI, and other interested 
stakeholders about its information. However, I also want to 
keep ``our eye on the ball'' and not become hysterical. With 
all due respect, I cannot understand why some members had a 
press conference with the widow of a victim of the Oklahoma 
City bombing about this very subject. I would point out that 
under section 112(r), the Federal building in Oklahoma City 
would not have had a file a risk management plan; hence, this 
hearing does not involve the Oklahoma City bombing. To bring 
forth this tragic event is wrong.
    On the other hand, section 112(r) would have covered the 
Ford plant that recently experienced an explosion in Detroit. 
It is possible that information contained in the plan could 
have assisted the emergency response team in extinguishing the 
explosion and helping the many injured people there.
    Section 112(r) was inserted into the Clean Air Act to 
ensure that citizens had the ability to understand the dangers 
in their community and to require industry plans for possible 
disasters. I know of no incidents of terrorism where an 
industrial facility was the target of a terrorist attack, but 
can think of a number of industrial accidents where risk 
management plans could have helped, and should have helped.
    In Michigan, in my district, there has been intentional and 
also accidental release of ``sour gas,'' better known as 
hydrogen sulfide, from gas wells in Michigan. Over 30 people 
have been hospitalized in the last 18 months; 9 of them in 
October. Even the emergency response crews who tried to help 
the injured were overcome by these fumes.
    Finally, I cannot help but think all the publicity 
surrounding this hearing is having an unintentional 
consequence. Later on today, we will hear from a witness who 
explains how the cluster of industrial facilities surrounding 
Delaware City are vulnerable to terrorist attack. 
Unfortunately, the testimony will paint exactly the type of 
roadmap that he is concerned about, that the EPA will provide. 
So what do we do then? His testimony will then go on to the 
subcommittees' website and be made available to the public and 
terrorists all around the world.
    Mr. Chairman, I think we can have a reasonable discussion 
today about how the information made available under section 
112(r) should be made available to the public and emergency 
response units. I have spent my life as both a law enforcement 
officer and a public official concerned about protecting our 
citizens.
    I certainly think that preventing terrorism is an important 
and urgent goal, but I don't think we should use rhetoric and 
overstated fears in order to justify amending the Freedom of 
Information Act.
    I look forward to the witnesses and to the discussions that 
will follow, and I look forward to working with both chairmen 
today and in the future.
    Thank you.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Bryant, for an opening statement.
    Mr. Bryant. Thank you, Mr. Chairman. Mr. Chairman, and my 
fellow members of the committee, good morning.
    As a new member of the Commerce Committee, I just wanted to 
say that I am looking forward to serving in this new capacity 
and looking forward to working with you all.
    I want to welcome our guests and witnesses who are with us 
today and thank you for your time and your testimony this 
morning.
    The issue that we are addressing today seems to be 
primarily about competing policy concerns; that is, keeping the 
public informed of potential threats from chemical accidents, 
and keeping the threat of terrorist attacks to a minimum. It 
also seems to me that these two concerns are not mutually 
exclusive.
    I understand that there is a need for State and local 
emergency and health officials to have access to the 
information contained in the ``worst case scenarios,'' but 
there should be a way--and maybe we will address this today--to 
make certain that the parties who need to know all the 
information they need can get that without creating security 
risks.
    That having been said, I will say that my primary concern 
here today is that we do not make it easier for terrorist 
entities or others in the United States or elsewhere in the 
world to search for and target facilities with large supplies 
of potentially dangerous chemicals.
    I can tell you, too, that I would place a great emphasis on 
what our professional law enforcement agencies opinions are, 
and especially the Federal Bureau of Investigation.
    But I do want to thank the chairmen today, both Chairman 
Bilirakis and Chairman Upton, for holding this hearing. I think 
it is an important issue and one that could impact millions of 
Americans, and I look forward this morning to hearing the 
different opinions represented here, and, hopefully, we will be 
able to shed some light on this matter.
    Again, I thank the chairmen.
    Mr. Bilirakis. And I thank the gentleman.
    Ms. DeGette, for an opening statement.
    Ms. DeGette. Thank you, Mr. Chairman.
    First, Mr. Chairman, I would ask unanimous consent to 
submit Congressman Green's opening statement for the record.
    Mr. Bilirakis. Without objection.
    [The prepared statement of Hon. Gene Green follows:]
  Prepared Statement of Hon. Gene Green, a Representative in Congress 
                        from the State of Texas
    Thank you, Mr. Chairman, for holding this important hearing on the 
distribution of disaster plans of companies by the Environmental 
Protection Agency.
    I support the original statue that would make these risk management 
plans, including the ``worst-case'' scenarios, available to the public.
    American citizens need have the right to know the risks of living 
in a particular community and local officials need the information in 
the event of an accident.
    However, we must also balance this right to know with those dangers 
with the need to prevent this information from being used to do harm to 
our workers and community.
    In the years since this law was passed, only two deliberate attacks 
on facilities have occurred.
    Meanwhile, over 1 million accidents have occurred. With this in 
mind, I believe we should focus on ways to increase our response times 
to these accidents and limit the amount of harm caused by them.
    Posting or not posting this information on the internet will not 
stop those who seek to attack these facilities. Making these plans more 
widely available will, however, increase the safety of those who live 
near the facilities where hazardous materials are produced, stored or 
used.
    Moreover, reducing the hazardous materials and potential danger 
would reduce the incentive of potential terrorists to target these 
sites.
    In my district in east Harris County--Houston, Texas, I have 
attended meetings for over a year with my local industry on the ``worst 
case'' scenarios--we need coordination, and if a real problem exists 
lets correct it without limiting our ``right to know'' laws.
    My district, located in Houston, has many communities--Galena Park, 
Channelview, Jacinto City, Pasadena--that sit side by side with large 
petrochemical plants.
    The residents of those communities deserve to have easy access to 
this information, so that they can know what dangers are in their 
backyards.
    Any information that the EPA releases should not contain details of 
the facilities' security measures or specifics of the layout. This 
would also make targeting facilities more difficult.
    I believe that, while there is the potential for this information 
to be misused, the benefits of letting families know what hazards are 
in their neighborhood should be our foremost concern.
    If we reduce the amounts of chemicals being stored at these sites, 
then we reduce the chance of a major disaster, whether caused by 
accidental or deliberate actions.
    Finally, it is my understanding that the EPA already has the power 
to ensure that these facilities have an adequate level of security for 
the materials that they store.
    Just like we should develop security guidelines to protect our 
embassies abroad, we should do the same for all potential domestic 
targets.
    It is worth noting that the embassies that were recently bombed did 
not meet the suggested security guidelines.
    Mr. Chairman, in our attempt to prevent terrorism, we should not 
place our citizens' health at greater risk by withholding valuable 
information.

    Ms. DeGette. Thank you.
    Mr. Bilirakis. The opening statements of all members of the 
two subcommittees are made a part of the record.
    Ms. DeGette. Thank you, Mr. Chairman.
    Mr. Chairman, initially, let me say I am very pleased and 
honored to welcome here a Colorado citizen and, also, a long 
and dear friend of mine, Tim Gablehouse, who will be testifying 
before this committee. Tim is a member of the Colorado 
Emergency Planning Commission and serves as the chair of the 
Governor's Interagency Advisory Group on Hazardous Materials. 
He is also a member of the Clean Air Act Advisory Subcommittee 
on Accident Prevention. And a little-known fact about Tim is he 
was one of the prime authors of the brownfield legislation that 
we passed in a bipartisan way in Colorado when I was in the 
statehouse, which has now cleaned up scores of sites, and 
businesses and environmental groups love this bill. So, I am 
very glad that Tim is here today to lend us his expertise on 
this particular area.
    Mr. Chairman, under the Clean Air Act, section 112(r) 
requires an estimated 66,000 facilities that use extremely 
hazardous chemicals to alert workers and the public what could 
happen in a chemical accident. And it is important to note that 
this particular section is restricted to agencies that use 
extremely hazardous chemicals. The scenarios are part of a 
larger risk management plan and are designed to prevent 
pollution and protect our communities.
    Local agencies, like fire departments, benefit greatly from 
access to these plans. But, also, people like school principals 
who have schools located near a plant benefit greatly from 
knowing what kind of evacuation plan they need to put in place 
if there is an accident.
    So, why are we here today to debate this? Because, we are 
told terrorists might find the information and target 
facilities? But is our concern so great today that we are 
willing to shroud a veil of secrecy around these chemical 
facilities and forsake the safety and health of families who 
live in nearby neighborhoods, especially since the information 
we are providing is not information that could give intimate 
details that would give someone any better ability to undergo a 
terrorist attack?
    Broad public availability of these plans is essential to 
provide communities with the most accurate and timely 
information regarding toxic chemicals and offsite consequences 
of accidents scenarios. This is information communities need to 
have to make intelligent decisions on how to prepare for 
chemical accidents.
    Many of these communities are in rural areas with volunteer 
fire departments, without the specialized equipment or training 
to safety respond to hazardous waste and chemical fires.
    Another thing I did when I was in the statehouse was we 
recognized the need for legislation in places where you have 
volunteer fire departments like this and other agencies, when 
we passed--in a bipartisan, overwhelming way--legislation that 
I authored which increased the access and streamlined the 
access that these local agencies would have to risk management 
plans. And those kinds of access are working very, very well in 
many places. As far as I know, we haven't had one terrorist 
attack on any of these facilities in Colorado. And we have 
broadened the information available to local agencies and 
neighborhoods.
    Some industry groups are opposed to the broad public 
availability of these plans on the Internet because of the 
threat of terrorism. But, as I said, these plans do not provide 
critical details such as security measures at the facility, 
which would be essential to a terrorist attack. In fact, now, 
any person can obtain information about the largest and most 
dangerous chemical facilities without access to the Internet. 
State-sponsored terrorists have many other tools to work at 
their disposal. Local criminals or disgruntled workers 
certainly are not going to need the Internet for their 
nefarious deeds. You don't need to be a rocket scientist or use 
the Internet to figure out how to wreak havoc on a facility.
    The EPA has a legal obligation to make sure that accurate 
information is available to the public. And I think that 
whichever way they decide is the most important. We should 
support that through this committee. And that is why last year, 
in April, I wrote a letter to Carol Browner, the Administrator 
of the Environmental Protection Agency, urging the EPA to fully 
implement the risk management planning provision of the Clean 
Air Act, to give communities full and open access to 
information regarding toxic chemicals and accident scenarios.
    And I would ask unanimous consent to submit my letter for 
the record, Mr. Chairman.
    Mr. Bilirakis. Without objection.
    [The information referred to follows:]

                     Congress of the United States,
                                  House of Representatives,
                                                    April 24, 1998.
The Honorable Carol Browner
Administrator, Environmental Protection Agency
401 M Street, S.W.
Washington, DC 20460
    Dear Administrator Browner: I am writing to urge you to fully 
implement the Risk Management Planning provision in Section 112(r) of 
the Clean Air Act to give communities full and open access to 
information on toxic chemicals and accident scenarios. As you know, I 
am committed to the protection of the public from the risks presented 
by chemical storage and use, especially in the minority communities 
within my district that have been unfairly subjected to these risks.
    I believe that broad public availability of these plans is 
essential in providing communities with the best and most timely 
information regarding toxic chemicals and the off-site consequences of 
accident scenarios. I am aware, however, that some industry groups are 
opposed to the broad public availability of these plans on the Internet 
because of the threat of terrorism. This concern is misplaced, however, 
because Risk Management Plans do not provide critical details, such as 
security measures at a facility, which could be used by terrorists.
    The EPA has a legal obligation to make certain that accurate 
information is made available to the public. Planning for a response to 
a chemical incident demands the communication and cooperation of the 
impacted public, first response agencies and facilities. Failing to 
make the off-site consequence analysis available could promote 
speculation and unnecessary confusion for the public. Therefore, I urge 
you to go forward with this implementation.
    Thank you for attention to this matter. If you have any questions, 
please feel free to contact me or have your staff contact Nick 
Karamanos at (202) 225-4431.
            Sincerely,
                                             Diana DeGette,
                                                Member of Congress.

    Ms. DeGette. Thank you.
    Mr. Bilirakis. Please finish up.
    Ms. DeGette. I am.
    Mr. Bilirakis. Thank you.
    Ms. DeGette. I accept the possibility, Mr. Chairman, though 
very remote, that terrorists might try to use the risk 
management plans. But I think that the benefit to communities 
far outweighs this small risk, and, therefore, I think that 
this provision of the Clean Air Act should be implemented in 
the most fair and public way possible.
    And I yield back the balance of my time.
    Thank you, Mr. Chairman.
    Mr. Bilirakis. I thank the gentlelady.
    Dr. Coburn, for an opening statement.
    Mr. Coburn. I have no written statement, but I would make a 
couple of comments.
    Being from Oklahoma, we know what terrorism does. We are 
very well aware of what it does. I, also, have in my district, 
a company that had a fire that we did not have the knowledge 
on. So, I understand, also, the importance on how to address 
that.
    As we go forward in this, it is very important that both of 
those concerns be evaluated. I am tending to side, as I wait to 
hear your viewpoints, on the fact that the information, in the 
long run, will not hurt us and that it, in fact, may help us 
despite the risk.
    But, I do not believe that you can underestimate the risk 
of potential terrorism with this information. And I have 180 
families from Oklahoma that would gladly testify to that 
effect.
    So, please, do not carry it lightly, the potential impact 
that information in the wrong hands can have, because when it 
is used and made easy, people do die, and families are 
disrupted.
    And I yield back.
    Mr. Bilirakis. I thank the gentleman.
    Mrs. Capps, for an opening statement.
    Ms. Capps. Thank you, Mr. Chairman.
    I am very honored to be a part of this subcommittee and 
look forward to working with you on this and other issues.
    I want to let the witnesses know today that I have come 
with an open mind; I want to learn about this. It is a new area 
that we need to explore carefully, and for my part, with an 
open mind.
    I have long, in my community, been a part of disaster-
preparedness, task forces, and plans. And I can tell you some 
chemical ``worst case scenarios'' that, in the fragile part of 
the central coast of California where I live, where there is 
one highway--just one--that goes up and down my district. That 
being responsible for the health and well-being of a lot of 
schoolchildren, we did have toxic spills, and we were faced 
with some local disasters which I must keep in mind as I listen 
carefully today.
    Thank you very much.
    Mr. Bilirakis. Thank you very much, and you are more than 
welcome to this committee.
    Mr. Blunt, the gentleman from Missouri. He is not here.
    Mr. Bilbray, for an opening statement.
    Mr. Bilbray. Yes, Mr. Chairman.
    I would like to welcome our new member from California, and 
let me just say, in the spirit that our new member brought up, 
I would ask us not to take such hard-line positions one way or 
the other. My background of--as I have stated before, coming 
from the county of San Diego, with 2.8 million people, those of 
us in California were addressing this issue not more than, you 
know, probably 10 years ago. And the issue of, can you protect 
the public from terrorism, at the same time protect them from 
the dangers of uncontrolled and irresponsible handling of 
hazardous waste, is something that we tried to balance in 
California almost a decade ago.
    I would just ask us to understand that there has got to be 
a happy medium between giving the information that terrorists 
can use, and as the gentleman from Oklahoma pointed out; it's 
not a problem, and you do not realize it is a problem until it 
is too late, and then everybody sort of strikes their breast 
and says, ``Oh, how could we be so sinful to overlook this 
problem?'' And the other side, though, we have got to be able 
to balance the issue of making sure that we are not giving a 
formula for terrorism, but also the fact of allowing the public 
the right to know.
    I think that there is the flip side of the right for trial 
lawyers and, basically, people who would use psychological 
terrorism on the community would use that information. But on 
the flip side of those who are in the business community, who 
would love to hide the fact, that maybe there are irresponsible 
handling of hazardous materials.
    I would just ask us to try not to get painted into one 
corner or the other extreme, because the answer is that more 
toward the middle. And, I think that the American people 
deserve for us to talk about the facts and work out an answer, 
rather than draw lines at one extreme to the other and be able 
to throw problems at each other.
    So, I would yield back my time, Mr. Chairman.
    Mr. Bilirakis. Ms. Eshoo, for an opening statement.
    Ms. Eshoo. Mr. Chairman, I am not going to compete with the 
bells, but what I will do is submit my opening statement for 
the record and thank both of the ranking members and the 
leaders of our subcommittees for having this joint hearing.
    I think this is an issue that we all care about, and the 
full disclosure of accidents and our analysis is really very 
important to encouraging the right kind of information to come 
forward.
    I don't see this as a partisan issue. We need to bring the 
best of what the Commerce Committee has been about, to help set 
up a network and something that is going to work across the 
Nation to serve all of our constituents.
    Thank you.
    [The prepared statement of Hon. Anna G. Eshoo follows:]
Prepared Statement of Hon. Anna G. Eshoo, a Representative in Congress 
                      from the State of California
    Thank you Mr. Chairman.
    With passage of Section 112 of the Clean Air Act, Congress took a 
giant step forward in the effort to prevent pollution, save lives and 
protect property.
    We acknowledged, with that bill, that full disclosure of accident 
scenarios is critical to encouraging safer technologies and reducing 
hazards associated with chemical spills.
    Unfortunately, chemical accidents are not infrequent.
    Every 15 minutes, a chemical fire, spill, or explosion occurs in 
the U.S.
    In my district alone, 78 chemical releases were reported to the 
National Response Center last year. And those represent only the 
reported incidents. Many incidents are never even reported.
    We all want to ensure protection from chemical terrorism.
    I was very pleased to see an additional $1.4 billion in the 
President's budget for domestic defense against biological attacks.
    However, a firm commitment to prevention of deadly chemical 
releases is equally critical.
    And the best way to ensure community safety--whether from 
wrongdoing or ordinary accidents--is to reduce the inherent hazards of 
chemical operations.
    I am looking forward to hearing from all of the speakers on how we 
might fashion a thoughtful solution to ensure community access to 
critical chemical release data while not facilitating acts of 
terrorism.

    Mr. Bilirakis. I thank the gentlelady for her very wise 
remarks. She is known as maybe the wisdom of this committee.
    Mr. Burr, for an opening statement.
    Mr. Burr. Thank you, Mr. Chairman, and I will be extremely 
brief.
    Mr. Chairman, I remember the last time I had the 
opportunity to meet with Shimon Peres here, and I remember 
looking across the table to him and asking one question: What 
do you see as our greatest threat in the future? And he looked 
at me and he said, ``The disregard for human life. The ability 
for somebody willing to give their life to make a political or 
ideological statement by taking the lives of potentially 
millions of people.''
    This really isn't a difference that we have got about 
public disclosure. It is a concern that exists between parties 
about terrorist disclosure.
    I want to read you one thing; it is Presidential Decision 
Directive 39, PDD 39. The EPA is a listed, covered agency. The 
general statement said that ``it should be the directive that 
terrorism is both a threat to our national security as well as 
a criminal act. The administration has stated that it is the 
policy of the United States to use all appropriate means to 
deter, defeat, and respond to all terrorist acts on our 
territory and resources, both people and facilities. Wherever 
they occur in support of these efforts, the United States 
will''--and let me just read point one--``employ efforts to 
deter, preempt, apprehend, and prosecute terrorists.''
    I believe that this directive clearly states that we will 
make it difficult, if not impossible, for terrorism on our 
territory, not easier.
    Clearly, I think that, Mr. Chairman, we need to exercise 
common sense as we go through this. This is not a difficult 
issue. But, clearly, there are differences between competing 
agencies that they could solve, if they would just read this 
directive.
    And I yield back.
    [The prepared statement of Hon. Richard Burr follows:]
 Prepared Statement of Hon. Richard Burr, a Representative in Congress 
                    from the State of North Carolina
    Thank you Mr. Chairman. As a Member of both the Health and 
Environment and Oversight and Investigation subcommittees, I am pleased 
that we are having this hearing today. Since my first year in Congress, 
we have spent a good deal of time looking at problems that arose out of 
the Clean Air Act Amendments. Today the issue that we face is, in my 
opinion, quite grave. In addition to sitting on the Commerce Committee, 
I am fortunate to have a seat on the International Relations Committee. 
On that Committee, we are very concerned about the activities of 
international terrorists and our nation's ability to prepare for and 
respond to terrorist incidents abroad. In the wake of the Oklahoma City 
and World Trade Center bombings, it is important to realize that we 
face both an external and internal terrorist threat. I believe this 
hearing is an important step for this Committee and this Congress in 
dealing with terrorist threats at home.
    The witnesses we have assembled for today's hearing have varying 
positions from 1) we should not gather worse case scenarios; 2) we 
should have the worse case scenarios, but not allow them to be produced 
in electronically reproducible formats; 3) we should post the scenarios 
on the Internet for all to see; and 4) that this is public information, 
and should be easily retrievable.
    I personally have great concerns that the information on worst case 
scenarios could fall into the wrong hands. If an individual or group 
wants to do harm on American soil, this information could quickly and 
easily point them to a location that is both environmentally sensitive 
and would, if tampered with in some way or destroyed, have a pretty 
good idea of how many people would be killed or injured.
    Our country has a proud safety tradition. As our industries 
continue to work to assure a safe work environment and a high community 
safety record, does it really make sense to post how to cause the 
greatest damage at these locations?
    I believe making worst-case scenarios publicly available puts us in 
the position of having to deal with a Bhopal-type chemical release that 
could potentially kill and injure thousands of people. Only this time, 
it would not happen in a far-away country, and it would not be an 
accident.
    I look forward to our exchange with our witnesses. I particularly 
will be interested to learn what type of interagency review this 
decision has undergone and to learn about any technological advances 
that have been made to make sure that this sensitive information is 
kept secure.
    While we consider the very serious internet publication and 
security questions that are before us today, I would also remind my 
colleagues that we need to consider the business impacts upon those in 
our communities who must comply with the risk management plan rules. 
Specifically, it concerns me that the EPA, the agency charged with 
protecting our environment, has included non-toxic fuels like propane 
under this rule. But that is an issue for another day and another 
hearing.
    Again, thank you for holding this hearing and thank you to our 
witnesses for their testimony.

    Mr. Bilirakis. I thank the gentleman.
    Mr. Barrett, for an opening statement.
    Mr. Barrett. Thank you, Mr. Chairman.
    Let me simply say it is a pleasure to be on the committee.
    Mr. Bilirakis. Thank you; you are more than welcome.
    Mr. Barrett. I know we have got a vote time--and I am 
looking forward to hear the testimony.
    Thank you.
    Mr. Bilirakis. I thank the gentleman.
    Mr. Greenwood, for an opening statement.
    Mr. Greenwood. Thank you, Mr. Chairman.
    I can only add that I think this is a technical question. I 
think that we will yield to bare-minded reasoning, and I think 
we ought to be about that business.
    I yield back.
    [Additional statements submitted for the record follow:]
 Prepared Statement of Hon. Nathan Deal, a Representative in Congress 
                       from the State of Georgia
    Good morning and thank you, Mr. Chairman, for holding this hearing 
regarding the proposed internet posting of chemical ``worst case'' 
scenarios.
    Over the years, Congress has enacted numerous laws to ensure that 
the public is protected from chemicals, and to give the public more 
information about chemicals in their neighborhoods and on store 
shelves. An element common to our environmental protection programs is 
the government sets protection levels at a level that includes a large 
margin of safety. For example, if a pesticide is being tested to 
determine whether it is safe, margins of safety are built in when 
considering the amount of pesticide that will be used, the number of 
people who might be exposed, the amount that will remain on the crop 
when it reaches the consumer, the amount the consumer will eat, and the 
susceptibility of a given person to dangers from the pesticide. The 
final limits set by the government may be 1,000 times more stringent 
than necessary to be protective, all in the name of safety.
    Generally, the same kind of safety precautions are built into 
programs dealing with other chemicals. Regulators at the Environmental 
Protection Agency and other agencies know that it is not enough to base 
safety standards on the common man. They make sure our standards cover 
the uncommon person who would be more susceptible. This not only 
includes children, but also groups or individuals who because of 
advanced age, genetic, cultural or other reasons may face greater 
risks.
    While these safety precautions are important, I am concerned about 
the way the EPA is implementing the ``Risk Management Plan,'' which 
contains, among other things, ``worst-case scenario'' data. The plans 
to make this information available to the public in a searchable 
electronic format could pose the potential threat of allowing foreign 
companies to gain information about American industries. Law 
enforcement officials have warned that such a format could give 
terrorists blueprints to industrial facilities. I am quite concerned 
that the EPA could not prevent third parties from gaining access to the 
``worst case'' scenario data in electronic format and posting it on 
their own websites. It could potentially cause real-life consequences 
by putting information about the chemical industries on the world wide 
web. Congress ought to pass laws to make people safer, not increase 
risks.
    I thank the Chairman for focusing on this issue, and look forward 
to hearing from our witnesses.
                                 ______
                                 
Prepared Statement of Hon. Barbara Cubin, a Representative in Congress 
                       from the State of Wyoming
    I'd like to thank the two distinguished chairmen, Mr. Bilirakis and 
Mr. Upton, for holding this important--and timely--hearing today on the 
national security and public safety implications of electronic 
dissemination of chemical release data. I see that we have several 
panels of experts in the field of law enforcement and emergency 
response who will focus on the extent of the problems which could arise 
should this information be placed on the Internet. I look forward to 
hearing their testimony.
    In recent months, I have heard from numerous propane dealers in my 
State of Wyoming regarding their concerns about the potential for 
terrorist attacks on their facilities should the EPA disseminate the 
Risk Management Plans to the public, including the worst-case scenario 
data. I share their concern in that regard and believe that the threat 
of terrorism far outweighs the public safety concerns.
    The threat of terrorism is growing worldwide. We have witnessed far 
too much of that here at home in recent years, with the Oklahoma City 
bombing, the bombing of the World Trade Center in New York and attacks 
on individuals with letter bombs by Theodore Kazinsky. We need not give 
these terrorists additional means to impose their will upon the 
citizens of this country.
    It is my hope that today's witnesses will provide these 
subcommittees with some concrete suggestions as to how to provide 
communities with adequate information to respond to chemical accidents, 
while avoiding the risk of making it easier for international 
terrorists to obtain this potentially dangerous information on the 
World Wide Web.
    Thank you.

    Mr. Bilirakis. All right. I appreciate the consideration of 
part of the members. We do have a vote on the floor. I think 
maybe the wise course at this point in time, since we have no 
further opening statements up here, is to recess. We will run 
over, make the vote, come back, and then we can start with you 
good gentleman.
    Thank you for your patience.
    The Chair has recessed then for, let us say, 15 minutes or 
so.
    [Brief recess.]
    Mr. Bilirakis. Can we have order, please?
    The first panel consists of Chief John M. Eversole, Chief 
Fire Officer and Commander, Hazardous Materials Division, city 
of Chicago Fire Department; Mr. Robert M. Blitzer, Associate 
Director, Center for Counterterrorism Technology and Analysis, 
Science Applications International Corporation, McLean, 
Virginia; Mr. E. James Monihan, Volunteer, Lewes Fire 
Department, in his capacity as Delaware State Director; Mr. 
Timothy R. Gablehouse, Chair of Jefferson County Local 
Emergency Planning Committee, member of Clean Air Act Advisory 
Subcommittee on Accident Prevention, Denver, Colorado, and Mr. 
Brett Burdick, Environmental Programs Manager, Department of 
Emergency Services, Commonwealth of Virginia, Richmond, 
Virginia.
    Welcome, gentleman. Chairman Upton and I look like we are 
playing musical chairs up here this morning. You should know--
you probably have already guessed--that he is a member of the 
Committee on Education, and they have a markup taking place in 
the committee. Every time he shuffles out of here, he has got 
to vote either on the floor or in committee.
    Mr. Upton. Mr. Chairman, if I indulge, I am just glad I got 
Mr. Greenwood to go with me because he is on the committee as 
well, and it was by one vote that we prevailed.
    Mr. Bilirakis. You prevailed by one vote.
    Mr. Burr. Mr. Chairman.
    Mr. Bilirakis. Yes, sir.
    Mr. Burr. Could I ask for a unanimous consent request and 
the indulgence of my colleagues on the other side to enter into 
the record the GAO report, ``Combatting Terrorism,'' which is 
where I quoted from, and I have been asked----
    Mr. Bilirakis. Without objection, that will be done.
    [The report, GAO/NSIAD-97-245, is retained in subcommittee 
files.]
    Mr. Brown. Mr. Chairman?
    Mr. Bilirakis. Mr. Brown.
    Mr. Brown. I also ask unanimous consent to enter into the 
record, one, the opening statement for Mr. Dingell, then, a 
letter to Mr. Waxman from the Environmental Health Coalition 
and, also, a letter to Mr. Bliley from several groups; OMB 
Watch and several others, if I could ask----
    Mr. Bilirakis. Without objection, that will be the case.
    [The prepared statement of Hon. John D. Dingell and the 
letter referred to follow:]
    Prepared Statement of Hon. John D. Dingell, a Representative in 
                  Congress from the State of Michigan
    Mr. Chairman, you piqued my interest with your catchy title for 
this hearing: ``Worst-Case Scenarios: A Roadmap for Terrorists?''
    That question certainly deserves an answer. But it also begs 
another question: If worst-case scenarios are a ``roadmap for 
terrorists,'' then what? Do we abolish the clear statutory requirement 
for planning for ``worst-case scenarios'' at industrial facilities? Do 
we restrict the public's access to this information? That will demand a 
careful balancing of the public's need for this information against the 
reality (and I hope we will carefully consider the reality) of 
terrorist threat.
    I know all too well, and all too recently, the devastation felt by 
a community rocked by an industrial disaster. Nine days ago, an 
explosion at Ford's River Rouge Plant in Dearborn, Michigan killed two 
employees and injured thirty others, many of whom are in critical 
condition.
    We are virtually certain that this was no act of terrorism. It may 
have been caused by something less intriguing, like natural gas, coal 
dust, or other hazardous materials routinely kept on site--everyday 
practices, for some reason, gone awry. An explosion caused by something 
much more common than an act of terrorism can be just as deadly.
    It was just these types of devastating daily occurrences that 
section 112(r) of the Clean Air Act was designed to prevent. They range 
in magnitude from the disaster at Bhopal to a relatively small plant 
fire which causes no injury. I know that terrorism is a more newsworthy 
topic, and one of policy and political interest to both parties. But in 
this inquiry today, and anything that may result from it, we must not 
lose sight of the important purposes of section 112(r), entitled 
``Prevention of Accidental Releases.''
    The intent of the drafters of this section is clear. The section 
provides, ``It shall be the objective of the regulations and programs 
authorized under this subsection to prevent the accidental release and 
to minimize the consequences of any such release . . . of any substance 
listed . . . or any other extremely hazardous substance.'' To achieve 
this purpose, the facilities that handle threshold amounts of extremely 
hazardous substances are required to implement risk management plans to 
detect and prevent or minimize accidental releases, and to provide a 
prompt emergency response to any such releases. An integral part of 
this plan is the evaluation of worst case accidental releases--also 
called the worst-case scenario. This is a statutory requirement, one 
which Congress believed was necessary to provide first-on-the-scene 
responders all information possible to save lives and property. But the 
statute also provides that all of the information shall be available to 
the public on an equal footing with the other recipients of this 
information.
    We may ask why the public needs this information. What can a 
community do to prevent accidental releases at a facility in the 
community, or 2,000 miles away? The answer is: plenty. The community is 
likely comprised of workers at that facility who can talk to the 
management about their handling of dangerous materials in the 
community. The management could, in turn, implement better practices 
nationwide. The community can put together plans for land use based 
upon information that the facility gives them. Some small communities 
do not have local agencies charged with emergency response planning, so 
they need information to develop their owns plans for response. In 
short, Congress saw the wisdom of enabling the community to minimize 
risks to their own families. If the facility that stores extremely 
dangerous substances listens to its workers and creates a safer 
workplace, then the facility is less prone to accidents or terrorist 
attack, and the intent of the statute has been met.
    In making any decision as to whether we should create obstacles to 
public disclosure, we must also consider this reality: anything we make 
available to the public, we also make available to certain people who 
intend to use it for unlawful purposes. The drafters of the Clean Air 
Act may not have been sensitive to Internet issues, but we certainly 
knew this inherent risk of a free and open society.
    As to the particular mode of disclosure on the Internet, we should 
ask several questions. If the worst-case scenario information is placed 
on the Internet, is there any more risk of terrorist attack than if it 
were available in print? What is contained in the worst-case scenario 
that might provide a roadmap for terrorists? As I read the 
requirements, there is no obligation that a facility disclose the exact 
location of its on-site tanks, or the valves on those tanks. There 
certainly is no requirement that the facility disclose the nature of 
its security system. Is the information so much more attractive to 
terrorists than that which already has been disclosed by these 
facilities, that is already on the Internet, and that has not been 
attractive to terrorists thus far?
    I hope that we will carefully consider the answers to these 
questions, and weigh these answers against the need to prevent and 
minimize the consequences of the more common phenomenon of industrial 
accidents like the tragedy in Dearborn.
    As of yet, we have seen no legislative proposal from the Majority 
on this issue, and indeed such a proposal would be premature prior to 
our obtaining more information. I would hope that any legislative 
proposal would be bipartisan in nature, and expect that it undergo a 
full and fair legislative hearing.
                                 ______
                                 
                    Environmental Health Coalition,
                                       San Diego, CA 92101,
                                                  February 9, 1999.
Rep. Henry Waxman
2204 Rayburn House Office Building
Washington, DC 20515
    Dear Representative Waxman: I am writing today to tell you that the 
California Risk Management Prevention Plan law has worked well to 
reduce chemical accident hazards, without any incidents where publicly 
available information was misused in any way.
    The Environmental Health Coalition is an 18-year-old environmental 
justice organization that works on toxic pollution in the San Diego-
Tijuana region. California's Risk Management and Prevention Plan 
program was passed in 1987 and administered in San Diego County by the 
County Department of Environmental Health. Since the first local RMPPs 
were completed in 1990, EHC has watch dogged this program and reviewed 
and commented on the draft public RMPP documents. In reading these 
public documents we have made significant changes in their equipment, 
operating procedures, and training in order to reduce their accident 
hazard. We believe that knowing the RMPP will be publicly available is 
a major motivating factor for the industries to undertake risk 
reductions. This right-to-know aspect of the RMPP program is an 
important way that the program achieves the objectives of reducing 
accident risk. After reviewing the RMPP public documents, we have 
recommended additional improvements to the industry's prevention plan, 
which have often been accepted. Beyond this, the RMPPs have served to 
educate us and the communities we serve about the extent of the 
accident hazards from chlorine gas, ammonia, and other acutely toxic 
materials. We are able to engage in more informed dialogue with RMPP 
industries about their accident hazard to the community. At no time has 
the information ever been used in California for any terrorist types of 
acts. This is a completely bogus issue which is always raised when the 
public's right to know is at issue.
    In sum, the Right to Know always works to protect the public 
health, and has never produced any of the negative consequences that 
are feared from it. The RMPP program in California has reduced accident 
hazards at many sites, without public hysteria, terrorist incidents, or 
any other catastrophic outcomes.
            Sincerely,
                                              Joy Williams,
                                     Community Assistance Director.
                                 ______
                                 
                                                  February 9, 1999.
The Honorable Thomas Bliley
Chairman, House Committee on Commerce
United States House of Representatives
Washington, DC 20515
    Dear Chairman Bliley, As organizations committed to preserving the 
public's right to know, access to government information, and the free 
flow of information, we are writing to express our concern and 
opposition to proposals to limit public access to concerning accidents 
at chemical plants (EPA's unclassified Worst Case Scenarios data). It 
is our understanding that you are considering the creation of a new 
exemption to the Freedom of Information Act (FOIA), or amending the 
Clean Air Act to exempt this information from the provisions of FOIA, 
and have discouraged the EPA from using the Internet to provide public 
access to this publicly available data.
    FOIA was designed to allow the public to inquire about and monitor 
government activities. Since its passage, individuals, journalists, 
academics, community leaders have used FOIA to research, study, and 
utilize public information created or collected by the government. FOIA 
gave government the affirmative responsibility to make information 
widely available to the public.
    Three years ago, Senator Patrick Leahy's amendments to FOIA, EPOIA, 
expanded the rights of individuals, assuring public access to 
information in all media, and encouraged the use of the Internet for 
the dissemination of government information. EPOIA ensured that the 
public's interest in access to information would benefit from advances 
in technology and that information could not be withheld simply because 
it was in electronic form.
    The Clean air Act, like FOIA, seeks to empower citizens by 
providing information critical for communities to assess the safety of 
companies operating in their midst by planning and comparing 
information about their communities in order to make informed decisions 
about their lives. the dissemination of information is critical to the 
success of the Clean Air Act, giving individuals the ability to monitor 
the toxins in their community.
    The Internet and other digital media have given individuals an 
unprecedented ability to access information and utilize their right to 
know with ease and efficiency. Congress recognized, in passing EPOIA, 
that technology has great power to ``foster democracy by ensuring 
public access to agency information.'' The amendments expanded the 
information actually--not just legally--available by making frequently 
requested records more readily available ``through computer 
telecommunications.'' Exempting specific information from the FOIA, or 
any effort to set medium-based limits on the release of government 
information to the public, has an impact on the public's right to 
access information.
    We urge you not to put forward such proposals or, at the very 
least, to help ensure that there is a full hearing with input from all 
of the affected communities including public interest groups, 
journalists and other frequent FOIA requesters.
            Sincerely,
                             American Association of Law Libraries.
                                    American Civil Liberties Union.
                                  Association of Newspaper Editors.
                               Center for Democracy and Technology.
                                    Electronic Frontier Foundation.
                                                         OMB Watch.

cc: Chairman Steve Horn, House Subcommittee on Government Management, 
Information and Technology; Representative Robert Goodlatte, Internet 
Caucus Co-Chair; Representative Rick Boucher, Internet Caucus Co-Chair; 
Senator Conrad Burns, Internet Caucus Co-Chair; Senator Patrick Leahy, 
Internet Caucus Co-Chair; Representative W.J. ``Billy'' Tauzin; 
Representative Michael G. Oxley; Representative Michael Bilirakis; 
Representative Joe Barton; Representative Fred Upton; Representative 
Cliff Stearns; Representative Paul E. Gillmor; Representative James C. 
Greenwood; Representative Christopher Cox; Representative Nathan Deal; 
Representative Steve Largent; Representative Richard Burr; 
Representative Brian P. Bilbray; Representative Ed Whitfield; 
Representative Greg Ganske; Representative Charlie Norwood; 
Representative Tom Coburn; Representative Rick Lazio; Representative 
Barbara Cubin; Representative James E. Rogan; Representative John 
Shimkus; Representative Heather Wilson; Representative John B. Shadegg; 
Representative Charles W. ``Chip'' Pickering; Representative Vito 
Fossella; Representative Roy Blunt; Representative Ed Bryant; 
Representative Robert L. Ehrlich, Jr.; Representative John D. Dingell; 
Representative Henry A. Waxman; Representative Edward J. Markey; 
Representative Ralph M. Hall; Representative Edolphus Towns; 
Representative Frank Pallone, Jr.; Representative Sherrod Brown; 
Representative Bart Gordon; Representative Peter Deutsch; 
Representative Bobby L. Rush; Representative Anna G. Eshoo; 
Representative Ron Klink; Representative Bart Stupak; Representative 
Eliot L. Engel; Representative Thomas C. Sawyer; Representative Albert 
R. Wynn; Representative Gene Green; Representative Karen McCarthy; 
Representative Ted Strickland; Representative Diana DeGette; 
Representative Thomas M. Barrett; Representative Bill Luther; and 
Representative Lois Capps

    Mr. Bilirakis. The Chair now will yield to Mr. Upton for--
--
    Mr. Stupak. Mr. Chairman?
    Mr. Bilirakis. I will yield to Mr. Upton, and then I am 
sure he will yield to you, Bart.
    Mr. Upton. And I just might say, Chairman Bilirakis and I 
had a deal that I was going to race back and make the vote and 
come back so the hearing could prevail, continue without any 
stoppage, and I did my end of the bargain, Mike. I made it back 
and forth to the floor, and then I found out that you had to 
adjourn anyway.
    Mr. Stupak.
    Mr. Bilirakis. Good exercise.
    Mr. Stupak. Mr. Chairman, I want to raise a point, a 
parliamentary inquiry, if I may.
    Under rule 11(G)(4), which requires all non-governmental 
witnesses to submit a resume and disclosure of the companies' 
contracts--I believe Mr. Blitzer works for SAIC and is 
identified as working for SAIC. I have an entry form of SAIC's 
web page which indicates that it has Government contracts, and 
a number of them are described on the web page. On his 
disclosure form, he answers the answer about grants and 
contracts as, ``don't know,'' and I am sure that he probably is 
not aware of some of them.
    But my question is: Is this proper compliance with the 
rule? Because it is, obviously, if you go to the web page, SAIC 
does have a financial interest in the subject matter before 
this hearing. So, I raise that as a point of order, and ask if 
it is a proper compliance with the rule 11(G)4?
    Mr. Upton. First of all, I thank the gentleman for his 
inquiry, and I also thank him for the ``heads up'' that he was 
going to raise this so we could be prepared. And I share his 
concern, that the committee conduct its proceedings in 
compliance with the applicable rules of the House. And, as I 
understand it--and I will ask the witness to address this prior 
to his testimony--Mr. Blitzer is here to testify in his 
individual capacity and not as a representative of any 
organization and association. And, therefore, so long as he, 
himself, has not received any Federal grants or contracts as an 
individual during the current fiscal year, or any of the 
preceding 2 fiscal years, he has nothing to disclose in terms 
of truth in his testimony.
    I appreciate the inquire from my friend from Michigan.
    Mr. Brown. Mr. Chairman.
    Mr. Upton. The gentleman from Ohio.
    Mr. Brown. I would just like to add that I hope that in the 
next--in the ensuing 24 months and this 23 months that this 
committee meets, that we will follow the same standards and be 
consistent.
    I remember with some regularity over the last couple of 
years or less--4 years, really--we have seen not always evenly 
applied standards on this issue. And your side has typically 
brought this issue up, and I just hope that we can work this 
out. And Mr. Bilirakis has always been very fair about things, 
and I hope we can continue that.
    Mr. Upton. I wish to assure the gentleman from Ohio and 
Michigan that we intend to be consistent, absolutely consistent 
with that policy, and look forward to working together on this.
    Mr. Stupak. Mr. Chairman, just so the record is clear, I 
raise it because I believe--and I am happy to submit the web 
page to the record if you would like, but the SAIC had a 
contract to do part of the security study for the EPA, and that 
is what is being discussed here today, especially under Freedom 
of Information Act and rule 112(r). So, I believe there is a 
financial interest here. It is stated for the record, and I am 
satisfied with that, but I want it clear for the record.
    Mr. Upton. Thank you.
    Mr. Stupak. Thank you.
    Mr. Upton. Okay, at this point, we will move ahead.
    We need a table back here.
    Okay. Well, you are aware that this subcommittee, 
gentlemen--you are aware that this subcommittee is an 
investigative subcommittee and, as such, has had the long 
practice of taking testimony under oath. Do you have any 
objection to testifying under oath? Any of you?
    [Witnesses indicate no.]
    Mr. Upton. No? Then the Chair, then, advises each of you 
that, under the rules of the House and the rules of the 
committee, you are entitled to be advised by counsel. Do any of 
you desire to be advised by counsel during your testimony 
today?
    [Witnesses indicate no.]
    No? Let the record reflect that all said, ``No.''
    In that case, if you would please rise and raise your right 
hand, I will swear you in.
    [Witnesses sworn.]
    Mr. Upton. Each of you is now under oath, and you now give 
a 5-minute summary of your written statement. I would note, for 
the record, that your full statement will be printed in the 
record in its entirety, and if you would like to summarize 
that, that would be just fine.
    And we will start with Mr. Burdick.

TESTIMONY OF BRETT A. BURDICK, ENVIRONMENTAL PROGRAMS MANAGER, 
  DEPARTMENT OF EMERGENCY SERVICES, COMMONWEALTH OF VIRGINIA; 
TIMOTHY R. GABLEHOUSE, CHAIR, JEFFERSON COUNTY LOCAL EMERGENCY 
    PLANNING COMMITTEE, AND MEMBER, CLEAN AIR ACT ADVISORY 
    SUBCOMMITTEE ON ACCIDENT PREVENTION; E. JAMES MONIHAN, 
VOLUNTEER, LEWES FIRE DEPARTMENT, AND DELAWARE STATE DIRECTOR, 
 NATIONAL VOLUNTEER FIRE COUNCIL; ROBERT M. BLITZER, ASSOCIATE 
DIRECTOR, CENTER FOR COUNTERTERRORISM TECHNOLOGY AND ANALYSIS, 
  SCIENCE APPLICATIONS INTERNATIONAL CORPORATION, AND FORMER 
DIRECTOR, COUNTERTERRORISM PLANNING SECTION, NATIONAL SECURITY 
    DIVISION, FEDERAL BUREAU OF INVESTIGATION; AND JOHN M. 
EVERSOLE, CHIEF FIRE OFFICER AND COMMANDER, HAZARDOUS MATERIALS 
   DIVISION, CITY OF CHICAGO FIRE DEPARTMENT, AND CHAIRMAN, 
  HAZARDOUS MATERIALS COMMITTEE, INTERNATIONAL ASSOCIATION OF 
                          FIRE CHIEFS

    Mr. Burdick. Thank you; good morning.
    My name is Brett Burdick, and I work with the Virginia 
Department of Emergency Services.
    Mr. Upton. Speak a little bit more into the microphone so 
all can hear.
    Mr. Burdick. How is that? Thank you.
    I work with the Virginia Department of Emergency Services, 
and, in that position, I am in the Hazardous Materials Program 
as the environmental programs manager. My background 
encompasses both regulatory work and public safety activities. 
I have worked in environmental regulatory programs as a first 
responder to oil and hazardous materials releases and emergency 
management and public safety programs, and currently involved 
in addressing consequences of the criminal use of hazardous 
materials throughout the commonwealth. My career experience 
really spans nearly all of the issues germane to the 112(r) 
discussion.
    Let me begin by saying it is opinion that this is not a 
clear black and white, clear-cut issue. Important interests 
compete between free and open disclosure of information 
important to public safety and the need for securing that 
information which may be used by criminals and terrorists in 
the furtherance of their activities.
    Paradoxically, the goal, both of securing and of 
disseminating this information, is exactly the same; that of 
promoting public safety. Whether by establishing barriers to 
free communication or by attempting to break these barriers 
down, we are all on the same side here, and I think that is 
important. In the final analysis, neither side is right or 
wrong. It is merely a question of how we want to steer this 
course to the common goal.
    In any emergency response to hazardous materials 
emergencies, incident managers drilled in the concept of 
achieving desirable outcomes through balancing risks and 
benefits. And the best scenario is, of course, is one where a 
desirable outcome can be achieved by any low risk of high-
benefit action. Usually, though, that is not the case. As a 
bottom line in guidance, accident managers need to seek 
promising courses of action with an acceptable level of risk 
relative to the benefit to be achieved. Balancing these risks 
and benefits is how hazardous materials managers do our job.
    I talk about these procedures because I think it is useful 
to apply that sort of standard in this current issue. If we can 
identify the risks and benefits of a particular course of 
action, we can more objectively evaluate our decisions and 
create those desirable outcomes.
    Posting ``worst case scenario'' information on the Internet 
does accomplish many commendable and desirable goals. It 
conforms to the concepts of Government in the sunshine and free 
access to information, both of which I believe in fully. It 
allows easy access to the information by any interested citizen 
who has access to a computer, and it may, in fact, increase 
awareness of the population at large to these conceivable, 
albeit unlikely ``worst case scenarios'' of chemical exposure.
    There are some significant risks associated with that as 
well. While easily accessible to private citizens, it is 
equally available to those who may wish to use the information 
for criminal purposes. Some ``worst case scenarios'' are a 
virtual blueprint for assaulting the public safety. Information 
would be equally available anonymously to anyone from Dallas to 
Dahran, and, as Mr. Bliley said, ``from Boston to Baghdad.'' 
And the packaging of this information on the Internet could 
allow almost effortless scrolling through ``worst case 
scenarios'' simply by zip code. Individual areas could 
conceivably be targets.
    If we restrict posting the information on the Internet, we 
risk some level of failure to share public safety information. 
It is my opinion that this is not a decided infringement on 
legitimate public right to know. Alternatives still exist, for 
instance, Freedom of Information Act disclosures. While it is 
less convenient and more cumbersome than ``surfing the Net,'' 
that sword cuts both ways. A FOIA request requires at least 
supplying a return address. The anonymity issue goes away under 
this system. That should not offend anyone legitimately seeking 
information and may dissuade a potential criminal from using 
that.
    I do want to be absolutely clear; I don't argue that this 
information should not be developed under 112(r). I think it is 
important. And, I do not argue that it should not be shared 
with first responders and the public at large, merely, that 
reasonable and acceptable alternatives exist to dissemination 
on the Internet.
    I have heard arguments that posting this information will 
result in significant benefit to hazardous materials response 
teams. I think that that is basically true; it is not 
exclusively true.
    Most fire departments and teams already know the location 
of facilities that store and use these hazardous substances. 
Preplanning on the part of the departments takes this into 
consideration. Most hazardous materials responders, for 
instance, are fully aware that the rupture of a chlorine-
containing railcar might, under extremely adverse respond 
conditions, yield to plume many miles, and perhaps tens of 
miles, downwind. That is something we know. I think that, while 
response organizations would undoubtedly benefit from being 
supplied with facility-specific information, it should not be 
on the Internet to be effective.
    I think that the alternatives with FOIA are, in fact, 
proven and successful. And based on all of this, the risk 
benefit ratios, in my mind, I have come to the conclusion that, 
in fact, the Internet posting is not the proper course of 
action.
    I thank you, sir.
    [The prepared statement of Brett A. Burdick follows:]
    prepared statement of brett a. burdick, virginia department of 
                           emergency services
    Good Morning. I am Brett Burdick with the Virginia Department of 
Emergency Services where I work as the Environmental Programs Manager 
in the Hazardous Materials Program. I appreciate the opportunity to 
provide you with my testimony on the issue of posting 112(r) ``worst 
case scenario'' information on the Internet.
    My background encompasses both regulatory and public safety 
matters. I have worked in environmental regulatory programs, as a first 
responder to oil and hazardous materials releases, in emergency 
management and public safety programs, and I am currently involved in 
addressing the consequences of the use of hazardous materials in 
criminal acts. My career experience has spanned nearly all of the 
issues germane to the 112(r) debate.
    Let me begin by stating that this is not in my opinion a clear-cut, 
black and white issue. Important interests compete between free and 
open disclosure of information important to public safety and the need 
for securing that information which may be used by criminals and 
terrorists in the furtherance of their activities. Paradoxically, the 
goal both of securing and of disseminating this information is the 
same--that of protecting public safety. Whether by establishing 
barriers to free communication or by attempting to break these barriers 
down, proponents on both side of the debate are climbing the same 
mountain. In the final analysis, neither side is right or wrong. It is 
merely a question of the proper course of action to accomplish this 
common goal.
    In the emergency response to hazardous materials emergencies, 
incident managers are drilled in the concept of achieving desirable 
outcomes through balancing risks and benefits. The best scenario, of 
course, is one where a desirable outcome can be achieved by low risk, 
high benefit actions. It is common that site conditions make these 
decisions more difficult and we need to weigh carefully the risks we 
must take. As bottom-line guidance, incident managers must seek a 
promising course of action with an acceptable level of risk relative to 
the benefit achieved. Balancing risks and benefits is how hazardous 
materials managers make public safety decisions during emergencies.
    I delve into this discussion of procedures because applying this 
risk-benefit analysis is, I think, useful in deciding the appropriate 
course of action in this matter. This particular risk-benefit model 
allows us to codify the arguments and proceed through them in a logical 
manner. If we can identify the risks and the benefits of a particular 
course of action we can more objectively evaluate our decisions and 
create desirable outcomes.
    Posting ``worse case scenario'' information on the Internet does 
accomplish many desirable goals. It conforms to the concepts of 
``government in the sunshine'' and free access to information--both of 
which I believe in fully. It allows easy access to this information by 
any interested citizen who has access to a computer. It may increase 
the awareness of the population-at-large to conceivable--albeit 
unlikely--potential threats of chemical exposure.
    Predictably, there are also some significant risks associated with 
free dissemination of this information. While easily accessible to 
private citizens, it is equally available to those who may wish to use 
the information for criminal purposes. Some ``worst case scenarios'' 
are a virtual blueprint for assaulting the public safety. The 
information would be equally available--anonymously--to anyone from 
Dallas to Dhahran, from Boston to Baghdad, and the packaging of the 
information could allow for almost effortless scrolling through ``worst 
case'' information sorted by zip code.
    If we restrict posting of the information on the Internet we risk 
some level of failure to share public safety information. Fortunately, 
I believe, this is not a decided infringement on legitimate public 
right to know. Alternatives to information dissemination still exist--
for example through Freedom of Information Act disclosures. While it is 
less convenient and more cumbersome than ``surfing the net,'' that 
sword cuts both ways. In addition, a FOIA request requires, at least, 
supplying a return address. This should not offend anyone legitimately 
seeking information and may dissuade a potential criminal or terrorist 
from acquiring these scenarios.
    Please let me be clear. I do not argue that this information should 
not be developed under 112(r) nor that it should not be shared with 
first responders and the public at large--merely that reasonable and 
acceptable alternatives exist to dissemination on the Internet. The 
benefits of inhibiting malicious use of this information are great.
    I have heard arguments that the posting of this information will 
result in a significant benefit to hazardous materials response teams. 
I think that, in reality, only a limited amount is to be gained by 
hazardous materials response organizations. Most fire departments and 
Teams already know the location of facilities that store and use these 
hazardous substances. Preplanning on the part of response agencies 
should already have been performed, and these should include worst-case 
scenarios. Hazardous materials responders are fully aware that the 
rupture of a Chlorine-containing rail car might, under extremely 
adverse response conditions, yield a plume many miles, perhaps tens of 
miles, downwind. While response organizations would undoubtedly benefit 
from being supplied with facility-specific information it need not be 
via the Internet to be effective.
    The information regarding those types of industries caught within 
the 112(r) net that are not required to report and plan under SARA--
such as bulk Propane storage, facilities that use Ammonia as a 
refrigerant, and those water treatment facilities that use Chlorine as 
a disinfectant--is already well known and available to emergency 
responders. Arguably, some benefit may be gained from the existence of 
additional information gathered under 112(r), but, again, absolutely no 
public safety-first response benefit is gained by posting this 
information on the Internet.
    I believe that there already exists a sound and proven system 
through which interested citizens of this nation can acquire this 
information. Those with an interest can assume the personal 
responsibility to educate themselves by requesting the information 
available to them through disclosure to federal, state, and local 
entities. There does not seem to be any compelling public safety reason 
to post these ``worst case scenarios.''
    When I weigh the risks and benefits of these differing courses of 
action, I conclude that the posting of 112(r) ``worst case scenario'' 
information on the Internet falls into a high risk, low or moderate 
benefit category. As a result I have concluded that it would not be 
prudent to post this information. Others reviewing this same 
information may conclude differently, as is their right. Within the 
risk-benefit framework, however, there is compelling reason to avoid 
this course of action.
    I appreciate the opportunity to have addressed this body. Thank 
you.

    Mr. Upton. Thank you very much.
    Mr. Gablehouse.

               TESTIMONY OF TIMOTHY R. GABLEHOUSE

    Mr. Gablehouse. Good morning, Mr. Chairman, members of the 
subcommittees. Thank you very much for this opportunity to 
testify.
    I chair the Jefferson County Colorado Local Emergency 
Planning Committee. I think it is important for you to 
understand the realities that are faced in areas that are not 
highly organized, do not have large and sophisticated fire 
departments, do not have institutional emergency planning 
activities, and, in fact, do not have member companies from CMA 
and other highly responsible organizations.
    Our reality is a lot different. The companies that we face 
on a day-to-day basis do not necessarily know how to conduct 
emergency management, don't know how to respond to accidents, 
don't always understand how to utilize the chemicals they have 
got. The fire departments that we have in our area are not 
large and sophisticated hazardous materials teams. They do not 
always understand what risks they are going into at a specific 
facility. They simply don't have that information.
    Local emergency planning committees in my part of the world 
are organizations that are a function of the volunteer efforts 
of their members. The members are the people that are doing 
Internet searches for information. The members are the people 
that are driving around town trying to identify facilities that 
ought to be reporting under APRA, and potentially the 112(r) 
program. These are people that perform these efforts just like 
any other citizen of this country might perform these efforts.
    I have supported putting this information on the Internet. 
I, as a member of the advisory subcommittee, paid a lot of 
attention to the debate we had. I am supportive of EPA's 
decision not to put the offsite consequence information on the 
Internet. That was a reasonable choice, given the decision 
before them.
    I believe the Agency is doing a good job in consulting with 
the other agencies and coming up with administrative approaches 
to keep this information in a manageable way. But you need to 
understand that there are dramatic benefits to having this 
information available.
    In my written testimony I have given you a couple of 
examples, but I think it suffices to say that we use this 
information and be willing to trust the companies in reporting 
facilities in our area, but we need to be able to verify the 
information simply because we recognize that they don't always 
understand what they are dealing with and the risks it 
presents.
    Having access on that broad scale to information that is 
nationally based is important to our efforts at the local 
level.
    Creditability in discussing risks with communities is 
essential. It is a waste of my time and the fire department's 
time and other people's time if what we are doing is fighting 
about accident scenarios and whether or not they are good, bad, 
big enough, small enough, or whatever. We have here the 
opportunity to create a national database that puts to rest a 
lot of those issues.
    What we face now, and what we will face undoubtedly in the 
future, is debate, guesswork, inflammatory statements, all by 
people who will put their information on the Internet, 
undoubtedly. That conversation and that debate does not promote 
risk reduction in the community. It does not promote the 
capability of the local responders to plan for a terrorist 
incident or chemical fire. We face these chemical incidents on 
a daily basis. They routinely injure first responders. They 
routinely cause property damage and economic losses. That 
happens all the time.
    Access to information that allows a community to better 
prepare, that allows a community to verify the information they 
are obtaining from other sources, by comparison to other 
companies in other parts of the country and to other response 
planning efforts in other parts of the country, are critical to 
the credibility we need to support this effort in our 
community.
    Thank you, Mr. Chairman.
    [The prepared statement of Timothy R. Gablehouse follows:]
 Prepared Statement of Timothy R. Gablehouse, Chair, Jefferson County 
   Colorado Local Emergency Planning Committee and Member, Colorado 
                     Emergency Planning Commission
    Mr. Chairman and members of the subcommittees, I very much 
appreciate this opportunity to testify regarding the interrelated 
issues of emergency planning, emergency response and the public's 
access to information. Regardless of whether the question is terrorism 
or hazardous materials accidents, the burden and responsibility of 
preparedness and the initial "first" response is on the men and women 
who live in the communities of this nation. My comments today will 
focus on the needs and concerns of these people.
    I come from a state that will not seek delegation of the Clean Air 
Act section 112r program. As with the Emergency Planning and Community 
Right-to-Know Act, this means that the burden and responsibility of 
understanding these programs falls to the people at the local level. It 
is at this local level that Local Emergency Planning Committees 
operate. I have been a member of the Jefferson County Committee since 
it was formed in 1987 and have been its chair for almost four years.
    In Colorado along with much of the nation the people that perform 
these functions are volunteers. Whether they are interested citizens, 
members of volunteer fire departments, or representatives of local 
businesses, these people are not compensated to perform these 
functions.
    Today there will be testimony from representatives of the Chemical 
Manufacturers Association and fire departments from large communities. 
This is not our reality in Colorado and the mountain West. If emergency 
preparedness was always conducted in conjunction with highly 
responsible, experienced and responsible companies, and by well-trained 
and equipped emergency response organizations, we would not face the 
debate currently before us on whether or not the public at-large 
deserves access to accident risk, prevention and response information.
    Our reality is companies large and small that do not understand or 
practice appropriate safety measures. Our reality is volunteer fire 
departments without the specialized equipment or training to safely 
respond even to structure fires and much less hazardous materials 
incidents. Our reality is local governments not having the sort of 
information they need for land use planning decisions that reduce the 
risk of injury and property damage resulting from chemical accidents.
    We can only learn and improve by looking outside our community. It 
is important to understand the techniques used by other communities and 
businesses similar to ours. It is important to understand what risks 
have been identified and described in other communities. It is 
important to understand the prevention and emergency response programs 
practiced by businesses similar to ones in our community.
    We use this information not only as an aid in planning and 
preparedness. We use this information to aid local businesses in 
complying with regulatory programs. We use it to aid local governments 
in land use planning and zoning decisions. We use it to inform the 
public about risks in the community and the roles they can play in 
reducing risks.
    Recently all of this information came into play in the debate 
surrounding the siting of a new school in Congressman Udall's district. 
Not far from the proposed location is an industrial area. This 
industrial area is not within any city, nor is it within the boundaries 
of any fire district.
    The Local Emergency Planning Committee had to file suit against one 
of the businesses in this area in order to enforce its requests for 
information. The information was finally supplied, but that is not the 
end of the story. The business was not sophisticated in preventing 
accidents nor in emergency response procedures. They could not provide 
us with descriptions of the risks they presented to the community. They 
could not even provide adequate information or training to their 
employees.
    The LEPC used the Internet, as we frequently do, to educate 
ourselves about the risks presented by the chemicals at this business. 
We educated ourselves about the possible accident scenarios this 
business presented and the implications of these risks to the proposed 
school. Without government information from the Internet this task 
would have been difficult if not impossible.
    Many of the people providing testimony today seem to believe that 
there is no legitimate reason for members of the public to know about 
the accidents scenarios,prevention plans and emergency response 
procedures practiced in the rest of the country or even the next 
county. In my part of the country it is the public that is performing 
the function of accident preparedness and prevention. It is the public 
that are members of volunteer fire departments and local emergency 
planning committees. There is no valid distinction between members of 
the public at large and the people that perform these functions.
    Let me turn now to Section 112r of the Clean Air Act. While I do 
not want to minimize the terrible consequences of a terrorist incident, 
I do not believe the risk that Section 112r information will be useful 
to a terrorist is significant. On the other hand,we face an actual and 
much greater risk from chemical accidents. The very real potential for 
such incidents is a daily proposition.
    I serve on the EPA advisory subcommittee that considered these 
issues. I listened and studied the statements of the security experts 
that testified before that group. I have listened to the statements of 
the industry members concerned with this issue. I applied my own 
experience in the fields of emergency response and law enforcement.
    The fundamental truth, that is sometimes lost in this debate, is 
that facilities are responsible for their own security and accident 
prevention. The study I have conducted of this issue leads me to the 
conclusion that there is nothing in the 112r program and potential 
posting of information on the Internet that interferes with a 
facility's ability to perform these functions. The information 
submitted under the 112r program does not describe how to cause a 
chemical accident. The information does not describe the security 
systems that facilities have in place.
    On the other hand these same facilities expect responders to come 
when they have accidents. They expect the community to understand and 
appreciate their accident prevention efforts. They expect the community 
to tolerate whatever risk of a chemical accident the facility presents 
in return for the benefits that facility provides to the community. 
They expect the public to participate in emergency response and absorb 
the institutional costs of this response.
    Credibility is necessary to satisfying these expectations. Without 
credibility all that happens is the never ending debate of whether or 
not a company is too risky or inappropriate for the community. This 
lack of credibility leads to the breakdown of neighborhoods and the 
inability of a community to cooperate to better its situation. 
Representative DeGette and I suspect all of the members of the 
Subcommittees have been witness to the sort of community fights over 
the siting or expansion of an industrial facility that comes from a 
lack of trust and a failure of credibility.
    EPA has decided not to post the off-site consequence information on 
the Internet. The LEPC is prepared to live with that decision only 
because the full information will still be available at the state and 
local level. Even so, what will happen is that any number of people 
will fill the vacuum created by EPA's action by posting their own 
educated speculations or inflammatory guesses on the Internet. Instead 
of focusing on accident prevention and response the LEPC will be drug 
into the process of correcting misinformation.
    I believe that EPA has and will continue to reach reasonable 
compromise positions on the question of public access to information 
under the section 112r program. It is important to recognize that this 
information is useful to the public and is important to the reduction 
of accidents. The information is desired and any vacuum will be filled. 
I believe that it is more dangerous to promote misinformation than it 
is to take the risk that someone will misuse accurate information.

    Mr. Upton. Thank you very much.
    Mr. Monihan.

                 TESTIMONY OF E. JAMES MONIHAN

    Mr. Monihan. Good afternoon, Mr. Chairman, members of the 
subcommittees.
    I am E. James Monihan, former chairman and director, from 
Delaware, the National Volunteer Fire Council, and I appreciate 
this opportunity to give this testimony.
    The National Volunteer Fire Council provides a voice for 
the volunteer fire service, which is made up of 28,000 
departments across the country, staffed by over 800,000 men and 
women. We are the first responders, the frontline if you will, 
in an emergency in our community, anything from a dog falling 
through the ice who is drowning, through fires, auto accidents, 
hazardous materials, chemical, and biological incidents, both 
accidental and intentional. It is these people who must stand 
alone until the sophisticated systems kick in and help arrives 
in our communities.
    To us, the information under consideration is vital; 
however, our concern is the breadth of its distribution, beyond 
those involved in the community. We were most alarmed when we 
learned that the amendments in the Clean Air Act directed the 
EPA to release detailed data on all these sites; however, we 
are very gratified that the EPA has been very responsive to our 
concerns.
    Our concern is that, while we need to have information 
available to protect our communities and ourselves, that same 
information should not be used against the Nation and the very 
persons it is intended to protect.
    Since the amendments do not specify how this information 
should be made available, we urge the method to disseminate the 
data be carefully crafted to strike the proper balance between 
the public's right to know and the need to maintain a safe 
environment in our communities and reduce the probability of 
attack using this information as a catalyst.
    Our suggestion is that a mechanism be developed to allow 
the release of information from the risk management plans on a 
single site, accessible only to the citizens of the community 
and the organizations necessary.
    We are concerned that some individuals have expressed the 
desire to obtain the information through Freedom of 
Information, then, publish it on their own websites. We feel 
this is unnecessary. It is wrong; it is dangerous, because we 
see no reason to give terrorists a guide or, if you will, a 
``Home Shopping Network'' to the most hazardous sites in the 
country.
    As several members have already mentioned, we do have, as 
reflected in my written testimony, a complex in the State of 
Delaware. This situation, however, is replicated across the 
country. The point is that these sites exist, and to give a 
detailed blueprint, to lead all the world to them, along with 
consequences of each, is just not necessary.
    In the middle of the--I'm sorry. Now if you understand the 
information--as the title of this hearing says--is offsite 
consequence analysis or ``worst case scenarios,'' can you 
imagine what a person shopping the Internet with terroristic or 
other damaging intents would think when they came across this 
detailed information on all these sites. I don't think I need 
to elaborate further on this matter. Quite frankly, in my 42 
years in the fire service, I have been involved in explosions, 
shot at, fallen through floors, and so forth, but to 
contemplate this is quite scary.
    Ladies and gentlemen, National Volunteer Fire Council has 
always been an advocate in the patient's right to know about 
hazards in this community. In fact, we use this information 
ourselves, as I said in the beginning. The community is much 
safer if the citizens are cognoscente of the risks surrounding 
them. In this situation, however, we see no reason to 
jeopardize the safety of the public and our personnel when 
there are perfectly reasonable alternatives available.
    Allowing access to the information in question on a single-
site basis only ensures that the information is available to 
those who need it, while still maintaining the integrity of our 
national security.
    And it has been mentioned here earlier--and some people 
don't see it that way, but it is a fact--we need only look to 
the World Trade Center and Oklahoma City bombings to see the 
mindset about which we are concerned. We can't afford to 
approach this by trial and error, to wait and see what happens.
    The National Volunteer Fire Council looks forward to 
working with these committees and the EPA, as well as other 
concerned groups, to develop a safe, secure mechanism that will 
protect everyone involved.
    Thank you for the opportunity to testify.
    [The prepared statement of E. James Monihan follows:]
Prepared Statement of E. James Monihan, National Volunteer Fire Council 
                      Director, State of Delaware
    Mr. Chairman and members of the committee, my name is James 
Monihan. I am the Delaware Director to the National Volunteer Fire 
Council (NVFC) and firefighter in the Lewes Fire Department in Lewes, 
Delaware. I have served as a volunteer firefighter for 42 years and 
have had experience in all phases of the life of a first responder, 
including chemical and hazardous materials incidents. On behalf of the 
volunteer fire service, I appreciate the opportunity to present you 
with the NVFC's concerns and suggestions regarding the dissemination of 
chemical site Risk Management Plans (RMP) data. The NVFC works to 
guarantee the safety of volunteer firefighters and the communities they 
protect and we want to ensure that this data is distributed in a safe 
and secure manner.
    The NVFC represents the interests of the nation's more than 800,000 
volunteer firefighters, who staff America's 28,000 volunteer fire 
departments. These volunteers represent the first response to many 
hazardous materials, biological, and chemical incidents, at which they 
must stand alone until help arrives.
    When the NVFC learned that the Environmental Protection Agency 
(EPA) was directed by amendments to the Clean Air Act to collect RMP's 
from approximately 66,000 chemical facilities across the U.S., we 
supported the initiative. These RMP's contain data about potential 
chemical release incidents and a given site's disaster recovery plans. 
We believe that it is important for communities and public safety 
officers to have access to this data so as to better protect 
themselves. However, we are alarmed that certain parts of the RMP data 
may be used against the United States and in turn harm volunteer 
firefighters and the communities they protect.
    Contained in the RMP data is information called ``Offsite 
Consequence Analyses'' (OCA). The OCAs, also known as ``worst-case 
scenarios'', reveal the worst possible environmental and explosive 
consequences of releasing a particular site's chemicals. Additionally, 
the OCAs provide an estimate of the damage, injuries, and deaths that 
could result from an accident involving these chemicals. Finally, the 
OCAs detail how the release of these chemicals can be triggered. The 
NVFC is very concerned that this data, if easily accessible, could be 
used by persons acting against the United States.
    The Clean Air Act amendments state that the RMP data be ``available 
to the public'', the Chemical Safety and Hazard Investigation Board, 
and to state and local agencies. The amendments do not specify how this 
information is disseminated. Originally, the Environmental Protection 
Agency planned to release all of the RMP data, including the OCAs, on 
an Internet site. A study by Aegis Research Corporation for the 
Chemical Manufacturers Association stated that placing the OCA data on 
the Internet would increase the risk of a terrorist attack on a 
facility by seven-fold, which in turn increases the risk to first 
responders and the communities they protect. However, we have since 
learned that the EPA, acting on the advice of the FBI, CIA, and other 
concerned groups, has decided not to release the OCA portion of the RMP 
data on the Internet. The NVFC applauds the EPA for this decision. This 
is an important step in ensuring that firefighters and citizens not be 
subjected to an unnecessarily dangerous situation.
    Unfortunately, the safety of first responders and their communities 
is not yet assured. The NVFC is concerned that some private 
organizations may obtain all of the RMP data by filing a Freedom of 
Information Act request, and then post the RMP data, including the 
OCAs, on their own Internet sites. The NVFC is vehemently opposed to 
this. Allowing access to this information to anyone with a computer and 
a phone line is exceedingly dangerous. We believe that this information 
and its release to the public must be carefully controlled in order to 
ensure that the risks associated with these chemical sites are not 
multiplied.
    The NVFC believes that the public has a right to obtain the 
information about chemical sites within their communities. We believe 
that educating the public about chemical risks is an important aspect 
of accident prevention. However, we think that there are methods to 
disseminate the RMP data that will strike the proper balance between 
the public's right to know and the need to maintain a safe environment 
for first responders and their communities. We recommend that a 
mechanism be developed to allow the release of RMP data on a single-
site only basis. This will permit public safety departments and 
citizens to access the RMP data on chemical sites within their 
community while still maintaining control over the distribution of the 
information. We see no reason to give terrorists a guided map to these 
potentially dangerous sites.
    Mr. Chairman, this situation is terrifying to me not only as a 
firefighter, but as an ordinary citizen as well. In Delaware City, 
which is located on the outskirts of Wilmington, there is an 
arrangement of industrial sites that is a potential terrorists dream. 
This major cluster of industrial structures, which is protected solely 
by volunteers, includes several chemical plants, an oil refinery, and 
an electrical generator. These sites, separated only by metal fences, 
are located on a railroad line. Additionally, these sites are located a 
quarter mile from the Chesapeake and Delaware Canal, which carries 
shipping between Baltimore and Philadelphia, two major metropolitan 
areas. If a terrorist were able to use a computer to search for 
potential disaster sites, Delaware City would show up as one of his 
best options. The release of these chemicals, coupled with the 
potential destruction of the oil refinery, would not only affect 
Wilmington's citizens, but also the entire region. The close proximity 
of these industrial sites would allow for an attack of massive 
proportions. The RMP data, in its entirety, would provide a terrorist 
with all the information needed to calculate the potential 
environmental and human casualties. Situations like that of Delaware 
City are located all over the country. Why would we make this 
information so easily accessible to someone who wants to harm our 
country?
    The NVFC has always been an advocate of the public's right to know 
about hazards in their communities. A community is much safer if its 
citizens are cognizant of the risks surrounding them. In this 
situation, we see no reason to jeopardize the safety of firefighters 
and citizens when there are perfectly reasonable alternatives 
available. Allowing access to the OCAs on a single-site basis only 
ensures that the information is available to those who need it while 
still maintaining the integrity of our national security. We look 
forward to working with the committee, the EPA, and other concerned 
groups to develop a safe, secure mechanism that will protect everyone 
involved. Thank you.

    Mr. Upton. Thank you very much.
    Mr. Blitzer.

                 TESTIMONY OF ROBERT M. BLITZER

    Mr. Blitzer. Good afternoon, Mr. Chairman, members of the 
committee.
    I am pleased to have this opportunity to discuss the 
electronic dissemination of chemical ``worst case scenarios'' 
by the EPA.
    Just as a point for the record, I am not here representing 
SAIC. I am here because of my past career with the FBI, and my 
remarks really focus on my experiences there.
    From January 1996, until I retired from the FBI at the end 
of November, I served as Chief of the Domestic Terrorism/
Counterterrorism Planning Section of the National Security. In 
this capacity, I was responsible for national oversight and 
management of several important programs to include Domestic 
Terrorism Operations--that is cases--Weapons of Mass 
Destruction Operations--again, case, oversight--Weapons of Mass 
Destruction Domestic Preparedness, Special Events Management, 
and Civil Aviation Security.
    I would just note to you, prior to that position, I held 
several management positions in the international terrorism 
arena. I helped manage the cases relating to PanAm 103, the 
World Trade Center, the threat to bomb the tunnels in New York, 
the threat to blow up airplanes over the Philippines in 1995, 
and, of course, last but certainly not least, the Oklahoma City 
bombing.
    In December 1997, the FBI became aware, through the 
Chemical Emergency Preparedness and Prevention Office of the 
EPA, that section 112(r) of the Clean Air Act of 1990 required 
the publishing of regulations focusing on the prevention for 
chemical accidents. In an effort to comply with these 
regulations, the EPA proposed to distribute risk management 
plans via the Internet and CD-ROM. These plans would include 
for each facility a number of things, including offsite 
consequence analysis.
    A number of meetings with representatives of the law 
enforcement and intelligence communities were held during 1997 
and 1998 to discuss security concerns relating to the making 
available of all RMP data relating to the approximately 66,000 
chemical sites within the United States. The proposed EPA 
electronic distribution plans were discussed with these 
agencies at great length.
    Of greatest concern to the law enforcement and intelligence 
communities, was the possible Internet dissemination of ``worst 
case'' and alternate ``worst case scenarios,'' as set forth in 
the OCA. Using the Internet, a terrorist, a criminal, or others 
could identify these scenarios and fine tune an attack by 
selecting ``worst case scenarios'' at facilities that were 
within or adjacent to large civilian or military communities.
    I must tell you, on a sidebar, the lack of intelligence on 
a target doesn't mean it is not being targeted. In each of the 
cases that I described to you that I helped manage over the 
years, there was little or no intelligence. There was no 
precursor information, indicating that a domestic or 
international terrorist group was going to hit the World Trade 
Center, for example, or, certainly, Oklahoma City. I think that 
is an important point.
    At the time we arrested the mastermind of the World Trade 
Center case, Ramseh Yousef, he had in his possession a 
computer. He was using a computer to plan the attack on the 
aircraft.
    I think that is an important point for all of you to 
consider, because we saw more and more, over the past couple of 
years, an increased use of computer technology by both domestic 
and international terrorists. They are well-aware of how to use 
computers; some of them are really experts. So, this was part 
of our thinking at the time.
    Based on our meetings, a number of interagency 
recommendations were developed and were provided to EPA in a 
letter dated October 30, 1998. The letter recorded interagency 
agreement that OCA data not be included in RMP information 
distributed via the Internet. Other data elements would be 
accessible to the public on the Internet, and EPA agreed to 
work with stakeholder groups to identify meaningful approaches 
to make appropriate OCA information available to the local 
community.
    To ensure that State and local government agencies have 
access to all national RMP data, it was recommended that the 
EPA use a ``closed'' system, restricted to State and local 
government agencies. This system should use secure password 
protection and encryption technology.
    Mr. Chairman, both the Department of Justice and the EPA 
Legal Counsel advised the FBI--this was in the past--that 
current Freedom of Information Act requires that EPA provide 
the complete RMP information including the ``worst case 
scenarios'' to a requestor. This is a potential problem for you 
to consider. If this information is obtained and posted on 
private Internet sites, the responsible steps taken by the FBI, 
EPA, and its interagency partners would be negated.
    The FBI and its interagency partners worked hard to strike 
a reasoned balance to ensure public dissemination of important 
information. I believe that the actions taken to prevent the 
widespread Internet dissemination of ``worst case'' sensitive 
chemical facility information was both prudent and necessary.
    This concludes my remarks.
    [The prepared statement of Robert M. Blitzer follows:]
Prepared Statement of Robert M. Blitzer, Associate Director, Center for 
     Counterterrorism Technology & Analysis, Science Applications 
                       International Corporation
    Good morning, Mr. Chairman and members of the Committee. I am 
pleased to have this opportunity to discuss the electronic 
dissemination of chemical ``worst case'' scenarios by the Environmental 
Protection Agency (EPA).
    From January 1996 until I retired from the Federal Bureau of 
Investigation (FBI) at the end of November 1998, I served as Chief of 
the Domestic Terrorism/Counterterrorism Planning Section of the 
National Security Division. In this capacity I was responsible for 
national oversight and management of several important programs to 
include Domestic Terrorism Operations, Weapons of Mass Destruction 
(WMD) Operations, WMD Domestic Preparedness, Special Events Management, 
and Civil Aviation Security.
    In December 1997 the FBI became aware, through the Chemical 
Emergency Preparedness and Prevention Office of the EPA, that Section 
112<SUP>'</SUP>of the ``Clean Air Act of 1990'' required the publishing 
of regulations focusing on the prevention of chemical accidents. In an 
effort to comply with these regulations the EPA proposed to distribute 
Risk Management Plans (RMP) via the Internet and CD-ROM. These plans 
would include for each facility a history of accidental releases, an 
off-site consequence analysis (OCA); a prevention program inclusive of 
company operating procedures, employee training, hazard evaluation and 
emergency response programs to ensure that either facility employees or 
public responders were prepared to deal with any accidents that might 
occur and thus minimize the consequences.
     A number of meetings with representatives of the law enforcement 
and intelligence communities were held during 1997 and 1998 to discuss 
``security concerns'' relating to the making available of all RMP data 
relating to the approximately 66,000 chemical sites within the United 
States. The proposed EPA electronic distribution plans were discussed 
with these agencies. The plans would allow users to initiate Internet 
searches by facility name, area of the country, zipcode, city, county, 
and state. A modified search by chemical type would allow a person 
using the EPA web site, to choose a portion of a city by zipcode and 
tailor an attack by searching for certain chemicals. A search of this 
nature could be accomplished from anywhere in the world. Additionally, 
no record of such a query would be made. Further searches could be 
tailored to developing information regarding chemical companies'' 
mitigation and safeguarding capabilities.
    Of greatest concern to law enforcement was the possible Internet 
dissemination of Worst Case and Alternate Worst Case Scenarios as set 
forth in the OCA. Using the Internet a terrorist, criminal or 
disgruntled employee could identify these scenarios and fine tune an 
attack by selecting ``worst case scenarios'' at facilities that were 
within or adjacent to large civilian or military communities.
    Based upon the above meetings a number of interagency 
recommendations were developed and provided to EPA in a letter dated 
October 30, 1998. The letter recorded interagency agreement that OCA 
data not be included in RMP information distributed via the Internet. 
Other data elements would be accessible to the public on the Internet. 
EPA agreed to work with stakeholder groups to identify meaningful 
approaches to make appropriate OCA information available to the local 
community. To ensure that State and local government agencies have 
access to all national RMP data it was recommended that EPA use a 
``closed system'' restricted to state and local government agencies. 
This system should use secure password protection and encryption 
technology.
    It was believed that the creation of a CD-ROM encompassing EPA's 
RMP database could be accomplished. However, the FBI recommended that 
EPA not include facility identification and contact information on the 
CD-ROM. This allows legitimate information retrieval for analysis, 
however removes the ability of criminals and terrorists to use this 
information for targeting purposes.
    Mr. Chairman, both the Department of Justice, and the EPA Legal 
Counsel advised the FBI that the current Freedom of Information Act 
requires that EPA provide the complete RMP information including the 
worst case scenarios to a requestor. This is a potential problem. If 
this information is obtained and posted on private Internet sites the 
responsible steps taken by the FBI, EPA and its interagency partners 
would be negated. This is a pressing concern that I hope you can 
address in an expeditious fashion.
    The FBI and its interagency partners have worked hard to strike a 
reasoned balance to insure public dissemination of important 
information. Just last week Attorney General Janet Reno and FBI 
Director Louis Freeh appeared before the United States Senate 
Subcommittee for the Departments of Commerce, Justice, and State, the 
Judiciary, and Related Agencies of the Committee on Appropriations. 
Director Freeh gave an excellent overview of both the International and 
Domestic terrorism threats we face at the present time and into the 
future. He also spoke about a number of high profile investigations 
that have occurred in the last several months. One key point that the 
Director made was that--Terrorists, both abroad and at home, are using 
technology to protect their operations from being discovered and thwart 
the efforts of law enforcement to detect, prevent, and investigate such 
acts.'' Computer technology is and will be a terrorist tool. I believe 
that the actions taken to prevent the widespread Internet dissemination 
of ``worst case'' sensitive chemical facility information was both 
prudent and necessary.
    This concludes my remarks. Thank you.

    Mr. Upton. Thank you, Mr. Blitzer.
    Chief Eversole--and you might move the microphone closer as 
well. That would be terrific.

                 TESTIMONY OF JOHN M. EVERSOLE

    Mr. Eversole. Good afternoon, Mr. Chairman, members of the 
committee, ladies and gentlemen.
    My name is John Eversole, and I am the commander of the 
Hazardous Materials Unit to the Chicago Fire Department. I am 
also the chairman for the International Fire Chiefs Hazardous 
Material Committee.
    And, I thank you for the time to allow me to come today to 
summarize the statement that we have put into your record.
    Let me assure you that I have both a personal and a 
professional reason to care about this. We are very concerned 
and have been very outspoken about the indiscriminate 
dissemination of some very technical kinds of information that 
may hurt our community. We believe in community right-to-know, 
but I think that something has really been missed here.
    The EPA designed and implemented what is called ``local 
emergency planning committees.'' And they were to be in the 
communities and to plan for their community how to best handle 
emergency situations. And we think that that committee should 
be used as a fulcrum for a balance between a community's right-
to-know and community's right for security and safety in that 
community.
    We think that sometimes just giving that information out to 
everyone serves of no useful value. Certainly, we wouldn't want 
to give the combinations to every bank out on the Internet 
because I'd like to know. I don't think we have to consider 
that we are The Enquirer and ``enquiring minds want to know.'' 
This is information that should be used to protect the very 
communities in which the risks are.
    I think it is important that we understand those things. I 
think it is important that you understand that as, today, 
representing the International Fire Chiefs, that we agree with 
the FBI's concerns and the concerns of other policing agencies 
about a potential terrorist threat.
    I know that in my community our incidents of bombings are 
up. And when you see some of the people that are doing 
bombings, it is very interesting.
    We have a valedictorian from a high school who decides to 
impress his girlfriend. And, on the Net, he finds out how to 
make these little bombs. So, he is just one step smarter, and 
he figures how to etch the boxes with ``X's'' and ``O's.'' So, 
he sets these boxes up on the front lawn of her home, and he 
blows this thing up, and it really doesn't destroy anything, 
but now there are ``X's'' and ``O's'' all across her lawn. She 
was very impressed, we understand, but her parents were not, 
and neither were the local police.
    I think that there is sometimes that information is put out 
that maybe the whole world doesn't have a right to know.
    Let us take this information which is very good. We applaud 
the EPA for having gathered this type of information for us so 
that we can better plan in our communities. I sit there not 
only as the chief of Hazardous Materials, I sit on the LEPC. 
This information will help us to better protect our community, 
but it should not be given out in indiscriminately because that 
can only hurt us.
    We are not exactly sure how to handle this. I would be the 
last one to try to decide how to handle the Internet. I am not 
sure anybody knows how to handle the Internet--and, soon, 
probably, the Internet will handle us--but we need to take 
common sense here and to allow local communities to use their 
local emergency planning committees as that fulcrum to balance 
between right-to-know and need for security of their community.
    We thank you very much for your time and trouble. You can 
read all the big, hard facts in our statement, but those are 
the facts that we wanted to get to you today--the important 
thing.
    I would be happy to answer any questions that you may have.
    Thank you very much.
    [The prepared statement of John M. Eversole follows:]
     Prepared Statement of Chief John M. Eversole on Behalf of the 
                International Association of Fire Chiefs
    Chairmen, members of the subcommittees, I am John Eversole. I am a 
Chief Fire Officer employed by the Chicago Fire Department. I am the 
Commander of Chicago's Hazardous Materials Division and the Fire 
Department's representative on the City of Chicago Local Emergency 
Planning Committee.
    I am present today on behalf of the International Association of 
Fire Chiefs as its Chairman of the Hazardous Materials Committee. The 
International Association of Fire Chiefs (IAFC) is a professional 
association founded over 125 years ago to provide chief fire officers 
and managers of emergency service organizations throughout the 
international community with information, education, services and 
representation in the effort to protect citizens from the devastation 
of fire and other emergencies.
    We very much appreciate the opportunity to appear before you today. 
The issue of today's hearing is of vital importance to America's fire 
and emergency services. We are the first responders to fires, medical 
emergencies, hazardous materials incidents, technical rescues as well 
as natural disasters and those caused by terrorists. The question 
before the panel today is: Does posting chemical ``worst case'' 
scenarios on the internet create a roadmap for terrorists? We believe 
it does.
    The Clean Air Act requires the Environmental Protection Agency 
(EPA) to implement a program to assist in the prevention of chemical 
accidents. This is good law. EPA responded to this statute by 
publishing its Risk Management Program rule in June 1996. That rule 
requires some 66,000 facilities that store and use chemicals to develop 
a Risk Management Plan (RMP) and file it with the EPA. Part of the RMP 
is an Offsite Consequence Analysis (OCA) which includes worst case data 
elements--or ``worst case'' scenarios. These worst case scenarios (WCS) 
contain detailed information about the chemicals stored at the 
facility. They provide estimates of injury and loss of life. They 
reflect the damage to structures and the environment that can be 
anticipated. They are a blueprint to what a disaster would look like.
    The Clean Air Act further requires EPA to make this information 
available to the public. Last year, we learned that EPA proposed to 
make this information, including worst case scenarios, available to the 
public on the internet. At that point the IAFC wrote a letter to EPA 
Administrator Carol Browner. We expressed our concern, shared by law 
enforcement and national security agencies, that making worst case 
scenarios available on the internet will increase the risk of terrorist 
attacks. In our letter of August 5th we stated:
    ``The IAFC cannot condone placing this highly detailed information 
on the Internet. Foreign and domestic terrorists will have easy access 
to it. Your agency's own security consultants have pointed out that 
placing this information on the Internet will increase the risk of 
terrorist attack. Our concerns go beyond the fact that by placing this 
information on the Internet the federal government may be unwittingly 
aiding and abetting terrorists in planning and carrying out attacks 
against Americans. Our concerns for the EPA's plan are magnified by the 
fact that firefighters are the first responders to incidents of 
terrorism. EPA's plan significantly increases the already substantial 
risks firefighters face each and every day.''
    The IAFC and the American fire service were relieved late last year 
to learn that the EPA had reconsidered its plan and agreed not to 
distribute to the public offsite consequence analysis data elements on 
the internet. This was a very responsible action by that agency and one 
greatly appreciated by fire and emergency services. Now, a second and 
equally important issue arises. It is still possible for private 
citizens and organization to obtain the worst case scenarios from EPA 
through Freedom of Information Act (FOIA) requests. These persons could 
then put all of the worst case scenarios on the internet. Our concern 
now is that even though the EPA has acted not to put worst case 
scenarios on the internet, others are likely to do so.
    Detailed worst case scenario information is vital to local 
governments for emergency planning purposes. However, the Federal 
Bureau of Investigation and other agencies concerned with national 
security have expressed concerns that this information could be used as 
a ``targeting tool'' by terrorist organizations or miscreants acting 
alone. We concur that it is susceptible to misuse.
    It is our understanding that a FOIA request would require EPA to 
turn over the entire database in its existing format, be it a computer 
database or on paper. We are concerned that EPA's decision to forgo 
internet publication could be circumvented by others through a FOIA 
request.
    Given the importance of this information to local authorities and 
yet our concern for its misuse, we would support Congressional action 
that would allow EPA to grant requests for information on a restricted 
basis. This would allow local emergency planners, fire and emergency 
services professionals and citizens within a given community to obtain 
this important information without creating a one-stop ``targeting 
tool.'' It is important that any amendment be tailored to meet this 
specific situation and not grant blanket exceptions to a citizen's 
``right-to-know.''
    In conclusion, I would like to restate the key points I have made 
today.
    1. The Offsite Consequence Analysis--or ``worst case'' scenario--is 
very valuable information for fire and emergency service responders. It 
is vital for our planning purposes.
    2. The FBI has clearly stated that it believes the OCA data of the 
Risk Management Plans when, placed on the internet, would provide a 
targeting tool for persons or groups planning criminal or terrorist 
acts.
    3. We request that Congress review the current situation and act to 
ensure that community ``right-to-know'' is maintained in a manner 
consistent with appropriate security measures.
    Thank you for allowing the International Association of Fire Chiefs 
to explain its concerns to you today. I will be available to respond to 
any questions you may have.

    Mr. Upton. Well, let me just say that, as chairman of this 
subcommittee, I appreciate my first panel living up to the 
rules of our committee by submitting your testimony in advance. 
Not all the panels have done that today, but at least the very 
first panel has. And I know that I and other members of this 
subcommittee appreciated receiving that, as I read through all 
of your testimony last night and prepared some questions.
    My intention is to have a 5-minute rule here. Each of us 
will share, between Republican and Democratic side, a chance to 
ask 5 minutes of questions. And, hopefully, we will not be 
interrupted by votes.
    But let me just say in terms of my 5 minutes--and the 
timekeeper is working--that I think most of the members here on 
this committee are probably members of the largest caucus in 
the House, that being the Fire caucus. I have had the chance, 
myself, to ride with departments back in Michigan, as well as 
here in Washington, and I have a firefighter relative; my 
sister-in-law is a firefighter in Colorado and I know very well 
the hazards that she undertakes. And, I appreciate all of your 
testimony for sure.
    I guess my first question is--I look sort of at Chief 
Eversole and Mr. Monihan--do you feel that, in your roles and 
the departments that you have helped lead, that the 
firefighters and folks responsible for emergency response have 
a good understanding of the communities that they represent 
without moving to the Internet? Is that a--has that been a 
focus of their role, whether it be in a large community or a 
small?
    Mr. Eversole. Sir, truthfully, I think that that varies 
from community to community. In some communities, they work 
very hard and diligently to understand the big problem that is 
in their community, to understand the risks that are in their 
communities. And others have not been able to do such a good 
job, primarily, because the LEPC's was an unfunded mandate. And 
there is many places that--in my city, as big as it is, we 
basically borrowed manpower, equipment, and everything else to 
make it work. And it is very difficult to find the funding that 
we would like to see to accurately do that.
    And I think that the EPA could be a significant help to use 
in helping local communities build their LEPC's to where they 
were actually intended by EPA regulation.
    Mr. Upton. Mr. Monihan.
    Mr. Monihan. In the smaller communities--basically the same 
thing as Chief Eversole just said is the case. In some places, 
they are well-aware of what is in their community; other 
places, not so. And I can't give you any kind of a reasoning 
behind that.
    In my own community, if you have heard of Maalox, Lewes is 
where it starts, because magnesium oxide is extracted from 
seawater at Lewes by a company, and some of the materials they 
use are extremely caustic. We are aware of all these, but we 
are fortunate; some other places are not.
    It is really hit and miss across the country; it really it.
    Mr. Upton. Mr. Blitzer, I understand through staff that you 
might be prepared to talk about a planned bombing of a chemical 
facility in Texas that you are aware of. And before you do, I 
would like to--in my district just a couple of weeks ago, we a 
couple of individuals convicted of trying to blow up a major 
intersection, I-94, which crosses the State of Michigan, with 
131, which is the north-south route which goes up to Grand 
Rapids. Thank goodness, we were able to prevent that from 
happening. And, as I understand it, these two individuals were 
going to do that to divert the attention of the local law 
enforcement so that they could cause quite a bit of damage and 
had a couple of people on an assassination target, including 
one of our Senators from Michigan, and a couple of other folks. 
And, I would just like you to maybe relate some of the story 
that I understand you are prepared to tell about Texas with a 
chemical facility.
    Mr. Blitzer. I would be glad to talk a little bit about 
that.
    Mr. Upton. Could you speak in the mic----
    Mr. Blitzer. Yes.
    Mr. Upton. [continuing] just a little closer, too.
    Mr. Blitzer. Because that case is adjudicated. Everyone has 
been convicted; they are in jail.
    Essentially, what we had was a very fast moving 
investigation of a Ku Klux Klan--and I think the minority 
mentioned this this morning--a case we called the ``Sour Gas 
case'' at the Bureau. And during that investigation, we learned 
that this group, in order to appropriate money, had planned to 
blow up a chemical facility, what they thought was a very 
caustic chemical facility. And, they really didn't care how 
many people were injured during that particular event because 
they wanted it to cover an armored car robbery. But fortunately 
for us, one of the people involved began to talk to us, and we 
were able to prevent that before it occurred. I think that is 
an important concept.
    Someone mentioned--I think Mr. Burr--prevention; prevention 
is so important in these cases, and the ability to prevent is 
something that we always just can't do. It is difficult.
    So, that was the case, and, certainly, a case to think 
about.
    As I mentioned in my testimony, there is a growth of 
intelligence out there on these major cases that many of us 
have lived through. And, the intelligence world--sometimes it 
is good; sometimes it is not so good. And as we are looking 
ahead--and I think this is what we tried to do between EPA and 
the Bureau--we tried to look ahead. We tried to think about; 
what are the possibilities?
    We hear people out there in the terrorism world talking 
about weapons of mass destruction, chemical and bio; we are 
concerned about that. And I know in the recent testimony of the 
Director and the Attorney General, they both touched very 
heavily on this and a lot of the work that it has been doing, 
fully supported by Congress, to prevent and deter this kind of 
activity in our Nation. These are good targets.
    And, so I just offer that as a response.
    Mr. Upton. I appreciate that.
    My time has expired.
    I recognize the gentleman from Ohio, Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Gablehouse, there appears to be an impression that 
``worst case scenario'' data and perhaps chemical quantity data 
is somehow more attractive to terrorists than information that 
is currently available to the public through SARA Title III or 
State public right-to-know laws. Is that your impression?
    Mr. Gablehouse. No, sir, it is not. In fact, I believe the 
``worst case scenario'' portion of a risk management plan would 
provide nobody with enough information to actually cause an 
incident. ``Worst case scenarios'' are fundamentally 
theoretical events; they can be calculated without reference to 
almost any information about the actual physical configuration 
of a facility.
    I can obtain, today, quantity information on major 
facilities handling extremely hazardous substances under the 
Emergency Planning Community Right-To-Know Program. Many States 
had that database available on their Internet servers, or you 
can get it through various State access laws.
    If I look at literature searches that can be conducted 
today, I can find facilities that are a matter of great concern 
in their community. I can find facilities that have experienced 
accidents.
    The research I spoke about during my testimony is conducted 
based on the information available now. RMP information is not 
there nor posted, but I can discover information about 
chemicals. I can get into various databases, both private and 
public, in the Internet and obtain information about location 
of facilities in relationship to schools and other matters.
    There is, you know, a great tendency to fill vacuums in 
this country, and there is enough concern over chemical risks 
and these sorts of hazards that various groups had filled those 
vacuums. And, there is a great deal of information out there 
today.
    I do not believe that the risk management plan information, 
will significantly increase a risk and misuse of that 
information, even though it will serve to provide some 
certainty and detail.
    Mr. Brown. Thank you.
    You had said at the beginning of your testimony that a good 
many communities do not have functional local emergency 
planning committees; correct?
    Mr. Gablehouse. That is correct.
    Mr. Brown. There seems to be little dispute that the local 
emergency planning committee should have access to ``worst case 
scenario'' information, even on the Internet. But, as you know, 
there is a dispute over how the community at large should 
receive this information.
    A witness who will testify in a later panel suggested that 
all ``worst case scenario'' information, as well as chemical 
quantity information, be obtained by the community or the 
facility, itself--the community through the planning committee 
or the facility, itself. Does this give adequate access to the 
information for the community, particularly when there is not a 
functional local emergency planning committee, as you 
suggested?
    Mr. Gablehouse. There are many communities in the part of 
the world I am familiar with--which is the mountain west--that 
will not have access to information under that approach. We do 
not have large companies that are able to help organize and 
create local LEPC's in a variety of areas. If we have States 
that don't participate in disseminating the information, you 
are basically looking at local folks who are worried about 
these issues--be they firefighters or citizens, or the planning 
department of a local county or city worried about zoning 
issues--that will have a great deal of difficulty in getting 
access to this information unless there is some mechanism for 
broad dissemination.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    I recognize the chairman of the full Health and 
Environmental Subcommittee, Mr. Bilirakis, from Florida.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    The words ``common sense'' have been mentioned here this 
morning a few times. I would like to think they should pervade 
all of us in terms of this situation, and every situation, I 
might add, but certainly this situation.
    I think I am convinced, based on what you people have said 
and based on what I have known prior even to the hearing, that 
the need for communities to be able to compare their ``worst 
case scenario'' data with that of other communities across the 
country is there. That makes sense to me, and, obviously, 
Internet access is the easiest way to accomplish that goal.
    But I think we have to ask ourselves, again, in a common-
sense way, is it the only way? Aren't there other ways we can 
accomplish that beneficial goal without making this sensitive 
data also available to terrorists all around the globe? And 
that is a question that is just hanging there. And I think 
Chief Eversole somewhat addressed it in his own way, a much 
better way than I could.
    Mr. Gablehouse, you stated in your testimony that you 
applaud--I am not sure you used that word--but you applaud, you 
supported the EPA's decision to not post this information on 
the Internet; is that correct?
    Mr. Gablehouse. I said I supported it, sir.
    Mr. Bilirakis. Yes; you support it; right? You don't 
applaud it, you support it?
    Well, if you don't think EPA should put it on the Internet, 
should it be on the Internet? EPA shouldn't put it on the 
Internet, but should someone else be able to put it on the 
Internet? Is it wise; is it good sense? Is it a good idea to 
put it on the Internet? For someone to put it on the Internet, 
whether it be EPA or whether it be whoever?
    Mr. Gablehouse. I think the most important point to make 
here, sir, is that regardless of the actions of this 
subcommittee or EPA or anybody else, information will be put on 
the Internet to fill a vacuum.
    We have a choice; we can put information on the Internet 
that promotes meaningful conversations in communities about 
risk reduction, risk management, or we can allow speculation 
and guesswork to fill that vacuum.
    In my experience, credibility is important, and credibility 
in those conversations I believe requires having reliable and 
meaningful information available broadly to folks and the 
people out there.
    Mr. Bilirakis. All right. You have kind of danced around 
the question, and I am not necessarily going to let you off the 
hook there, because it is important that we know. First of all, 
I am impressed with you. Diana DeGette is very impressed with 
you; she gave you quite an introduction. And, I think it is 
important that we know what your feeling is on this subject.
    You talk about credibility. I like to think that Mr. 
Monihan and Chief Eversole have some credibility, as well as 
virtually everybody who is going to testify after this panel.
    If State and local governments, communities, were given 
access to all of the national RMP data through a secure, 
Government-only Internet server, would that satisfy the 
community right-to-know need?
    Mr. Gablehouse. I have said I support EPA's decision not to 
post offsite consequence information because my assumption is 
that it will be available through some mechanism, either secure 
or otherwise, to local governments, to States, to the agencies 
that need this information for planning and other purposes. I 
certainly support that; I think that is the appropriate way to 
disseminate it in a practical matter.
    As I pointed out to you, though, before, LEPC's are 
creatures of the citizens that populate them. If we were all 
served by the Chicago Fire Department Hazardous Materials Unit, 
or if all the businesses in our areas were just CMA or National 
Association of Manufacturers businesses that understand how to 
deal with these problems, the concern of the citizens would be 
much less.
    In order to maintain credibility, LEPC's need to have 
access. LEPC's are, in fact, creatures of the people that 
populate them. Okay?
    Membership is a very ad hoc sort of thing. I have almost 30 
members on my LEPC of all different stripes and sorts. It is 
very difficult, I think, to segregate.
    Mr. Bilirakis. All right; so you can't directly respond 
then to my last question--which I don't think is a very 
difficult one? It is not as difficult as maybe the first one 
regarding a secured Government-only Internet server, something 
that could be expanded, if you will, to maybe to additional 
groups other than communities, such as State and local 
governments, et cetera.
    Mr. Gablehouse. I am sorry; I didn't mean not to directly 
respond. In fact, I would think that that is an acceptable 
approach. However, I think there are other acceptable 
approaches, and I believe the Agency is working with the other 
agencies to try to identify those approaches.
    But one thing I want to suggest to you is I don't think 
there is any magic in a secure server sort of approach. Who is 
going to discriminate between who ought to be allowed to get 
access and who ought not be allowed to get access? I mean I 
think that the implementation of that approach is the problem.
    Mr. Bilirakis. Would you be willing to work with this 
committee in helping us craft some sort of an approach if one 
is necessary?
    My time is up.
    Mr. Gablehouse. Very happy to.
    Mr. Bilirakis. Thank you.
    Mr. Upton. Gentleman's time is up.
    Mr. Stupak is next. Would you prefer to now for 5 minutes, 
then, we will adjourn for the vote and come back?
    Okay; the gentleman is recognized for 5 minutes, and when 
you are done, we will break for the vote.
    Mr. Stupak. Thank you.
    I would like to bring us back to the focus here of this 
hearing on are ``worst case scenarios'' for community planners 
under section 112(r) of the Clean Air Act.
    Under section 112(r), it talks about chemicals or 
substances that are extremely hazardous and that will cause 
greatest potential risk to human health. In fact, I believe 
they are called, ``toxic endpoints.'' And the point I want to 
make; does anyone know of the World Trade Center having--Mr. 
Blitzer, I think you brought it up. Did they have toxic 
endpoints they were releasing?
    Mr. Blitzer. What that had, Mr. Stupak, was they found a 
quantity of cyanide at the----
    Mr. Stupak. No, no. Mr. Blitzer, maybe I didn't make my 
question clear.
    Mr. Blitzer. I am sorry.
    Mr. Stupak. Before the bombing----
    Mr. Blitzer. Okay.
    Mr. Stupak. [continuing] did they have toxic endpoints 
being released from the World Trade Center?
    Mr. Blitzer. I don't think so.
    Mr. Stupak. How about Oklahoma bombing? Did they have--that 
building, the Murrah Building, did they have toxic endpoints 
being released?
    Mr. Blitzer. I am sorry; I couldn't hear.
    Mr. Stupak. Sure.
    The Murrah Building, the Oklahoma bombing building----
    Mr. Blitzer. Right.
    Mr. Stupak. [continuing] did they have toxic endpoints 
being released?
    Mr. Blitzer. I don't know. I mean I really don't know.
    Mr. Stupak. Okay.
    So, when we use those examples, that is not the examples 
they are talking about under section 112(r); are they:
    Mr. Blitzer. They are not, but they are mass casualty 
examples that I though I should mention.
    Mr. Stupak. Well, wait a minute, though. You are not 
telling us that every building--because every building could be 
subject to a terrorist attack; right?
    Mr. Blitzer. Yes.
    Mr. Stupak. So, you are telling me every building, under 
section 112(r), has to have the ``worst case scenario'' for 
something that might happen?
    I mean section 112(r) is really after 100 chemicals and 
substances that are highly dangerous to human health. In fact, 
we list them: ammonia, hydrogen sulfide--that I mentioned. That 
is what we are looking for; right?
    Mr. Blitzer. Right.
    Mr. Stupak. So, the facilities that come under section 112 
are not World Trade buildings----
    Mr. Blitzer. No, they are not----
    Mr. Stupak. [continuing] or Federal courthouses?
    Mr. Blitzer. [continuing] but they are facilities that down 
the road may be a potential target.
    Mr. Stupak. Well, anything is; right?
    Mr. Blitzer. Sure.
    Mr. Stupak. My house could be. This building could be.
    Mr. Blitzer. Could be.
    Mr. Stupak. So, the point is; what we are trying to do here 
is deal with chemical and substances----
    Mr. Blitzer. I understand that.
    Mr. Stupak. [continuing] that are being released in the 
community; right?
    Mr. Blitzer. I understand that, but----
    Mr. Stupak. Well, don't you think it is disingenuous to use 
the Oklahoma building and the World Trade----
    Mr. Blitzer. I don't think it is. I mean----
    Mr. Stupak. It is or is not?
    Mr. Blitzer. I don't think it is because, again, as I tried 
to explain in my testimony, we had no warning before those 
events happened. They were attractive targets for terrorists. 
And, as we discussed these very issues for the law enforcement 
and intelligence community and when they were brought to us by 
EPA, we talked about these things----
    Mr. Stupak. Yes, I agree with you.
    Mr. Blitzer. We talked about these things being potential 
targets.
    Mr. Stupak. But these are also public buildings; right?
    Mr. Blitzer. They are public buildings.
    Mr. Stupak. Okay; so the balance we are trying to strike 
here is for public right-to-know what is going on in their 
communities that could be potentially hazard--not what if, but 
are actually going on in their communities and are producing 
substances that may be harmful to public health. And, that is 
what the firefighters and the emergency medical people, and the 
police need in case something does happen at these places that 
are every day producing these chemicals----
    Mr. Blitzer. Right.
    Mr. Stupak. [continuing] which could be, either through 
intentional or accidental release----
    Mr. Blitzer. Right.
    Mr. Stupak. [continuing] a threat to human health.
    Mr. Blitzer. I understand that.
    Mr. Stupak. Okay.
    Mr. Blitzer. And I also----
    Mr. Stupak. Yes; I just want to make sure we keep our focus 
on what we are trying to do here. All these other things about 
World Trade Centers and Oklahoma are really sort of not really 
connected here until after something may happen. And I think we 
can say that with any building, public or private, that 
something may happen.
    Correct?
    Mr. Blitzer. Well, I go back to what I said. I look at 
that; I look at the threat atmosphere, and we tried to give you 
a good assessment.
    Mr. Stupak. Okay. Well, even the chairman's situation of I-
94 and a possible----
    Mr. Blitzer. Right.
    Mr. Stupak. [continuing] assassination attempt on the 
people really has nothing to do--they are not going to be 
required to do a ``worst case scenario'' on a I-94----
    Mr. Blitzer. I don't know, but I think it is an example of 
the potential kinds of threats that are out there. A wide 
spectrum----
    Mr. Stupak. [continuing] little something----
    Mr. Blitzer. I know, but I think it is an example of the 
potential kinds of threats that are out there on a the wide 
spectrum.
    Mr. Stupak. Clean Air Act of 1990 talked about chemicals 
and gas releases----
    Mr. Blitzer. Right.
    Mr. Stupak. [continuing] and things that we need to know in 
our everyday life.
    Mr. Blitzer. Right.
    Mr. Stupak. And we all know that terrorism is out there.
    Mr. Blitzer. Right.
    Mr. Stupak. But do we start doing section 112(r)'s for 
everything that exists?
    Mr. Blitzer. No; I don't think we do section 112(r) for 
everything.
    Mr. Stupak. Okay.
    Mr. Blitzer. I really don't; but these were, again, 
examples of the kinds of events that can take place. And I 
think in the threat atmosphere we are in today, we have to be 
cognizant of it. We tried to deal with these things in the law 
enforcement and intelligence community as we were assessing 
the----
    Mr. Stupak. And as we do it, let us be objective here, and 
let us not play ``Chicken Little'' and ``the sky is going to 
fall on our heads'' unless we do 112(r)'s for everything that 
moves.
    Mr. Blitzer. Well, I am trying to give you what is reality, 
what it is realistic assessment, based upon a lot of things 
that myself and others have been through over the last 10 
years. It has been difficult----
    Mr. Stupak. So, the reality is--and we will take your word 
for it--the best we know is maybe one chemical plant may have 
been subject to a planned terrorist attack, as you said, to get 
at some armored car----
    Mr. Blitzer. Right.
    Mr. Stupak. To further some political agenda?
    Mr. Blitzer. Right.
    Mr. Stupak. So, that is the reality? Is one place----
    Mr. Blitzer. That is the reality right now.
    Mr. Stupak. Okay. And it never occurred? I mean--it was 
foiled before it happened?
    Mr. Blitzer. Because we got them.
    Mr. Stupak. Right.
    Mr. Blitzer. That is right.
    Mr. Stupak. Okay; thank you.
    Mr. Upton. Thank you, Mr. Stupak.
    We will return when--there may be a final passage vote 
after this; we are not quite sure. But we will return after 
these votes.
    [Brief recess.]
    Mr. Upton. You might close those doors. People take their 
seats. We are sorry; members are a little tardy. We ended up 
having a couple of votes, and so we thought it was best 
interest not to run back and forth more than once or twice.
    I know that my good colleague from Colorado is here, and so 
I think we will resume in just a moment.
    I will ask unanimous consent to enter into the record two 
letters; one from the city of New York Police Department to 
Chairman Bliley and the other one from the International 
Association of Chiefs of Police, again, to Mr. Bliley, the 
chairman.
    Without objection, we will enter those in the record.
    [The information referred to follows:]

            The City of New York Police Department,
                                      New York, N.Y. 10038,
                                                  February 9, 1999.
Honorable Thomas E. Bliley
Chairman, Committee on Commerce
House of Representatives
Washington, D.C. 20515
    Dear Mr. Chairman: On behalf of Police Commissioner Howard Safir, I 
am writing to express the concern of the New York City Police 
Department regarding the dangerous consequences of a contemplated 
public dissemination of information regarding facilities maintaining 
hazardous chemicals.
    The Environmental Protection Agency's obligation to collect and 
publicly disseminate ``Risk Management Plans,'' pursuant to the Clean 
Air Act, must be reconsidered in light of the very real threat that 
terrorists might use this information to target attacks throughout the 
United States. Specific information contained in the ``Offsite 
Consequence Analysis,'' including worst case scenarios, provides those 
with criminal intent the means to calculate the most catastrophic 
consequences to an attack and plan accordingly.
    New York City has already experienced the horror of a terrorist 
attack specifically designed to destroy as many lives as possible, the 
bombing of the World Trade Center. It is inconceivable that the federal 
government would be placed in the position of publishing on the 
Internet what amounts to an invitation to terrorists to select sites 
with the most devastating potential consequences. We submit that the 
legislative intent behind the Clean Air Act and the Freedom of 
Information Act does not mandate unfettered public knowledge where the 
risk to public safety is so great.
    We are advised of efforts on the part of the Federal Bureau of 
Investigation to work with the EPA to strike a balance between public 
safety and public knowledge. We applaud those efforts, but would also 
urge a comprehensive legislative solution, amending the Clean Air Act 
to explicitly prohibit public dissemination of Risk Management Plans 
except to state and local government agencies. In this way, those 
responsible for public safety may utilize necessary data for strategic 
planning without compromising the very security sought to be 
established.
    Thank you for your interest and for the opportunity to comment on 
this very critical issue.
            Sincerely,
                                          George A. Grasso,
                                Deputy Commissioner, Legal Matters.
                                 ______
                                 
     International Association of Chiefs of Police,
                                 Alexandria, VA 22914-2357,
                                                  February 3, 1999.
The Honorable Thomas Bliley
Chairman, Committee on Commerce
U.S. House of Representatives
Washington, D.C. 20515
    Dear chairman Bliley: As President of the International Association 
of Chiefs of Police (IACP), I am writing to express my concern over the 
Environmental Protection Agency's (EPA) plan to publish worst case 
scenario accident information pertaining to industrial chemical 
facilities in the United States.
    It is vitally important that local authorities be provided with 
detailed, accurate information regarding chemical industrial facilities 
in their communities. Only by knowing the threat that they face can 
local law enforcement and other emergency services agencies prepare a 
response plan which will allow their personnel to respond effectively 
if necessary.
    However, I am extremely concerned that making this same information 
available for widespread distribution will provide terrorist 
organizations with a ``target list'' of facilities in the United 
States. While I understand the desire of the EPA to inform citizens 
about the risks they face from chemical facilities in their 
communities, this desire must be tempered by the reality that this 
information could be used by those who wish to harm the very citizens 
the EPA is trying to inform. In my opinion, the decision to release 
this information should be left to the local authorities who are in the 
best position to determine the needs of their communities.
    It is my hope that a solution to this problem can be developed 
which satisfies both the concerns of law enforcement and the public we 
are sworn to protect.
    Thank you for your attention to this matter.
            Sincerely,
                                        Ronald S. Neubauer,
                                                         President.

    Mr. Upton. And at this point, we will recognize the 
gentlelady from Colorado, Ms. DeGette, for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    I would just like to note that even though I am on 
crutches, I got back here before any other members, except----
    Mr. Upton. You did very well, and we will not take that 
away from your time.
    Ms. DeGette. Thank you.
    First of all, I would like to ask a question of Mr. 
Blitzer, because the scenario you describe is a scenario that 
we all relive a lot in our worst nightmares. And I think it is 
a real concern that we all have of these chemical facilities 
being blown up by terrorists, either as in your situation, a 
cover for another operation or just----
    Mr. Blitzer. Just to do it.
    Ms. DeGette. [continuing] purely for terrorism.
    Mr. Blitzer. Yes.
    Ms. DeGette. But the thing that I am wondering, given all 
of the information that is on the Internet, is why you think 
that this particular EPA regulation would worsen the situation?
    Mr. Blitzer. Well, I think the basic feeling--and this just 
wasn't me--this was----
    Ms. DeGette. I am sorry, I can't hear you.
    Mr. Blitzer. This just wasn't me; this was an interagency 
discussion with intelligence services, as well as the Bureau 
and other law enforcement agencies. This is one of a number of 
potential targets out there. We are a target-rich environment 
here in the United States. And for us, putting a ``worst case 
scenario'' on the Internet was of concern because we felt, in 
our assessment, that you could be sitting in Beirut, you could 
be sitting Pakistan, you could be sitting literally anywhere in 
the world and get some pretty significant targeting 
information.
    Ms. DeGette. Well, do you agree that much of this 
information is available on the Internet now?
    Mr. Blitzer. You know, I really don't know. During the time 
I was discussing this particular issue, I was really focused 
on----
    Ms. DeGette. Okay.
    Mr. Blitzer. [continuing] the ``worst case scenario.''
    Ms. DeGette. I mean I think that is the kind of information 
that would be useful to have, to see what this particular 
regulation, how that would foster it.
    Mr. Blitzer. I----
    Ms. DeGette. Well, let me turn--I only have 5 minutes so--
--
    Mr. Blitzer. I am sorry.
    Ms. DeGette. [continuing] let me turn quickly----
    Mr. Blitzer. Go ahead.
    Ms. DeGette. [continuing] to a couple of other follow-up 
questions.
    Mr. Gablehouse, are there currently any Federal 
requirements that facilities prepare risk management plans or 
``worst case scenarios?''
    Mr. Gablehouse. For Federal facilities or for in general?
    Ms. DeGette. In general.
    Mr. Gablehouse. Not specifically, no; although many LEPC's 
ask for scenario information from facilities now. My LEPC, for 
example, does that, as do many in Colorado, ask for scenario 
information.
    Ms. DeGette. So, a facility, if they have done this kind of 
plan so far, they have either done it because of a local 
requirement or voluntarily; is that right?
    Mr. Gablehouse. If it exists today, for the most part, that 
is correct.
    Ms. DeGette. Okay.
    So it seems to me that whatever a local emergency planning 
committee might have received prior to this point, would be 
difficult to utilize in terms of consistency from one facility 
to another or one State to another, in terms of credibility. 
Does that seem accurate?
    Mr. Gablehouse. Absolutely accurate. The great advantage is 
credibility.
    Ms. DeGette. And so, do you think the risk management plans 
required under section 112(r) will provide more consistency and 
creditable information for planning purposes across 
jurisdictional lines?
    Mr. Gablehouse. Absolutely.
    Ms. DeGette. Let me go a little further and follow up on 
something that Mr. Bilirakis asked you. If you can tell me, 
from a local perspective, why a local emergency planning 
committee would want information from another State or 
locality? Why is it that we need a Federal solution to 
something that has been happening to some extent within local 
or State governments?
    Mr. Gablehouse. Two primary reasons. The first one is to 
educate ourselves on what other communities are doing. As I 
said during my testimony, if the whole world were the CMA 
Association and large fire departments, it would be less of an 
issue. But we have companies that don't understand how to do 
this. We need to make ourselves smart, and accessed information 
in other communities is the way you do that.
    The other thing we need to do is verify the information we 
are obtaining. We need to understand whether or not companies 
owned by the same people in various States are telling the 
local folks the same story in all those locations.
    We also need to compare companies handling certain kinds of 
chemicals should have similar sorts of scenarios, similar sorts 
of prevention plans in other communities. It is good for us to 
be able to compare what we are doing in our community to 
similar communities with those kind of facilities.
    So, there are a lot of reasons where it would be useful to 
have that kind of information.
    Ms. DeGette. If I may, just one more ``yes'' or ``no'' 
question, Mr. Chairman.
    Mr. Upton. Yes, you may have an extra minute.
    Ms. DeGette. Thank you.
    Do you think that to get that information that you think 
would be useful we would need to amend the Freedom of 
Information Act?
    Mr. Gablehouse. No.
    Ms. DeGette. Thank you.
    Thank you, Mr. Chairman.
    Mr. Upton. Thank you.
    The gentlelady from Wyoming, Ms. Cubin.
    Ms. Cubin. Thank you, Mr. Chairman.
    I would like to address my first question to Mr. Blitzer. 
When you were in the FBI, did you review and discuss if you 
could legally withhold--no, excuse me. Did you discuss with 
others in the administration the question of FOIA and third act 
says--I keep losing my place. Will you forgive me?
    Mr. Blitzer. That is all right. I understand.
    Ms. Cubin. And third-party access to ``worst case 
scenario'' information?
    Mr. Blitzer. Yes. We did discuss it, and at both the--with 
the Department of Justice and with the EPA Legal Counsel. I 
think it is in my testimony. And I am not sure that it was--the 
kind of information in the ``worst case scenario'' could be 
provided, given an appropriate FOIA request, which is a concern 
for all us.
    Ms. Cubin. Well, what advice did you receive?
    Mr. Blitzer. At this point----
    Ms. Cubin. Could you legally withhold the information?
    Mr. Blitzer. At this point, if it came in, there was 
nothing we could do because the law is on the books, and it 
would be provided.
    Ms. Cubin. But could you legally withhold the information?
    Mr. Blitzer. I don't think we could.
    Ms. Cubin. Okay. Also, is it true that the FBI--or that the 
EPA sought the FBI's advice before it announced that its 
proposal to post this information on the Internet?
    Mr. Blitzer. It did; yes.
    Ms. Cubin. And what was the advice from the FBI to the EPA 
at that time?
    Mr. Blitzer. Well, that is what really began the chain of 
events which ended up in a lot of interagency discussion and 
recommendations not to put the ``worst case scenario'' on.
    Ms. Cubin. But they did go ahead with that for awhile, 
right? Then----
    Mr. Blitzer. I don't recall that. I don't know if--I don't 
remember that.
    Ms. Cubin. Okay. Do you feel that--well, then, if you don't 
recall that, I don't think that follow-up question----
    Mr. Blitzer. Yes.
    Ms. Cubin. So, I would like to address this question to Mr. 
Gablehouse.
    I will grant from your testimony that all small communities 
don't have--you know, I am from Wyoming; I represent the State 
of Wyoming, and we don't have specialists in our towns of 100 
people or 150 people to deal with this. And so I would grant 
that there needs to be some way to dispense this information to 
those communities. I absolutely know because I represent the 
whole State of Wyoming, that the communities have the desire, 
the will, and would gather that information. And I think that 
it is possible to get it from sources other than the Internet, 
and I believe that those people would. In fact, I would say 
those small communities are threatened less, obviously, than 
larger communities. But, I can't see why--I just can't 
understand why you don't think that there is any jeopardy--
because to me, common sense says there is jeopardy by 
releasing--by allowing this to be on the Internet, whether it 
is released by the EPA or somebody else.
    Mr. Gablehouse. Well, I do believe that the compromise that 
EPA has reached by deciding not to post the offsite consequence 
information is appropriate to address that concern.
    I spend quite a bit of time in Wyoming dealing with the 
local emergency planning committees in various places, recently 
in Rock Springs and Lovell, for example. I think that the 
people in those communities do want the information; they do 
want to have access. Getting that kind of access and comparing 
themselves to other communities is difficult, absent an 
information source like the Internet. It is very difficult to 
know who to get on the phone, to call, to talk to, to try to 
get it. The Internet has proven to be a useful means of 
acquisition of broad kinds of information.
    You have also got in Wyoming, a lot of LEPC's that have 
collected around them interested people of various stripes who 
are interested in different sub-pieces of this problem. I think 
the Internet is a very useful way for them to get that 
information.
    During my earlier testimony, I said I think that EPA has 
struck a reasonable balance here. I think that the 
administrative approaches to maintaining control over and 
management of the information are appropriate, and I think the 
Agency intends to continue to do that.
    Ms. Cubin. Chief Eversole, then, you mentioned in your 
testimony that your concern is the one-stop nature of Internet 
dissemination of this information. Could you elaborate on that 
a little bit? Because it seems to me that that is related to 
what we just heard.
    Mr. Eversole. Ma'am, I think that there is a lot of ways to 
get information that are much more reasonable than putting it 
on the Internet. In our LEPC, we regularly cleanse Freedom of 
Information requests for things like the plant manager's home 
telephone number. I think you are going to find a lot more 
problems getting that kind of information if he knows that his 
home telephone number goes all over the world. That information 
is available. Earlier there had been a discussion about a 
secured system, where an LEPC anywhere could contact another 
LEPC or go right back to the Government and say, ``I need to 
know about all of these kind of plants.''
    You see, you are gathering a database that has never been 
gathered before in this country. And there is some tremendous 
information of significant importance. I just want to make sure 
it is used for the right purposes, and not for some 
catastrophic use by a person of different thinking.
    Ms. Cubin. One real quick one, Mr. Chairman.
    And this is for Mr. Blitzer. The opponents of your position 
say that there is no evidence that terrorist attacks on these 
type of facilities is a problem or that there is no evidence 
that----
    Mr. Blitzer. Right.
    Ms. Cubin. [continuing] there is any greater chance of 
risk. Will you just respond to that briefly?
    Mr. Blitzer. Yes; I think one of the things that we have to 
look at, as we are looking into the future, is that we have had 
a series of mass casualty attacks since the beginning of 1989. 
There is great concern, even in the White House, about 
protecting our critical infrastructure of which, frankly, these 
facilities are part. And as you look into the future--mass 
casualty attacks, easy access, easy information--why would we 
make it easier than it already is?
    So I would say, again--and I think I mentioned this 
earlier, or additionally--the lack of intelligence or the lack 
of information doesn't really mean there isn't a threat out 
there.
    Ms. Cubin. So you would say that there is evidence----
    Mr. Blitzer. I would say there is a threat.
    Ms. Cubin. [continuing] that it creates a great risk.
    Mr. Blitzer. And certainly, a great interest in chemical 
and bio.
    Ms. Cubin. Thank you.
    Mr. Upton. Thank you.
    The Chair would thank the witnesses for their testimony. 
And the Chair would note that a number of members may have 
additional questions for this panel which they may wish to 
submit in writing. And, without objection, the normal process 
is that the hearing record will remain open for 30 days for 
members to submit written questions to you all and to place 
their responses in the record.
    And so, without objection, that will be ordered.
    I want to thank all of you for your attendance today, for 
your testimony as well. And I would also note that we are all 
on a number of subcommittees and, with action on the floor, it 
preempted a number of us from being here for the full time. 
But, certainly, we appreciate the work that you have done and 
look forward to hearing from you again.
    You are dismissed.
    At this time, I would like to call Mr. Robert Burnham, 
Section Chief for Domestic Terrorism, National Security 
Division of the FBI, and Mr. Tim Fields, Acting Assistant 
Administrator, Office of Solid Waste and Emergency Response of 
the EPA, forward.
    I know you have been watching the testimony earlier today. 
Sorry, we are a little delayed because of votes on the floor.
    And I would ask each of you that, if you are aware that 
this subcommittee is an investigative subcommittee, and, as 
such, it has always had the long practice of taking testimony 
under oath. Do you have any objection to such?
    [Witnesses indicate no.]
    The Chair would note the answer is, ``No.''
    And I would advise each of you that, under the rules of the 
House and the rules of this committee, you are entitled to be 
advised by counsel. Do any of you desire to be advised by 
counsel during your testimony today?
    [Witnesses indicate no.]
    Again, I would note, ``No.''
    In that case, would you please rise and raise your right 
hand?
    [Witnesses sworn.]
    Mr. Upton. Mr. Fields, why don't we start with you for 5 
minutes. We will make sure that all of your testimony is 
printed in the record, if you would like to summarize it. And, 
please, don't take more than 5 minutes.
    Thank you.

      TESTIMONY OF TIMOTHY FIELDS, JR., ACTING ASSISTANT 
 ADMINISTRATOR, OFFICE OF SOLID WASTE AND EMERGENCY RESPONSE, 
ENVIRONMENTAL PROTECTION AGENCY; AND ROBERT M. BURNHAM, SECTION 
CHIEF, DOMESTIC TERRORISM, NATIONAL SECURITY DIVISION, FEDERAL 
                    BUREAU OF INVESTIGATION

    Mr. Fields. Mr. Chairman, and members of the subcommittees, 
I am Tim Fields; I am responsible at EPA for managing the Risk 
Management Planning Program under 112(r) of the Clean Air Act, 
as well as being responsible for the Agency's Counterterrorism 
Program and the associated coordination with other Federal 
partners, State and local governments, and the private sector.
    Under the RMP, or Risk Management Program, as mandated by 
Congress, we are required to receive plans from 64,000 
facilities by June 21, 1999. Those plans will describe how 
those facilities will detect, prevent, or minimize releases of 
hazardous substances and how those facilities will promptly 
respond to any chemical accident due to those hazardous 
chemicals. In addition, they will provide information about the 
potential consequences of a ``worst case'' release and 
alternative release scenarios.
    Despite reports to the contrary, the information in these 
reports does not include information that tells anyone how to 
cause an accident; rather, the information describes the 
effects of a possible accident on the surrounding population 
and the environment.
    Our primary concern in managing this congressional mandate 
is to make sure that the public is served by providing 
constructive environmental information while, at the same time, 
making sure that appropriate national security concerns are 
paramount.
    For that reason, EPA and the FBI have already agreed that 
the ``worst case scenario'' portion of this data will not be 
made available on the Internet. All other RMP data will be made 
available on the Internet. The RMP information that EPA 
proposes to put on the Internet will not provide opportunities 
for terrorists to target facilities.
    EPA has been working with other Federal agencies to discuss 
how to provide RMP data, including offsite consequence or 
``worst case'' analysis data, to appropriate State and local 
implementing agencies.
    Based on our discussions, EPA will work with the other 
Federal agencies, including the National Institute of Standards 
and Technology to explore the feasibility of a ``closed'' 
system for sharing the OCA data with State and local government 
partners.
    Second, we will inform our State and local government 
partners of EPA's decision not to post the OCA data on the 
Internet and advise them on how they can maintain their data in 
a secure way as well.
    And, last, in working with State and locals, we will 
explore the option of providing some State and local agencies 
only that portion of the RMP data that is affecting those 
facilities in their jurisdiction and immediate surrounding 
jurisdictions that impact that State or local entity.
    EPA is also working to identify places the local affected 
public can go, to get local access to RMP data of interest to 
them. EPA is considering options that include; using the 
facilities themselves to provide the RMP data; State emergency 
response commissions, local emergency planning committees; or 
other organizations to identify local sources of RMP data. For 
those citizens who call in, or write in and want the full 
national database, EPA is exploring a variety of options to 
assure that that information does not get posted on the 
Internet, such as the possibility of a read-only computer disk 
that could not be copied, duplicated, or posted on the 
Internet. Software capable of providing this protection is in 
the developmental stages; we are talking to firms now, and we 
will work with the appropriate governmental and private experts 
to determine the technical and legal feasibility of this 
option.
    In conclusion, EPA is not working independently as we 
implement the Risk Management Planning Program. We will 
continue to work with a variety of stakeholders, particularly, 
the Federal national security organizations, as we implement 
this program.
    We are taking those steps that we believe are necessary to 
ensure that offsite consequence analysis data are not posted on 
the Internet. National security interests are paramount as we 
carry out our congressional mandate on the 112(r) of the Clean 
Air Act.
    We believe that our job of protecting the American people 
from risks posed by chemical-producing facilities includes 
protecting them from the threat of terrorism as well. Our 
future risk management planning implementation activities will 
be carried out in close consultation with Federal national 
security organizations.
    Thank you very much for your time.
    [The prepared statement of Timothy Fields, Jr. follows:]
      Prepared Statement of Timothy Fields, Jr., Acting Assistant 
  Administrator for Solid Waste and Emergency Response, Environmental 
                           Protection Agency
    Mr. Chairman, and Members of the subcommittees, I am Tim Fields, 
Acting Assistant Administrator in the Office of Solid Waste and 
Emergency Response at the U.S. Environmental Protection Agency. My 
office has primary responsibility for the Risk Management Program under 
Section 112(r) of the Clean Air Act (CAA) and federal implementation of 
several sections of the Emergency Planning and Community Right-to-Know 
Act. I also am responsible for the Agency's counter terrorism program 
and the associated coordination with other federal partners, State and 
local governments, and the private sector.
    I am pleased to have this opportunity to present information about 
the importance of chemical safety, community right to know, and our 
plan to balance these benefits with the continuing challenge of 
protecting our nation's security.
    In 1986, Congress enacted the first community right-to-know law 
that gave citizens information to enable them to make decisions about 
chemical hazards in their community. This law requires States to 
establish State Emergency Response Commissions (SERCs) that, in turn, 
appoint Local Emergency Planning Committees (LEPCs) to plan for 
community responses to chemical accidents. The law also requires 
facilities to report to the public, through the LEPC, their inventories 
of hazardous chemicals and to participate in local emergency 
preparedness efforts.
    There are approximately 3,000 LEPCs throughout the country that act 
as an ongoing forum for discussion and focus for action. Once citizens 
know more about chemical hazards in their communities, the better 
equipped they are to work with their local government to make decisions 
and take actions that will better protect their families and their 
neighbors from unacceptable risks.
Information Drives Action
    As a result of chemical information being in public hands, we also 
have seen a change in the way some facilities do business.
    Public release of TRI data spurred facilities to voluntarily reduce 
their emissions. For example, Occidental Chemical in Houston installed 
a filtration system that reduced hazardous waste by 58 percent, while 
in Dominguez, California, Rhone-Poulenc cut 75 percent of the sulfuric 
acid wastewater going to the city treatment plant. Since the public 
release of the first round of Toxic Release Inventories (TRI), reported 
toxic chemical emissions have dropped by 50 percent.
    The Emergency Planning and Community Right-To-Know Act enhanced 
community planning and provided significant new information on chemical 
handling and releases to the public. Because of chemical information 
being available to the public, awareness of the potential danger from 
accidental releases of hazardous chemicals has grown in communities 
across the country and intensified further as a result of several major 
accidents that resulted in the deaths of workers at plants, hundreds of 
millions of dollars in property damage, and thousands of residents 
evacuated from their homes. These accidents indicated a need for better 
programs to prevent chemical releases.
    In 1994, an explosion at a fertilizer production plant near Sioux 
City, Iowa, killed four employees and injured 18 others. The blast 
triggered an anhydrous ammonia release into the air, forcing the 
evacuation of nearly 2,500 residents. An EPA investigation found that 
the accident was caused by a lack of safe operating procedures and 
safety practices. Interviews with employees indicated that they were 
not aware of many of the hazards of ammonium nitrate, a chemical used 
in the production of fertilizer, showing the continuing need for an 
informed dialogue for safety.
Risk Management Program
    Through passage of Section 112(r) of the CAA in 1990, Congress 
recognized the need for facilities, such as the one in Iowa, to develop 
or improve their planning and accident prevention programs in order to 
prevent accidents. The law also recognized that citizens have a right 
to know about the hazards these facilities present.
    Under the chemical accident provisions of 112(r), facilities must 
conduct hazard assessments, establish accident prevention programs, and 
bolster emergency response planning. These requirements are implemented 
by EPA's Risk Management Program regulations and are aimed at reducing 
the likelihood and severity of chemical releases. Facilities that are 
covered under these regulations must submit a Risk Management Plan or 
RMP. Under the law, these plans, except for Confidential Business 
Information, must be available to the public, the federal Chemical 
Safety Board, and state and local officials involved in planning for 
and responding to chemical emergencies.
    Under EPA's regulatory requirements, by June 21, 1999, nearly 
64,000 facilities that handle large quantities of very hazardous 
chemicals will submit RMPs to EPA for the first time. In their RMPs, 
facilities will describe how they will detect, prevent, or minimize 
releases of hazardous substances and how they will promptly respond to 
any chemical accident.
    Facilities will report any serious accidental releases that have 
occurred at their sites in the last five years and how they have 
coordinated with local emergency responders. In addition, they will 
provide information about the potential consequences of a worst-case 
release and alternative release scenarios. Despite reports to the 
contrary, the information in these reports does not include information 
that tells anyone how to cause an accident. Rather, the information 
describes the effects of a possible accident on the surrounding 
population and the environment.
    RMPs will improve chemical safety in two basic ways. First, they 
will ensure that covered facilities identify and address the hazards 
posed by their handling of very hazardous chemicals. Second, and 
equally important, they will provide information to the public about 
the risk of accidental releases and facilities' efforts to prevent and 
mitigate any releases. The availability of RMPs is expected to 
stimulate communication between industry, local governments, and the 
public to improve accident prevention and emergency response practices.
    Public opinion polls consistently show strong support for safety 
and environmental protection. Section 112(r) is consistent with these 
values and is one of several ``right-to-know'' laws that give citizens 
the information they need to assess and promote public health and 
environmental protection in their communities and across the nation.
    Consistent with the purpose of Section 112(r), EPA provides 
national leadership and assistance to communities so that they will 
have the tools and expertise they need to receive, assimilate, and 
analyze all chemical accident prevention data, and to take appropriate 
measures to reduce accidental risk and toxic emissions at the local 
level.
Electronic Submission/Access
    To make information more useful, EPA was urged by stakeholders in 
the chemical safety area to collect and distribute RMP information 
electronically. Our experience with EPCRA implementation taught us that 
this would not only be more efficient than paper submittals, but also 
that it would improve data quality and allow State and local 
governments to apply their limited program resources to use the 
information to address chemical safety rather than to manage the data.
    The Accident Prevention Subcommittee of the CAA Advisory Committee 
(under the Federal Advisory Committee Act (FACA)) created the 
Electronic Submission Workgroup in October 1996, comprised of 35 
members representing State and local government, industry, 
environmental and public interest groups, and EPA. The Workgroup was 
charged with recommending how industry should submit their risk 
management plans, and how EPA, State and local governments, and the 
public should have access to this information.
    The Workgroup completed its work in June 1997 with a final report, 
which recommended that a data retrieval system be established to 
provide access to RMPs for all stakeholders. The workgroup unanimously 
agreed to make most of the RMP data available without restriction on 
the Internet. However, the workgroup could not agree on whether the 
Offsite Consequence Analysis, or OCA, data should be available on the 
Internet. The OCA data includes information on a worst-case scenario 
accident at a facility and estimates the area of a community and the 
total population potentially affected by a release.
    The Workgroup raised this issue to their parent Subcommittee, who 
spent the next year and a half gathering data, evaluating the risks, 
and debating the issue. In response to concerns about how EPA would 
distribute the OCA portion of RMPs, the Agency continues to work with 
appropriate agencies and interested parties to take reasonable steps 
that would strike the appropriate balance between providing public 
access to information about chemical risks and reducing the risk of 
terrorism. On November 6, 1998, EPA announced that it would not post 
the OCA data on the Internet; all other RMP information would be 
available on the Web.
    Balancing these risks continues to be a high priority and the EPA 
is continuing to explore, with other relevant agencies, other means of 
providing public access to OCA data that reduce the risk of terrorism. 
EPA and the FBI have made great progress in this area.
Continuing Dialogue
    In recent weeks, EPA has continued to meet with other Federal 
agencies to discuss how to provide RMPs, including OCA data, to state 
and local governments. Based on our discussions, EPA will:

<bullet> Work with the National Institute of Standards and Technology 
        (NIST) to explore the feasibility of a ``closed'' system for 
        sharing the OCA data with State and local government agencies; 
        and
<bullet> Inform our state and local government partners of EPA's 
        decision not to post OCA data on the Internet and strongly 
        encourage them to follow suit.
    EPA is working with the RMP Implementation Workgroup of the 
Accident Prevention Subcommittee to identify places the public can go 
to get local access to RMP data of interest to them. The Subcommittee 
is considering using the facilities themselves, the State Emergency 
Response Commission, the Local Emergency Planning Committee (LEPC), or 
other State and local government sources to identify local sources of 
RMP data.
    EPA also is discussing various ways to respond to public requests 
for the national RMP database, including OCA data that balances the 
public's right to know with the sensitivity of the data. Procedures EPA 
will employ include:

<bullet> Contacting each requestor to inquire whether the individual is 
        seeking the entire database and describing what information 
        already is publicly available, which is all RMP data except 
        OCA; and
<bullet> Asking whether the RMP database without facility 
        identification information would suffice (researchers 
        interested in national trends, for example, may not require the 
        information).
    For citizens who want the full national database, EPA is exploring 
the possibility of a ``Read-only'' CD-ROM that could not be copied, 
duplicated, or posted on the Internet. Software capable of providing 
this kind of protection is in the development stage, and we will work 
with appropriate governmental and private experts to determine its 
technical and legal feasibility.
Conclusion
    EPA is committed to providing citizens with RMP information that 
will help them work with government and industry to protect themselves, 
their families, and their communities from chemical accidents and to 
make other informed decisions about their lives. EPA also is committed 
to providing this information in a way that is responsible, and takes 
into account the security concerns raised by the FBI and others. We 
will continue to work with all interested parties to meet this 
challenge.

    Mr. Upton. Thank you, Mr. Fields.
    Mr. Burnham.

                 TESTIMONY OF ROBERT M. BURNHAM

    Mr. Burnham. Yes; Mr. Chairman, and members of the 
committee, my name is Robert M. Burnham. I am the current 
Domestic Terrorism Section Chief for the FBI, head of the 
Domestic Terrorism/Counterterrorism Planning Section at FBI 
Headquarters. My predecessor was just up here before, and that 
was Mr. Blitzer. Prior to that, I served for 2 years--almost 2 
years--as the Assistant Special Agent-in-Charge of the Memphis 
Field Office.
    As with Mr. Blitzer, my current responsibilities include 
national oversight and management of the Domestic Terrorism 
Operations, Weapons of Mass Destruction, and the Special Events 
Management Programs.
    I am pleased to have this opportunity to discuss the 
potential effects of electronic dissemination of chemical 
``worst case scenarios'' data.
    The FBI is aware of the need to aggressively pursue 
environmental crimes and fully supports the Clean Air Act and 
the spirit of the community right-to-know legislation. We 
understand the competing issues at stake here, between 
providing the necessary information to community which allows 
them to make informed decisions on local planning and 
preparedness issues, and limiting the distribution of 
information that can be used against those same communities in 
a criminal manner.
    The FBI has worked with the EPA to identify those sections 
of the risk management plans, RMP's, that we believe can be 
directly utilized as a targeting mechanism in a terrorist or 
criminal attack. The FBI has recommended certain data from the 
RMP, the ``worst case scenarios'' information, be distributed 
via a secure electronic system to State and local government 
agencies, and that the affected community be the final arbiter 
of how to further disseminate the information in a manner 
consistent with existing legislation.
    On December 14, 1997, representatives of the FBI's Weapons 
of Mass Destruction Operations Unit were invited to a meeting 
at the EPA. It was that time that the FBI first became aware of 
a plan by EPA to post the RMP, including the ``worst case 
scenarios,'' also known as offsite consequence analysis, on the 
Internet, in a searchable format. It was the FBI's 
understanding that EPA believed this was the easiest and most 
cost-effective method by which to comply with Federal 
regulation which requires that RMP's be submitted to the EPA 
and be made available to the public.
    The FBI's representatives were, at first, unfamiliar with 
the underlying legislation related to the RMP's. The FBI 
representatives contacted other Federal law enforcement and 
intelligence agencies, as well as the Environmental Crimes and 
Terrorism and Violent Crimes Sections of the Department of 
Justice to discuss issues raised by the EPA's Internet 
distribution plans.
    The FBI believes there are legitimate concerns about the 
potential misuse of OCA data. Specifically, of great concern to 
the FBI at that time, was a recent case that highlights the 
potential danger associated with a criminal attack on a 
chemical facility. I won't go into the details of that because 
Mr. Blitzer has already addressed that. That is the Texas case. 
It was actually code named ``Sour Gas.'' He has given the 
details on that.
    That was highlighted to point out that this was a real-life 
incident, better than any other scenario we could create to 
show or demonstrate how unfettered access to this information 
could be used to facilitate a criminal or terrorist attack in 
the U.S. because it was a chemical facility.
    The FBI applauds the gains made in accident prevention and 
chemical safety over recent years and encourages the 
cooperation between industry and the communities that has 
brought about this success. We believe that providing this 
information to the communities in the appropriate manner 
contributes to an increase in safety in those neighborhoods.
    Through our discussion over the past year with EPA, other 
Federal agencies, and affected parties, we have arrived at 
recommendations we believe balance these concerns that gives 
the communities, State and local agencies, and the academic and 
research communities appropriate access to this information. 
Those recommendations were provided to the committee in a 
report submitted by the FBI in October of last year. However, 
as EPA has discussed today, they have made no decisions on 
those recommendations.
    The FBI continues to work with EPA to assist in evaluating 
these recommendations and will continue to participate in 
discussions within the administration on a appropriate course 
of action that balances the need to prevent criminal action 
with the public's right to information.
    Mr. Chairman, I thank you for the opportunity to appear 
today, and I would be happy to answer any questions.
    [The prepared statement of Robert M. Burnham follows:]
  Prepared Statement of Robert M. Burnham, Chief, Domestic Terrorism 
                Section, Federal Bureau of Investigation
    Good morning Mr. Chairmen and members of the Committee my name is 
Robert M. Burnham, and I am the current Chief of the Domestic Terrorism 
Section at FBI Headquarters. I previously served as the Assistance 
Special Agent in Charge (ASAC) of the Memphis Field Office of the FBI. 
I am pleased to have this opportunity to discuss the potential effects 
of electronic dissemination of chemical ``worst case scenarios'' data.
    The FBI is aware of the need to aggressively pursue environmental 
crimes, and fully supports the Clean Air Act (CAA) and the spirit of 
the Community Right to Know legislation. We understand the competing 
issues at stake here, between providing the necessary information to 
the community, which allows them to make informed decisions on local 
planning and preparedness issues, and limiting the distribution of 
information that can be used against those same communities in a 
criminal manner. The FBI has worked with the EPA to identify those 
sections of the Risk Management Plans (RMP) that we believe can be 
directly utilized as a targeting mechanism in a terrorist or criminal 
attack. The FBI has recommended that certain data from the RMP, the 
``Worst Case Scenario'' information, be distributed via a secure 
electronic system to state and local government agencies, and that the 
affected community be the final arbiter of how to further disseminate 
this information, in a manner consistent with existing legislation.
    On December 14, 1997, representatives of the FBI's Weapon of Mass 
Destruction Operations Unit (WMDOU) were invited to a meeting at the 
EPA. It was at this time that the FBI first became aware of a plan by 
EPA to post the RMP, including the ``Worst Case Scenarios''--also know 
as the Offsite Consequence Analysis (OCA)--on the Internet, in a 
searchable format. It was the FBI's understanding that EPA believed 
this was the easiest and most cost effective method by which to comply 
with federal regulation, which requires that the RMPs be submitted to 
the EPA, and be made available to the public. The WMDOU representatives 
were at first unfamiliar with the underlying legislation relating to 
the RMPs. The WMDOU contacted other federal law enforcement and 
intelligence agencies, as well as the Environmental Crimes and 
Terrorism and Violent Crimes Sections of the Department of Justice, to 
discuss issues raised by the EPA's Internet distribution plans.
    The FBI believes there are legitimate law enforcement concerns 
about the potential misuse of OCA data. Specifically, of great concern 
to the WMDOU at the time, was a recent case that highlighted the 
potential danger associated with a criminal attack on a chemical 
facility. The FBI case, code named SOURGAS, involved four KKK members 
who plotted to place an improvised explosive devise on a hydrogen 
sulfide tank at a refinery near Dallas, Texas. The FBI was able to 
infiltrate the group prior to the attack. A surveillance tape shows two 
of the subjects discussing the potential death of hundreds of area 
residents. At one point when the discussion turned to the children who 
may have become victims, one subject turned to her husband and said 
``if it has to be . . . it has to be''. This cold blooded killing was 
to take place merely as a diversion for an armored car robbery the 
group intended to commit on the other side of town.
    This real life incident highlights better than any scenario we 
could create, how worldwide unfettered access to this information could 
be used to facilitate a criminal or terrorist attack in the U.S.
    The FBI applauds the gains made in accident prevention and chemical 
safety over recent years and encourages the cooperation between 
industry and the communities that has brought about this success. We 
believe that providing this information to the communities in the 
appropriate manner contributes to an increase in safety in those 
neighborhoods. Through our discussions over the past year with the EPA, 
others federal agencies and affected parties, we have arrived at 
recommendations which we believe balance these concerns and give the 
communities, state and local agencies and the academic and research 
communities, appropriate access to this information. Those 
recommendations were provided to the committee in a report submitted by 
the FBI in October of last year. However, as the EPA will discuss today 
they have made no decisions on those recommendations. The FBI continues 
to work with the EPA to assist in evaluating in these recommendations 
and will continue to participate in discussions within the 
Administration on an appropriate course of action that balances the 
need to prevent criminal action with the public's right to information.
    Mr. Chairmen, thank you for the opportunity to appear before you 
today. I would be happy to attempt to answer any questions that you may 
have.

    Mr. Upton. Well, thank you both for coming up.
    And when the first panel was here, all the participants 
were able to submit their testimony in advance. You also set 
the record that neither of you submitted your testimony within 
the 24-hour notification. And, therefore, when I left the 
office last night, I wasn't able to take your testimony home 
with me.
    And I know as a former OMB official, that was something 
that we always worked hard on, to have a good relationship 
with, then, Chairman Dingell to make sure that his testimony 
was in advance.
    And I would appreciate it if you would tell your superiors 
down the line or the folks down at OMB that we would prefer not 
to have that happen again. We wanted you to testify, for both 
of you to participate. And, sadly, without the advance of your 
testimony, it hurts us in terms of looking for some good 
questions to digest this issue, as I am convinced that all of 
the members on this subcommittee want to make sure that every 
community is safe in the best possible way. And we have to, in 
my view, have some type of balance in terms of what is 
available and what is not.
    And I guess, in that regard, Mr. Burnham--I know that as I 
listened to your testimony today, it was the FBI that had heard 
about a year ago, I guess it was, that the EPA was intending to 
put this on the Internet. It is my sense, from your testimony, 
that the FBI was very much opposed to the ``worst case 
scenario'' data being put onto the Internet. And you were 
successful--and based on Mr. Fields' testimony--to get EPA to 
back off. Is that correct? Do I have the----
    Mr. Burnham. That is correct. It is my understanding--
again, I wasn't here, but in reviewing everything, as part of, 
as Mr. Blitzer has referred to--the interagency working group, 
which had a number of intelligence agencies including, EPA, the 
Department of Defense, the CIA, and others. We did object to 
the OCA, ``worst case scenario'' information, going out 
unfettered over the Internet and being released.
    Mr. Upton. And the DOD and the CIA were in concurrence with 
FBI?
    Mr. Burnham. We are part of the working group.
    Mr. Upton. Now my question, I guess for Mr. Fields is, 
knowing that the EPA has pulled back or recognized the need not 
to put the ``worst case scenario'' on the Internet, my question 
to you--and which will last over to panel three--is if you 
don't do it, are you opposed to having other third parties post 
that information on the Internet?
    Mr. Fields. Yes; I want to make clear that we definitely--
--
    Mr. Upton. You are taking a position on that?
    Mr. Fields. Right. We definitely oppose third parties 
putting it--the OCA data--on the Internet. The other RMP data 
we are obviously in support of, and the FBI, as well, has 
supported it being on the Internet.
    But the OCA portion of the database, we do not intend to 
post it on the Internet, and we want to work with others to 
ensure that they also do not post the nationwide OCA data on 
the Internet.
    So we intend to work with the FBI and other agencies to try 
to make sure that does not occur. And the steps we are taking 
in responding to the FBI and other recommendations are to 
implement an RMP program that assures that ``worst case 
scenarios'' are not available on the Internet. And that is the 
advice we have gotten from the national security interests in 
this country, and that is the advice we intend to carry out. 
And we will work with others to try to ensure that within our 
legal and technical capabilities.
    Mr. Upton. Okay. I appreciate that, and I guess I may have 
a question in a few moments, but I will recognize the gentleman 
from Ohio, Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Mr. Fields, your degree is in industrial engineering, I 
understand?
    Mr. Fields. Yes, sir.
    Mr. Brown. I know that doesn't make you necessarily a 
terrorism expert, but given your background and your knowledge 
of the specific information that will required in these ``worst 
case scenarios,'' do you believe a terrorist will obtain 
adequate information from these ``worst case scenarios'' to 
know exactly how to sabotage a facility without need for 
further information? Will the ``worst case scenarios,'' for 
example, contain information on exact location of tanks, the 
facility, those sorts of things which they might need to know?
    Mr. Fields. The ``worst case scenario'' data will not tell 
a terrorist how to cause an accident at an industrial facility. 
The ``worst case scenario'' will include data about the largest 
tank, for example, at a facility and the area of impact if that 
tank happened to explode, the number of people that may be 
impacted, but it would not tell that terrorist how to cause an 
accident at that facility.
    So, you are right in your questioning, which is that the 
terrorist would have to need a lot more information than just 
that to decide how to cause a terrorist event at that facility. 
However, we do agree with the decision that we have made, which 
is to not post it on the Internet, but a terrorist would have 
to have more information than just that OCA portion of the 
database.
    Mr. Brown. But if it were posted on the Internet, it still 
would not be sufficient information?
    Mr. Fields. Not alone; that is correct.
    Mr. Brown. Is there any database that tracks all industrial 
accidents involving hazardous substances and, also, documents 
the cause of each of those incidents?
    Mr. Fields. We have several databases internally; we have 
the National Response Center. I have been involved in emergency 
response for about 15, 20 years at EPA, and we have several 
databases that contain information about the number of 
chemicals that get released a year; the National Response 
Center. We have an emergency response notification system that 
brings in data; we have an accidental release reporting system. 
So, we have a lot of data systems that record chemical as well 
as oil spill accidents that occur in this country annually, 
what are some of the causes of these accidents, the quantities 
that are being released, et cetera. So, we have quite a bit of 
data on that.
    Mr. Brown. Does it always, Mr. Fields--does it always 
document the cause of each incident? Or----
    Mr. Fields. Sometimes the causes are not always known or 
are able to be found out, in terms of exactly why a particular 
industrial accident did occur at a particular facility.
    Mr. Brown. I assume, from other testimony, that from what 
you have said and others, that there are significantly more 
industrial accidents involving hazardous substances than 
incidents involving terrorism. Could you give us some more 
precise details and numbers?
    Mr. Fields. Yes; we are not aware of any even actual 
accidents that have involved terrorism. There have been two 
potential incidents, one of which was referred to in the first 
panel. We do know of at least two, one was the one in Texas 
that was alluded to earlier, I think, in the previous panel, in 
1997, where a group planned to blow up a facility. They were 
caught because of an informant, and the terrorist act did not 
occur. The only other incident we are aware of in the last 10 
years was one in 1991, where six pipe bombs were found near the 
Norfolk Naval Base, and we discovered the bombs before they 
went off. They were removed and neutralized without incident.
    So, those were two----
    Mr. Brown. Was that one the one where the owner, in some 
sort of insurance fraud, tried to blow up his own place? Is 
that----
    Mr. Fields. I am not aware of--we are hearing that was an 
allegation; we are not sure if that----
    Mr. Brown. Oh, okay.
    Mr. Fields. [continuing] was accurate or not.
    Mr. Brown. Counsel informs me the owner was convicted, so 
it was----
    Mr. Fields. Are you talking about the Norfolk Naval----
    Mr. Brown. The Norfolk one, yes.
    So, we are here today----
    Mr. Fields. Those are the only two threats we are aware of.
    Mr. Brown. And how many industrial accidents involving 
hazardous substances have you documented?
    Mr. Fields. Oh, thousands----
    Mr. Brown. Okay.
    Mr. Fields. [continuing] of industrial accidents.
    Mr. Brown. So we are here today using----
    Mr. Fields. I mean we have, you know, several thousand, you 
know, chemical releases occur every year, and many accidents 
occur; yes.
    Mr. Brown. We are here today in this subcommittee, 
sometimes scaring people a little by invoking Oklahoma City and 
highway accidents and all kinds of potential terrorists--that 
were real in the case of Oklahoma City, but some potential 
terrorist accidents which don't fall into the jurisdiction of 
this bill. There have been none that would, in terms of the 
plan and all. And we have thousands of industrial accidents 
that are very different, where communities need to know how to 
deal with these kinds of industrial accidents?
    Mr. Fields. That is correct. Some of the incidents that 
have been referred to earlier, like Oklahoma City, would not 
fall within the purview----
    Mr. Brown. Right.
    Mr. Fields. [continuing] of the risk management planning 
regulations.
    Mr. Brown. So, it is hard to think of any real reason for 
legislation?
    Mr. Fields. We think, as an administration, that it is 
premature to talk about new legislation in this arena at the 
current time. We believe that the security agencies and the EPA 
and other stakeholders are working in a way that we probably 
balance the need for public access under 112(r), the Clean Air 
Act, and adequate protection of national security interests in 
this country. We think it is premature to talk about new 
legislation being needed to address this issue.
    Mr. Brown. Thank you, Mr. Fields.
    Mr. Upton. The Chair would recognize Chairman Bilirakis for 
5 minutes.
    Mr. Bilirakis. Mr. Burnham, how long have you been with the 
FBI?
    Mr. Burnham. Approximately 22 years----
    Mr. Bilirakis. Twenty-two years.
    Mr. Burnham. [continuing] as an agent.
    Mr. Bilirakis. Mr. Fields, should we wait until there are a 
number of chemical industrial terrorist acts before we take 
this issue seriously? By the way, I want to express what I see 
as really great cooperation on the part of the EPA in 
discussing this with the FBI and the law enforcement agencies 
over the years. But I do understand, also, that this concern 
that you--having third parties using this information and 
putting it on the Internet. And, again, I commend you for 
expressing that. It is something that you have been working 
on--the EPA has been working on--for quite some time?
    I mean how much longer do we wait here? You say you don't 
think there is a need for legislation--and I appreciate the 
fact that EPA is working on this. However, a long time has gone 
by. Apparently, the FBI has made some recommendations. You are 
considering those recommendations; you are working toward that 
end.
    How close are you to coming up with something?
    Mr. Fields. I think we are very close. As a matter of fact, 
some actions that we have already taken, Congressman, have been 
taken that will preclude the OCA data, offsite consequence 
analysis data, from being put on the Internet. It has been a 
great partnership with the FBI; we have been working real 
closely together. I think we will know in the next 6 months.
    I think we and the FBI would both agree that if we cannot 
take all the necessary steps, we think that the plan we have 
laid out, that we will only provide the information to State 
and local implementing agencies in a closed, secure system, 
secure ID's, and other mechanisms, will only provide--the 
affected residents around the facility will get it from the 
chemical industry, itself, and others.
    Mr. Bilirakis. Yes.
    Mr. Fields. We will provide--looking at read-only options 
for response to FOIA requests. That is the kind of agenda we 
are looking at. I think we will be able to know in the next 6 
months whether we are able----
    Mr. Bilirakis. Well, you don't have----
    Mr. Fields. [continuing] to successfully----
    Mr. Bilirakis. You don't have 6 months, really.
    Mr. Fields. Right. Well, I think that the information will 
come in June 21. It will be several months after that--2 or 3 
months after that--before----
    Mr. Bilirakis. Well, all right. Let me ask you this, sir. 
Again, you know, I go back to common sense here.
    Mr. Fields. Right.
    Mr. Bilirakis. Darn it, I think we all want the same thing. 
First of all, I think all the witnesses in the prior panel 
indicated that they are for Community right-to-know and that 
sort of thing. So, who are we? Are we bad guys up here because 
we are concerned about, you know, risks and the health and 
welfare of the American people, as far as terrorism is 
concerned?
    I think not, and I don't think we need to be at each 
other's throats, Republicans and Democrats, on this kind of 
issue. I think we all want the same thing.
    But I, also, don't think we ought to wait until there might 
be one or two or three types of industrial terrorism acts 
involving chemicals--before we do something about it.
    You have indicated that you think that EPA has taken the 
right step in not putting it on the Internet. You have 
indicated you don't think that third parties ought to be able 
to indiscriminately put it on the Internet.
    All right; what would be wrong with this Congress trying to 
be helpful to EPA, to law enforcement, by working, on a piece 
of legislation with your assistance and with the assistance of 
some of the other gentlemen by June 21. So, that we can be 
ready to go, rather than have a gap when something might happen 
that we will be darned sorry for because we did not do 
something about it.
    Mr. Fields. Well, obviously, Mr. Congressman, if this 
committee and the two subcommittees together work on 
legislation, we will, obviously, be willing to provide 
technical assistance and input to that.
    All we are saying right now is we don't see the need for 
new legislation. We believe that the implementation game plan 
we have laid out will provide for adequate security of this 
portion of the database that everyone agrees we don't want to 
provide access to. And we believe that you could put in place 
legislation that would preclude access to the people who are 
right near the affected facilities.
    Mr. Bilirakis. Well, but you would be----
    Mr. Fields. We have got to be really careful here.
    Mr. Bilirakis. You would be a part of crafting that 
legislation, because that would not be the intent.
    But let me ask you, Mr. Burnham; is the FBI concerned that 
third parties will request the ``worst case scenario'' 
information from EPA in an electronic searchable format? Are 
you concerned with this problem? And, do you have confidence 
that EPA is going to solve that problem by the deadline that we 
are talking about?
    Mr. Burnham. Well, we are still working with EPA on that. 
We are concerned on the OCA data getting out. We have made that 
known and we have been working for months with them on that. 
You know, I am sure we can probably work something out. You 
know, one of the things that we have done is we have offered 
the assistance of our NIPC, the National Infrastructure 
Protection Center, to help them with assistance, as far as 
encrypting the information. We have also--well, that was part 
of one of the three recommendations last October that we made. 
And we are still working with them on that.
    But, again, you know, we would be opposed to the 
information going out----
    Mr. Bilirakis. Yes.
    Mr. Burnham. [continuing] over the Internet and----
    Mr. Bilirakis. But, again, the next question really--and 
counsel is whispering into my ear, and that is not necessary. 
But--and I have asked counsel this here, too--it looks like 
that apparently the FBI, the EPA, the counsel up here, feels 
that the current law--under current law--the EPA must provide 
the ``worst case scenario'' information in an electronic 
format. Would you agree with that?
    Mr. Burnham. I am sorry; under current law now?
    Mr. Bilirakis. Under current law that they must provide it 
in an electronic format.
    Mr. Burnham. That is not an issue that I have addressed. I 
have dealt with just the threat assessment, with respect to the 
data--the release of the data. As to whether--that is not an 
issue I have looked at; that is not an issue that has been 
addressed by our section, at this point. I know Mr. Blitzer 
stated that he brought it up, and it was discussed. It is not 
an issue that I have addressed.
    Mr. Bilirakis. Well, but if--let me ask you then, if 
current law is interpreted to require that it be done through 
an electronic format, would that alarm you? Do you think, then, 
that that current law should be changed? If it would----
    Mr. Burnham. Well, it would depend.
    Mr. Bilirakis. If it means that it has to be done through 
a----
    Mr. Burnham. Again----
    Mr. Bilirakis. [continuing] by way of electronic format?
    Mr. Burnham. Again, going back to the threat assessment--
going back to the threat assessment, we would be concerned 
however it got out, that type of information, the ``worst case 
scenario'' information, in any format.
    Mr. Bilirakis. I am told--was this submitted into the 
record? It was not?
    It is a letter to Chairman Jerry Lewis, dated December 7, 
1998, Mr. Brown, signed by a Robert Walsh, Legislative Counsel 
Office of Public Congressional Affairs, Federal Bureau of 
Investigation.
    I would like unanimous consent that be inserted into the 
record.
    Mr. Upton. Without objection.
    [The information referred to follows:]
                    U.S. Department of Justice,    
                       Federal Bureau of Investigation,    
                                            Washington, DC,
                                                  December 7, 1998.
Honorable Jerry Lewis
Chairman, Subcommittee on Veteran Affairs, HUD, and Independent 
        Agencies
Committee on Appropriations
House of Representatives
Washington, D.C. 20515
    Dear Mr. Chairman: The attached report is submitted as directed by 
the Conference Report dated October 5, 1998, titled ``making 
appropriations for the Departments of Veterans Affairs and Housing and 
Urban Development, and for sundry independent agencies, boards, 
commissions, corporations, and offices for the fiscal year ending 
September 30, 1999, and for other purposes''.
    If the FBI can be of any further assistance, please do not hesitate 
to call.
            Sincerely yours,
                                           A. Robert Walsh,
   Legislative Counsel, Office of Public and Congressional Affairs.
Enclosure
   Honorable Louis Stokes
   Ranking Member, Subcommittee on Veteran Affairs, HUD, and 
Independent Agencies, Committee on Appropriations, House of 
Representatives, Washington, D.C. 20515

    As directed the FBI has compiled a list of recommendations for the 
appropriate methods of public dissemination of the Risk Management 
Plans (RMP) data submitted to the EPA pursuant to Clean Air Act section 
112(r). These recommendations are the result of discussions with 
representatives of other EPA, law enforcement and intelligence 
agencies, as well as state and local Emergency Services and hazardous 
Materials offices. The methods recommended below provide vehicles for 
disseminating the information to the Federal, State and local 
government agencies to plan for, and respond to, accidents at chemical 
storage and production facilities. The methods recommended also provide 
the bulk of the entire database to the research and academic community, 
to enable them to do the necessary work of regional and national 
comparative studies of facilities.
    The FBI first became aware of EPA's intention to release the RMP 
data on the Internet in December, 1997. At that time the FBI expressed 
concern over the manner and the extent to which the information would 
be disseminated. The FBI and the EPA have met several times since then 
to discuss alternatives to the original plan. On September 17, 1998 
representatives of the EPA's, Chemical Emergency Preparedness and 
Prevention Office met with representatives of the Weapons of Mass 
Destruction Operations Unit (WMDOU), Domestic Terrorism/
Counterterrorism Planning Section (DT/CPS), National Security Division, 
FBIHQ and the Department of Justice, Terrorism and Violent Crimes 
Section to make final recommendations regarding methods that EPA will 
use to distribute case scenarios and alternate release scenarios 
reported under the Risk Management Program. Those recommendations, 
which have been coordinated with other Federal law enforcement and 
intelligence agencies, were forwarded to EPA in a letter from the 
Domestic Terrorism Section, FBI, in October of this year, and are 
contained below:
    The FBI recommended that all OCA data should be excluded in RMP 
information distributed on the Internet. Specifically this would 
include sections 1, 2, 3, 4 and 5 of the RMP. All other data elements 
will be accessible to the public on the Internet. Other concerns have 
arisen regarding the inventory quantity of chemicals, which are listed 
in section 1 of the RMP. These concerns were raised at the open hearing 
of the Accident Prevention Subcommittee on September 9, 1998. EPA 
currently provides a plume modeling program for downloading over their 
Internet site. If the quantities of the chemicals are provided as well, 
the distance to and point and population affected could be derived from 
the information EPA has already provided, regardless of whether the 
other sections of the RMP are contained. There also still remains a 
need to impose electronic speed bumps to allow for limited queries. The 
FBI has agreed to work with EPA to assist in designing these controls.
    To ensure that State and local government agencies will have access 
to all national RMP data, the FBI recommended that EPA should use a 
``closed system'' restricted to State and local government agencies. 
FBI will continue to provide support to EPA as they put this system in 
place utilizing secure password protection and encryption technology as 
appropriate. It was acknowledged that this system may have resource 
implications to be addressed which may include providing state and 
local agencies with computer equipment to enable them to access the 
closed system.
    The FBI is still greatly opposed to the creation of a CD-ROM which 
encompasses the entire database. FBI recommends that EPA create a CD-
ROM which contains all of the national data, except for the facility 
identification and contact information. The CD-ROM could be used by 
environmental groups and other organizations to study the nationwide 
data and analyze national trends. This option would be offered as a 
method to address terrorist risk by removing the ability to use the 
information for targeting facilities.
    One of the recurring concerns regarding the electronic submission, 
is the Freedom of Information Act issue. Both Department of Justice and 
EPA legal counsel have advised the FBI that the current FOIA laws would 
require the EPA to provide the information in an electronic format, if 
the information is submitted in that format. Further, the current FOIA 
laws may require posting of the information in an electronic format 
after the information has been requested twice. EPA has advised FBI 
that certain organizations have stated that they will attempt to post 
the complete information on private Internet web sites if the EPA fails 
to post the information in its entirety. Current FOIA regulation do not 
appear to provide a mechanism by which the EPA can deny requests for 
information. Should these groups post the information, the other 
efforts taken to protect sensitive information from world wide 
distribution on the Internet would be negated.
    In making these recommendations, the FBI has attempted to address 
the spirit of the Community Right to Know sections of the Clean Air 
Act, and as stated in the report, ``strike the appropriate balance 
between methods of public dissemination and legitimate national 
security and anti-terrorist concerns.'' As stated previously, FBI has 
discussed these issues with EPA and have reached concurrence on most of 
these recommendations. The FBI currently sees the electronic FOIA 
concern as the most significant issue in dealing with the dissemination 
of this information.

    Mr. Bilirakis. And would call Mr. Burnham's attention to 
page--the pages are not numbered here--a paragraph in here that 
I am not going to take time to read because the red light is 
on. But it says in effect that the FBI sees the current law as 
requiring that it be issued by way of an electronic format.
    Just to clarify that.
    Mr. Upton. Mr. Brown has----
    Mr. Brown. One comment, if I could, Mr. Chairman, just 10 
seconds.
    I don't think there is anybody--I mean no offense, really, 
to Mr. Burnham or anybody else--I don't think we have really 
had a Freedom of Information expert here. I mean in the former 
panel, there was someone that was asked a lot of questions 
about Freedom of Information Act, and I don't think any of us 
that have practiced law in that area and know those issues real 
well. I think the committee should note that in response to 
some of these discussions about Freedom of Information.
    Mr. Bilirakis. Well, Mr. Chairman, the letter that we put 
into the record, by unanimous consent, would indicate that that 
is the FBI opinion. I am not sure whether you have seen that.
    Mr. Fields. Mr. Chairman, could I just add one appendix to 
that issue? Just that we have had a discussion yesterday. The 
Department of Justice and the Office of Legal Counsel is 
exploring this issue, again, about the legal authorities under 
the Freedom of Information Act, and so we should have a more 
definitive position from the administration in the next few 
weeks on that issue.
    Mr. Upton. I want to say, again, we have a vote on, and I 
think that I am going to make the point, again, that for 
members that are not here and members that are here, we are 
going to try to leave the record open for 30 days to ask 
questions. If you would make yourselves available for that.
    I ask unanimous consent to put in a report from the 
Congressional Research Service, which I am sure we will get 
copies to members.
    [The information referred to follows:]

                     Congressional Research Service
                 Library of Congress Washington, D.C. 20540
                                                   January 22, 1999
Memorandum

TO: Honorable Tom Bliley, Chairman, House Commerce Committee

FROM: Morton Rosenberg, Specialist in American Public Law, American Law 
            Division

SUBJECT: Format accessibility Under the Electronic Freedom of 
            Information Act Amendments of 1996

    Under the Clean Air Act amendments of 1990, the Environmental 
Protection Administration (EPA) was directed by Congress to develop 
regulations requiring certain facilities to implement a program focused 
on the prevention of chemical accidents. On June 20, 1996, the EPA 
published a ``Risk Management Rule'' requiring approximately 66,000 
facilities nationwide to send a Risk Management Plan containing 
detailed information regarding potential accidental chemical release 
points and estimating the damages and injuries that could result from 
an absolute worst-care scenario. It is anticipated that the submissions 
will be transmitted electronically. The Act requires that EPA make the 
plans publicly available except for those portions that contain trade 
secrets the revelation of which would cause substantial harm to a 
person's competitive position. 42 U.S.C. 7412r(6)(c)(iii); 
(7)(13)(i)(ii)(iii); 7414(c)(1994).
    You inquire whether public access to Risk Management Plan 
submissions through the Freedom of Information Act, as amended, 5 
U.S.C. 552 (Suppl II., 1996), includes electronic records, and whether 
a FOIA requester may designate a particular format as a preferred 
response. As amended by the Electronic Freedom of Information Act 
Amendments of 1996, Pub.L. 104-231, 110 Stat. 3048, it is now quite 
clear that FOIA covers an agency's electronic records, and it must 
provide the record to a requester in any form or format requested as 
long as the record is readily producible in that form or format.
    The 1996 Amendments to FOIA were the product of several years of 
legislative hearings and government-wide surveys by the Department of 
Justice regarding agency practices in applying the FOIA to records in 
electronic formats. Although the federal courts had long-recognized the 
application of the FOIA to agency records in electronic formats, see, 
e.g., Yeager v. Drug Enforcement Agency, 678 F. 2d 315, 321 (D.C.Cir. 
1982), they had virtually no guidance from Congress regarding the 
manner in which such matters as record searches and redaction should be 
conducted in processing requests for such records. In one ruling, 
Dismukes v. Department of the Interior, 603 F. Supp. 760, 763 (D.D.C. 
1984), the court held that an agency has no obligation under the FOIA 
to accommodate a requester's format preference.
    Congress amended Section 552(f) to make it clear that the term 
``record'' encompasses electronic records. It now states that `` 
`record' and any other term used in this section in reference to 
information includes any information that would be an agency record 
subject to the requirements of this section when maintained by an 
agency in any format, including electronic format.''
    The 1996 amendments also provided that an agency, in making a 
record available to a person in response to a FOIA request, ``shall 
provide the record in any form or format requested by the person if the 
record is readily reproducible by the agency in that form or format.'' 
Section 552(a)(3)(B). Congress thus overruled the above-noted Dismukes 
ruling. Congress directed that each agency must ``make reasonable 
efforts to maintain its records in forms or formats that are 
reproducible'' for the purposes of this requirement. Id. But courts are 
required to ``accord substantial weight'' to an agency affidavit 
concerning the agency's determination as to whether a record is 
``readily reproducible'' in the requested form or format. Section 
552(a)(4)(B).
    The amendments defined the term ``search'' to include a review of 
agency records ``by automated means'' and provided that an agency make 
``reasonable efforts'' to search for responsive records ``in electronic 
form or format, except when such efforts would significantly interfere 
with the operation of the agency's automated information system.'' 
Section 552(a)(3) (D) and (C).
    Finally, Congress recognized the applicability of the FOIA's 
segregability requirements in electronic contexts but made certain 
accommodations: (1) the ``amount of information deleted shall be 
indicated in the released portion of the record, unless including that 
indication would harm an interest protected by the exemption in this 
subsection under which the deletion is made,'' and (2) the amount of 
the information deleted shall be indicated at the place in the record 
where such deletion occurred if it is ``technically feasible'' to do 
so. Section 552b.
    House Report No. 104-795, which accompanied H.R. 3802, provides 
very useful background on the development of the 1996 amendments and 
Congress' purpose and intent with respect to this legislation.

    Mr. Upton. And I will dismiss you, thanking you, again, 
asking you next time to send your testimony in advance.
    And I would announce to those here that we will reconvene 
at 2:15 for panel three.
    Mr. Burnham. Thank you.
    Mr. Fields. Thank you, Mr. Chairman.
    [Brief recess.]
    Mr. Upton. Welcome back. We are done for votes for the day, 
not for the week.
    And I want to recognize the last and final panel, panel 
three.
    Thank you for being with us today. Mr. Art Burk, senior 
safety fellow, from the DuPont Company, representing the 
Chemical Manufacturers; Mr. Paul Orum, coordinator of the 
Working Group on Community Right-to-Know; Mr. Jerry Scannell, 
president of the National Safety Council, member of the Clean 
Air Act Advisory Subcommittee on Accident Prevention; and Ms. 
Paula Littles, legislative director of PACE Workers 
International Union.
    Thank you. I think if you were here a little earlier, you 
are aware that this subcommittee is an investigative 
subcommittee, and as such, has had the long practice of taking 
testimony under oath. Do you have any objection to such? Seeing 
none, we move on.
    The Chair, then, advises each of you that, under the rules 
of the House and the rules of the committee, you are entitled 
to be advised by counsel. Do any of you desire to be advised by 
counsel during testimony today?
    Again, saying, ``No.''
    In that case, if you would rise and raise your right hand, 
I will swear you in.
    [Witnesses sworn.]
    Mr. Upton. Again, I want to thank each of you for 
submitting your testimony in a timely fashion; it was 
appreciated last night.
    We will start with Mr. Burk for 5 minutes. And, as with the 
others, your testimony will be printed fully in the record, and 
you are welcome to summarize. And, hopefully, you will not last 
more than the 5 minutes given to you.
    Mr. Burk.

   TESTIMONY OF ARTHUR F. BURK, SENIOR SAFETY FELLOW, DUPONT 
 COMPANY, REPRESENTING THE CHEMICAL MANUFACTURERS ASSOCIATION, 
  AND MEMBER, CLEAN AIR ACT ADVISORY SUBCOMMITTEE ON ACCIDENT 
PREVENTION; JERRY SCANNELL, PRESIDENT, NATIONAL SAFETY COUNCIL, 
  AND MEMBER, CLEAN AIR ACT ADVISORY SUBCOMMITTEE ON ACCIDENT 
PREVENTION; PAUL ORUM, COORDINATOR, WORKING GROUP ON COMMUNITY 
RIGHT-TO-KNOW; AND PAULA R. LITTLES, LEGISLATIVE DIRECTOR, PACE 
                  WORKERS INTERNATIONAL UNION

    Mr. Burk. Mr. Chairman, and members of both your 
subcommittees, good afternoon.
    My name is Arthur Burk, and I am a senior safety fellow 
with the DuPont Company. I also am a member of EPA's Accident 
Prevention----
    Mr. Upton. If you would just--might move the microphone a 
little closer, it would be helpful.
    Mr. Burk. Okay; is that better?
    I also am a member of the EPA's Accident Prevention 
Subcommittee. I appreciate the invitation to testify on this 
very important topic.
    My bottom line is this; the RMP rule is a good regulation, 
and it will be effective in helping to prevent chemical 
accidental releases.
    EPA's leadership in proactively and continually involving a 
broad range of stakeholders was a key ingredient to a 
successful rulemaking. However, the process clearly showed the 
need to involve security agencies early in the debate and the 
need to do a better job at balancing security risks with public 
right-to-know.
    EPA is making real progress on implementation of the Risk 
Management Program rule, and we are committed to work with the 
Agency to help ensure its successful implementation.
    Even before the rule is final, DuPont is making the 
information publicly available. The question is, and has been; 
what is the best and safest way to do this?
    There are two key issues remaining. First, some RMP 
information should not be posted on the Internet. This is the 
recommendation of security agencies, and we agree. The 
information that should not be on the Internet are those 
parameters which quantify, either directly or indirectly, the 
consequences of an accidental or externally induced release. 
This would include chemical quantity or inventory, distance to 
irreversible health effect endpoint in miles, and residential 
populations potentially affected.
    The second key issue remaining is; what is the best way to 
communicate offsite consequence analysis data to the public? 
Guided by the recommendations from the FBI, EPA decided against 
putting data which includes the above three parameters I 
mentioned on the Internet. This does not mean the information 
won't be available to the public. People have a right to know 
this information. Clearly, an alternate approach of 
communicating this data to the public must be found.
    I wish I had the answer; I don't, but we continue to work 
with the Agency, the FBI, environmental groups, local 
officials, and others to find the answer.
    In the meantime, I offer three guiding principles to keep 
in mind moving forward. First, requests for local RMP 
information from people in plant communities should be 
processed through the local officials or through the specific 
facility involved. Second, procedures for processing requests 
for RMP information should be developed by EPA working closely 
with Federal security agencies and local officials and response 
groups. And, third, these procedures must respect the 
legitimate community right-to-know, protect against potential 
terrorist threats, and accommodate requests from academic and 
other non-governmental organizations which may want to review, 
study, and learn from the national RMP database.
    Thank you for the opportunity to testify today.
    [The prepared statement of Arthur F. Burk follows:]
 Prepared Statement of Arthur F. Burk, DuPont Company, on Bealf of the 
                   Chemical Manufacturers Association
Introduction
    Good morning. My name is Arthur F. Burk. I am a Senior Safety 
Fellow with the DuPont Company, with headquarters in Wilmington, 
Delaware. I also am a member of the U.S. EPA's Accident Prevention 
Subcommittee that is focusing on the issue of how best to disseminate 
Risk Management Program (RMP) information, including worst case 
scenario and other off-site consequence analysis information. I 
appreciate the invitation to testify before these two House Commerce 
Subcommittees on this very important topic. My testimony addresses the 
following main areas:

<bullet> Background--EPA's Risk Management Program Rule
<bullet> Accident Prevention Subcommittee Activities
<bullet> Key Ongoing Issues
<bullet> Summary
    The DuPont Company, along with many other companies in the business 
community, supported the 1990 amendments to the Clean Air Act. 
Specifically, we supported creation of the Risk Management Program. We 
thought then--and continue to believe--that the program is a good idea. 
Further, we believed then--and continue to believe--that information 
collected under the RMP should be made public. And that includes worst 
case scenario data.
    My concern and that of many other companies has always been ``how'' 
the data will be made public, beyond the local community. Security 
consultants have serious concerns that making worst case scenario data 
available via the Internet would increase the risk of terrorist actions 
against chemical facilities. We agree with these concerns. A critical 
ingredient to determining ``the how'' is on-going dialogue between EPA, 
other Federal Security Agencies who have responsibility for our safety 
and security, Local Emergency Planning Committees (LEPC's) and other 
local emergency responder organizations. We are pleased with the 
dialogue established thus far by EPA and strongly encourage its 
continuation.
    Chairman Bilirakis, Chairman Upton, and other members of your 
Subcommittees, DuPont and other companies are investing a great deal of 
time and other resources to ensure that compliance with the RMP rule 
goes smoothly--and, most importantly, that the information is 
communicated accurately and effectively. For example just last Thursday 
in the Houston area, the East Harris County Manufacturing Association--
held an RMP outreach meeting at the Pasadena Convention Center titled 
Understanding Chemical Risk Management. Over 500 people attended the 
evening session. From the reports I have received, people found both 
the information and the dialogue very useful. Written material that was 
distributed at the session will be made available to those who could 
not attend the evening meeting. Already, additional meetings are 
planned.
    The reason that industry sponsors sessions like the one in Houston 
is that we see a number of benefits in the RMP process for both the 
public and for ourselves. We see the RMP process as one of many ways to 
communicate with the public and to engage them in dialogue--about 
mutual interests and concerns including:

<bullet> the hazards of chemicals we handle and what is being done to 
        prevent and/or mitigate accidental releases, and
<bullet> the important role of chemical products not only in local 
        communities, but in the nation as a whole.
    The bottom line is: DuPont and others in industry including the 
Chemical Manufacturers Association (CMA) firmly support the RMP; we 
support making all the information public--including the worst case 
scenario data. Our concern is with ``the how''.
Background: EPA's Risk Management Program Rule
    Pursuant to section 112(r) of the Clean Air Act as amended in 
November 1990, the EPA solicited the views of many in developing 
accidental release prevention regulations. For more than 5 years, EPA, 
CMA and other stakeholders, representing a broad diversity of views, 
worked together in a spirit of cooperation to produce a regulation 
titled ``Accidental Release Prevention Requirements: Risk Management 
Programs under the Clean Air Act, section 112(r)(7)''. This regulation, 
as promulgated on June 20, 1996, is soundly based. When fully 
implemented by facilities, it will be effective in helping prevent 
Accidental Releases.
    EPA's Risk Management Program Rule requires that facility owners 
who handle regulated substances in excess of the threshold quantity 
prepare Risk Management Programs which include:

<bullet> hazard assessment (or off-site consequence analysis) including 
        worst case scenario.
<bullet> prevention activities
<bullet> emergency response activities
    In addition, the regulation requires that the facility owner 
prepare a Risk Management Plan which summarizes the facility's Risk 
Management Program and which must contain the following information:

<bullet> executive summary
<bullet> registration information (including chemical quantity for each 
        regulated substance in each covered process)
<bullet> off-site consequence analysis (including worst case scenario 
        data such as chemical quantity released; distance to 
        irreversible health effect endpoint in miles; residential 
        population within that area)
<bullet> five-year accident history
<bullet> prevention program
<bullet> emergency response program
<bullet> certifications
    The regulation further requires that ``the Risk Management Plan 
shall be submitted in a method and format to a central point as 
specified by EPA prior to June 21, 1999.''
    During the summer of 1996, EPA, revealed that it was considering 
posting Risk Management Plan information (including off-site 
consequence analysis and chemical quantity data) on the Internet. This 
position heightened concern about the access and use of such 
information by potential terrorists. DuPont and others industry 
companies support posting of all RMP information on the Internet, with 
the exception of off-site consequence analysis data and chemical 
quantity or inventory data.
Accident Prevention Subcommittee Activities
    In September 1996, the EPA established the Accident Prevention 
Subcommittee as part of the Clean Air Act Advisory Committee. I was 
pleased to accept EPA's invitation to join the Subcommittee, as its 
only member who directly represents one or more of the 66,000 regulated 
facilities under EPA's Risk Management Program Rule. My experience in 
this area spans 35 years within DuPont and includes a series of 
manufacturing, project and technical assignments, which provided direct 
experience in the safe handling of toxic, flammable and thermally 
unstable materials. At the Subcommittee's first meeting on September 
24, 1996, security from potential terrorism was raised as an issue.
    In May 1997, Brent Greene, a member of the President's Commission 
on Critical Infrastructure made a recommendation to the Accident 
Prevention Subcommittee that EPA contract to have a security analysis 
conducted to evaluate the risks, trade-offs, and cost implications of 
making release scenario data available over the Internet.
    During the summer of 1997, a Scope of Work for the security study 
was developed by the Subcommittee. Aegis Research Corporation, ICF 
Incorporated, and Scientific Applications International Corporation 
were selected by EPA to conduct the Security Analysis.
    Aegis Research Corporation described their security analysis study 
to the Accident Prevention Subcommittee on December 17, 1997. The 
Security Study report, titled An Analysis of the Terrorist Risk 
Associated with the Public Availability of Off-site Consequence 
Analysis Data, concluded that the CD-ROM and Internet dissemination 
options under consideration by EPA would increase the risk of terrorism 
from 3.5 to 7 times the risk of the baseline case (paper copies in the 
local community). Although a number of my colleagues and I in industry 
found the Aegis report compelling, others on the Subcommittee 
disagreed, concluding that ``speed bumps'' could be devised that would 
serve to protect against terrorists accessing sensitive information. 
``Speed bumps'' are intended to either slow down access to information 
or make access more difficult.
    At its February 3, 1998, meeting, the Subcommittee decided to move 
forward with putting off-site consequence analysis and worst case 
scenario data on the Internet with limited ``speed bumps.''
    During the September 9, 1998, meeting of the Subcommittee, a number 
of people--Jim Meade, Department of Justice, Terrorism and Violent 
Crimes Section; Basil Doyle, Federal Bureau of Investigation; Gerry 
Scannell, President, National Safety Council; Jack Weaver, Director, 
Center for Chemical Process Safety and I--expressed concerns and 
recommended against posting off-site consequence analysis and chemical 
quantity or inventory data on the Internet. The concern shared by all 
of us was that posting of such information on the Internet would 
provide valuable targeting information to potential terrorists.
    On November 5, 1998, EPA announced that it had made a decision to 
not post off-site consequence analysis data on the Internet. The off-
site consequence analysis data includes chemical quantity released, 
distance to irreversible health effect endpoint, and residential 
populations potentially affected. However, the Agency still plans to 
post chemical quantities (inventories) as part of the registration data 
on the Internet.
Key Ongoing Issues
    Pursuant to the work of EPA and the Accident Prevention 
Subcommittee over the last several years, two key issues remain to be 
resolved prior to June 1999. They are 1) posting of sensitive 
information on the Internet and 2) means of communicating off-site 
consequence analysis data to the public.
    1. Posting of Sensitive Information on the Internet--There are 
three parameters within the Risk Management Plan data which quantify 
(either directly or indirectly) the potential consequences of an 
accidental or externally induced release. They are:

--chemical quantity or inventory
--distance to irreversible health effect endpoint (miles)
--residential populations potentially affected
    Security consultants believe that these three parameters should not 
be posted on the Internet. DuPont and other companies agree. The EPA, 
by electing to not post off-site consequence analysis data on the 
Internet, in essence has agreed to remove chemical quantity released, 
distance to irreversible health effect endpoint and residential 
populations potentially affected from Internet posting. We concur with 
this action. However, the Agency continues to plan to post chemical 
quantity (inventory) on the Internet as part of the RMP registration 
data. The registration chemical quantity is defined as the quantity of 
regulated substance in each covered process. The concern of security 
consultants, one which we share, is that the posting of chemical 
quantity in either place would provide critical targeting information 
to potential terrorists. Accordingly, we recommend that the Agency not 
post chemical quantities on the Internet, in either the registration or 
off-site consequence analysis sections. Recognizing that the community 
has a right to know this information, we recommend that it be 
communicated to the public in the same manner as the off-site 
consequence analysis data, described below.
    2. Means of communicating off-site consequence analysis data to the 
public--Since EPA decided to not post the off-site consequence analysis 
data (which includes chemical quantity released, distance to 
irreversible health effect endpoint and populations potentially 
affected) on the Internet, and the community has a right to know this 
information, an alternate approach of communicating this information to 
the public is being pursued. We offer the following principles to guide 
the development of such an alternate approach:

<bullet> Requests for local RMP information from the local community 
        should be processed through the LEPC or through the specific 
        facility in question.
<bullet> Procedures for processing requests for RMP information should 
        be developed by the EPA in close concert with Federal Security 
        Agencies with responsibilities for our safety and security, 
        LEPC representatives, and Local Emergency Responder 
        Organizations. The LEPC is a key entity in this process since 
        it is the organization which represents the local community 
        from an emergency planning perspective and it is the local 
        community which bears the ultimate risk and consequences of 
        terrorist activity. Such procedures should address community 
        right to know, and terrorist threat issues and also specific 
        requests from academic and other non-governmental organizations 
        which may want to review and study the national RMP database 
        for learnings.

    Mr. Upton. Thank you.
    Mr. Orum.

                     TESTIMONY OF PAUL ORUM

    Mr. Orum. Yes; my name is Paul Orum. I have served for 10 
years, as of February 20, as coordinator of the Working Group 
on Community Right-to-Know. And, I also serve on EPA's 
Electronic Submission Workgroup on this issue.
    I appreciate the opportunity to provide testimony on the 
importance of the public's right-to-know and freedom to 
communicate about chemical accident hazards under the Clean Air 
Act.
    In general, I am going to point to four things today. 
First, the importance of honoring the public's right-to-know; 
second, the need to acknowledge areas of agreement exist here; 
third, the need and opportunity to reduce real hazards----
    Mr. Upton. Mr. Orum, if you wouldn't mind just using----
    Mr. Orum. I am sorry.
    Mr. Upton. [continuing] that microphone a little better.
    Mr. Orum. [continuing] and, fourth, the need to adopt real 
hazard reduction programs.
    In overview, over a recent 10-year period, the Federal 
Government, as compiled by the Chemical Safety Board, recorded 
nearly a million chemical accidents from the everyday use of 
toxic chemicals. In contrast, there is very little record of 
terrorist threat to industrial facilities, and terrorist-caused 
accidents involving the Internet are virtually unknown.
    By some estimates, 40 million Americans live at risk from 
nearby chemical facilities. The Clean Air Act was intended to 
address these everyday hazards and not to address terrorism.
    Community right-to-know is a very important tool for hazard 
reduction. Consider the best known right-to-know law, the 
Toxics Release Inventory. A dozen years ago, many in Government 
and industry resisted the TRI, but, now, this simple program is 
credited with a 50 percent reduction in releases as waste to 
the environment. With full disclosure, I think we will see the 
same kind of dramatic reductions in chemical accidents.
    This hearing, though, only addresses half the hazard 
equation, a very speculative and incremental increase in 
terrorism. But anyone can get information, with or without the 
Internet. People can drive by chemical plants, go to trade 
shows, read trade journals and newspapers. They can look in the 
phone book. Further, people have discussed and published 
``worst case scenario'' vulnerability zones for years. In 
addition, the risk management plans don't include the tank 
locations; they don't include classified information. It is 
prohibited to include that information. They don't include 
technical data or plant security information.
    Restricting public access to this information doesn't 
change of this, but it will undermine the potentially dramatic 
risk reduction benefits of full disclosure.
    If chemical plants are targets for terrorists, then we need 
regulations to reduce these chemical hazards, not just half 
measures to impede the public's right-to-know. We need adequate 
regulations to assure site security and the control of these 
vast quantities of dangerous chemicals that are brought into 
our communities. The security agencies, EPA, industry, and 
Congress cannot point to the risk of terrorism and then simply 
walk away without addressing the need for strict regulations to 
control chemical hazards that pose targets for terrorists.
    I will point to some key points in my remaining testimony. 
Under honoring the public's right-to-know, clearly this is 
important information for the public.
    Citizen's need the information where they live, also, where 
relatives live elsewhere, where they might move to, where 
children might go to school if it is in a different 
jurisdiction, and so forth.
    National and local news media need information for 
comparative stories and for ``day-of'' stories when there are 
chemical accidents.
    Investors need information to know whether their 
investments are sound. You know the Securities and Exchange 
Commission directs companies to report ``worst case scenarios'' 
that can affect the company's bottom line, as part of the year 
2000 disclosure requirements. These are searchable; they are on 
the Internet, searchable by company and by key word.
    Local emergency planners need information on prevention 
successes elsewhere so they can benefit from those.
    I give other examples; let me skips ahead, though, to, you 
know, acknowledging areas of agreement. In order to make 
progress, we really need to do this.
    One, all parties seem to accept that people do have a right 
to know if they can be hurt in a chemical spill. Two, during 
EPA workgroup discussions, all the participants agreed that 
professional terrorists are savvy enough to access this type of 
data regardless of Internet access. Third, no one claims the 
Internet is necessary for criminal activity at a chemical 
plant, and, therefore, the Internet is not the issue. It is 
also important to remember that industry's legal duty to 
operate safely include site security.
    Environmental and labor organizations have sought for years 
policies that would cut the potential for chemical accidents. 
Consider these examples: as a result of New Jersey's Toxic 
Catastrophe Prevention Act, scores of water treatment plants 
have moved from chlorine to safer alternatives. I give other 
examples in my testimony. Magnified over many facilities, this 
is clearly of immense national benefit.
    I will just finish briefly with my last section; the need 
to adopt real solutions. As I said earlier, keeping information 
off the Internet is a half measure. EPA has clear authority, 
under section 112(r)(7)(a) to take real steps to reduce 
hazards.
    The FBI has an obligation to work with EPA on devising 
strict regulations to harden facilities against potential of 
terrorist attack. And the chemical industry should give us a 
quantifiable plan and timeline to reduce actual hazards in 
communities.
    Congress should also look close to home. The Blue Plains 
sewage treatment plant has a lot of chlorine onsite. A study in 
1992 recommended looking at switching to sodium hypochlorite, 
which is bleach. So, what is the best way to deal with this 
hazard that can affect us right here where we are sitting? Is 
it to stop talking about it, or to replace chlorine with safer 
alternatives?
    I did have an exhibit of an example from a newspaper that 
was done in 1993, well before any of this program came up, that 
might be typical of what you might see in newspapers when this 
information is disclosed to the public.
    [The prepared statement of Paul Orum follows:]
 Prepared Statement of Paul Orum, Working Group on Community Right-to-
                                  Know
    My name is Paul Orum. I have served for ten years as coordinator of 
the Working Group on Community Right-to-Know. I appreciate the 
opportunity to provide testimony on the importance of the public's 
right-to-know and freedom to communicate about chemical accident 
hazards under the Clean Air Act, section 112(r). The Working Group 
coordinates the right-to-know programs of some 1,500 public interest 
organizations around the country, and works with other constituencies, 
such as journalists, for timely access to government information. In 
addition, I served on EPA's Electronic Submission Workgroup on public 
access to Risk Management Plans.
    Additional information is at www.rtk.net/wcs.
    In general, I'm going to ask you to consider four things today: 
First, the importance of honoring the public's right-to-know; second, 
the need acknowledge areas of agreement; third the need and opportunity 
to reduce real hazards; and fourth, the need to adopt real hazard 
reduction programs.
Overview
    Over a recent ten-year period, the Federal government recorded 
nearly a million chemical accidents from the everyday use of toxic 
chemicals.\1\ In contrast, there is little record of terrorist threat 
to industrial facilities, and terrorist-caused accidents involving the 
Internet are virtually unknown.
    An estimated 40 million Americans live at risk from nearby chemical 
facilities.\2\ The Clean Air Act's Accident Prevention program was 
designed to address these everyday chemical hazards, not to address 
terrorism.
    Community right-to-know is an important tool for hazard reduction. 
Consider the nation's best known right-to-know law, the Toxics Release 
Inventory (TRI). A dozen years ago, some in government and industry 
resisted TRI. Now, this simple program of public reporting is credited 
with reducing reported toxic pollution released as waste to the 
environment by some 50 percent. With full public disclosure, the same 
thing will happen under the Clean Air Act, section 112(r)--we will see 
dramatic reductions in chemical accident hazards.
    This hearing, however, addresses only one part of the hazard 
equation, a speculative incremental increase in terrorism. But anyone 
can get information, with or without the Internet. People can drive by 
chemical plants, go to trade shows, read trade journals and newspapers, 
and look in the phone book. Further, people have discussed facility 
worst-case vulnerability zones for years, described them in reports, 
and published them in newspapers and on the Internet. In addition, Risk 
Management Plans don't include tank locations, plant security, 
classified information, or technical data about how to cause a worst-
case event. Restricting public access to portions of Risk Management 
Plans changes none of this--but it will undermine the potentially 
dramatic risk reduction benefits of full disclosure.
    If chemical plants are targets for terrorists, then we need 
regulations to reduce these chemical hazards, not just measures that 
impede the publics' right-to-know. Without the right-to-know component 
of the Clean Air Act, the alternative is command and control 
regulations. We need adequate regulations to assure site security and 
control the vast quantities of dangerous chemicals stored in our 
communities. The security agencies, EPA, industry, and Congress cannot 
point to the risk of terrorism and then simply walk away without 
addressing the need for strict regulations to control chemical hazards 
that pose targets for terrorists.
I. Honor the Public's Right-to-Know
    The freedom to communicate about chemical hazards is essential to 
reducing those hazards. The Clean Air Act, section 112(r) information 
serves the publics' right-to-know in ways that promote real hazard 
reduction.

1. Citizens need to know about potential chemical accidents in whatever 
        jurisdiction their families, friends, and relatives work, live, 
        go to school, or might move to. A citizen in Memphis has every 
        right to learn if a similar facility in Peoria uses a safer 
        process that has no potential off-site impact.
2. National and local news media need both timely information on the 
        day of a chemical accident for stories on deadline and 
        organized information across many jurisdictions for comparative 
        analyses of hazards and prevention efforts (e.g., all of the 
        RMP facilities along the Ohio River, other plants owned by the 
        same company, etc.).
3. Investors, insurers, and lenders need to know whether their 
        investments are sound. The Securities and Exchange Commission 
        directs companies to report worst-case scenarios that can 
        affect the company's bottom line as part of year-2000 
        disclosure requirements.\3\ Disclosing potential liabilities is 
        part of doing business.
4. The public, legislators, and others need national information to 
        hold EPA accountable for measuring results of the agency's 
        hazard prevention programs, as required by the Government 
        Performance and Results Act.
5. Local Emergency Planners need information on prevention successes at 
        similar facilities in other communities, and at facilities 
        operated elsewhere by particular companies.
6. Local communities need a low cost means of meeting Federal mandates.
7. Labor organizations need full chemical hazard information for safety 
        training.
8. Management needs to know too; on the day of the first release of TRI 
        data, Monsanto pledged to reduce TRI air emissions by 90 
        percent; clearly, public disclosure gets the attention of 
        corporate managers.
9. Researchers need complete national information to learn, for 
        example, whether certain hazardous industries are associated 
        with higher or lower unemployment, income levels, property 
        values, and minority populations, or to compare policies across 
        states and localities.
    These are but a few examples. The public's right-to-know is 
critical to hazard prevention. Congress must continue to honor the 
public's legitimate right-to-know and act to prevent hazards.
II. Acknowledge Areas of Agreement
     Please carefully consider the following facts.

1. All parties seem to accept that people have a right-to-know if they 
        can be hurt by a chemical spill.
2. During EPA workgroup discussions, all participants agreed that 
        ``professional terrorists are savvy enough to access this type 
        of data'' regardless of Internet access.\4\
3. No one claims that the Internet is necessary for criminal activity 
        at a chemical plant; therefore, the Internet is not the issue.
4. Risk Management Plans do not include tank locations, plant security 
        information, classified information, or technical data about 
        how to cause a worst-case event.
5. Facility worst-case vulnerability zones have been discussed for 
        years, described in reports, published in newspapers, and put 
        on the Internet (e.g., http://augustachronicle, ``Planning for 
        the Worst Maps,'' October 1997.)
6. Industry's legal duty to operate safely (CAA, 112(r)(1)) includes 
        site security; nothing in a Risk Management Plan increases this 
        duty.
7. People can get information from many sources, including the phone 
        book, direct observation, trade shows, industry publications, 
        newspapers, public relations events, the Census Bureau, and 
        common sense, all without using the Internet.
8. Nearly 1,000,000 chemical accidents were reported to the Federal 
        government over a recent ten-year period.1 By comparison, we 
        don't have much information on chemical accidents caused by 
        sabotage, let alone any examples involving the Internet.
9. Claims of sabotage have proven inadequate. At Bhopal, India, in 
        1984, the company claimed sabotage; yet investigation showed 
        that five major safety systems were either inadequately 
        designed or at least partially failed.\5\ In Nevada, in 1997, 
        an explosion at Sierra Chemical killed four workers. The 
        company claimed sabotage, yet investigators contradicted this 
        claim, and faulted instead numerous aspects of the plant's 
        operations.\6\
III. Reduce Real Hazards
    Environmental and labor organizations have long sought public 
policies to cut the potential for chemical accidents.\7\ Consider these 
examples of hazard reduction:

1. As a result of New Jersey's Toxic Catastrophe Prevention Act (TCPA), 
        scores of water treatment plants in the state have shifted from 
        chlorine to safer alternatives, such as sodium hypochlorite 
        (bleach).
2. Du Pont's Victoria, Texas, facility uses up methyl isocyanate--the 
        Bhopal chemical--as soon as it is produced, yielding low 
        potential for off-site impact. (Other chemicals at the plant 
        pose significant off-site hazards.)
3. The Local Emergency Planning Committee in Cuyahoga County, Ohio, 
        used vulnerability zone calculations and awards to encourage 
        safer technologies, such as award winner ALCOA, which ended on-
        site storage of hydrofluoric acid and nitric acid.
    Clearly, the potential benefits of a national program are immense. 
(See attached list of quotes from industry about the success of the 
Toxics Release Inventory.)
    While RMP information is not yet public, anecdotal evidence 
suggests that impending disclosure is already spurring interest in 
reducing worst-case zones. For example, in 1997, only a handful of 
companies signed up for an industry seminar on inherent safety in 
Cleveland, Ohio. However, by 1998, with RMP disclosure looming, over 
100 companies signed up for such a seminar in the same location.
IV. Adopt Real Solutions
    If there is a problem from potential terrorism, then there is still 
a problem if information is kept off the Internet. Keeping information 
off the Internet doesn't reduce actual hazards. The security agencies, 
EPA, industry, and Congress cannot identify a hazard and simply walk 
away without doing anything other than impeding public access to 
information. Secrecy does not address the problem. Secrecy invites 
complacency. We need real programs to reduce hazards, regardless of 
their proximate cause.

1. The U.S. EPA should use its clear authority under the Clean Air Act, 
        sections 112(r)(7)(a) and 112(r)(9) to establish an accident 
        prevention program that compels companies to reduce hazards as 
        part of the Risk Management Plan.\8\ Naturally, not all hazard 
        reduction activity originates at the Federal level, but we do 
        need Federal leadership.
2. The security agencies should work with EPA to devise strict 
        regulations that protect the most hazardous facilities against 
        terrorist attack.
3. The chemical industry should publicly commit to a quantifiable plan 
        and timeline to reduce hazards such that facilities no longer 
        threaten surrounding communities.
    Congress should look close to home. In 1982, a Radian Corp. study 
found that the Blue Plains sewage plant in Washington, DC, poses off-
site risks from chlorine many miles distant.\9\ This lead the 
Department of Defense (due to nearby Bolling Air Force Base) to 
complain in 1991 to the mayor of Washington, DC. The mayor commissioned 
a feasibility study in 1992. The study recommended that Blue Plains 
switch from chlorine to bleach. Yet we still have weekly shipments of 
chlorine tank cars into Blue Plains. So if this is a terrorist target 
in Washington, DC, then what is the best way to address it--by not 
talking about it or by replacing the chlorine with safer alternatives?

                                 Notes

    1. Press Release, Chemical Safety and Hazard Investigation Board, 
February 1, 1999.
    2. Too Close to Home, U.S. Public Interest Research Group, July 
1998.
    3. Statement of the Securities and Exchange Commission Regarding 
Disclosure of Year 2000 Issues and Consequences by Public Companies, 
Investment Advisers, Investment Companies, and Municipal Securities 
Issuers, August 4, 1998. A company must make this assessment as part of 
its Management Discussion and Analysis ``if its year-2000 issues would 
have a material effect on the company's business, results of 
operations, or financial conditions, without taking into account the 
company's efforts to avoid those consequences.'' Thus, disclosure is 
required for the vast majority of companies.
    4. Final Report of the Electronic Submission Workgroup to the 
Accident Prevention Subcommittee of the Clean Air Act Advisory 
Committee, U.S. Environmental Protection Agency, June 18, 1997. Section 
2.B. Location of RMP*Info (Internet Issues). (www.epa.gov/swercepp)
    5. The Encouragement of Technological Change for Preventing 
Chemical Accidents, Nicholas Ashford, et. al., Massachusetts Institute 
of Technology, 1993. At Bhopal, a refrigeration system was not 
operating; a temperature indicator was not functioning; a vent gas 
scrubber was inadequately designed and maintained; a flare tower was 
not functioning; and water curtains could not reach the leaking gas.
    6. Investigation Report, Sierra Chemical Company, U.S. Chemical 
Safety and Hazard Investigation Board, January 7, 1998 
(www.chemsafety.gov). The Board faulted the company's process hazards 
analysis, training program, operating procedure, building design, 
safety inspections, and employee participation, in addition to faulting 
regulatory agencies for inadequate oversight.
    7. For example, see public comments on 60 FR 13526 (EPA docket A-
91-73) and Too Close to Home, by the U.S. Public Interest Research 
Group, July 1998. Safer technologies use less hazardous chemicals, 
operate at ambient pressures or temperatures, reduce storage, require 
fewer shipments, etc. Other safety improvements include secondary 
containment, automatic shutoffs, alarms, fences, barriers, buffer 
zones, etc.
    8. The Clean Air Act, 112(r)(7)(a), authorizes the Administrator 
``. . . to promulgate release prevention, detection, and correction 
requirements which may include monitoring, record-keeping, reporting, 
training, vapor recovery, secondary containment, and other design, 
equipment, work practice, and operational requirements. Regulations 
promulgated under this paragraph may make distinctions between various 
types, classes, and kinds of facilities, devices and systems taking 
into consideration factors including, but not limited to the size, 
location, process, process controls, quantity of substances handled, 
potency of substances, and response capabilities present at any 
stationary source. Regulations promulgated pursuant to this 
subparagraph shall have an effective date, as determined by the 
Administrator, assuring compliance as expeditiously as practicable.''
    9. Air Dispersion Model Assessment of Impacts from a Chlorine Spill 
at the Blue Plains Wastewater Treatment Plant, Radian Corporation, 
1982.

    Mr. Upton. Thank you very much.
    Mr. Scannell.

                  TESTIMONY OF JERRY SCANNELL

    Mr. Scannell. Yes; good afternoon.
    My name is Jerry Scannell; I am president of the National 
Safety Council, located outside of Chicago. The National Safety 
Council is an 86-year-old organization. It is non-profit, non-
governmental, and a public service organization that has been 
chartered by Congress.
    Before becoming president of the National Safety Council, I 
served 15 years with Johnson & Johnson in New Brunswick, New 
Jersey; 10 years as corporate director of Health, Safety, and 
Environment, and the rest as a vice president of Safety and 
Health. Also, from 1989 to 1992, I served as the assistant 
secretary of labor for OSHA.
    You know, initially, I wanted to see offsite consequence 
analysis information duly posted on the World Wide Web with 
minor security protection. And we, at the committee, used to 
call that ``speed bumps'' or ``hurdles.''
    And this is a critical point; many observers continue to 
believe that the kind of sensitive information we are 
discussing here, in fact, will find its way to the public 
through the Web, through newspaper articles, SERC's, the 
LEPC's, and other emergency management infrastructure. If we 
accept this hypothesis, and it is a reasonable one, then the 
question, then, becomes whether the Government, itself, should 
knowingly make that information part of the Web, given the 
inevitable balance between competing needs; national security 
and community preparedness and safety.
    It was not until I listened to the testimony from 
representatives of the Federal Bureau of Investigation, that I 
concluded that the scales, at least for now, and in wake of the 
very real terrorism experiences this Nation has endured, and 
the very real continuing threat it faces, weigh in favor of the 
national security concerns.
    Particularly compelling was the inability to secure online 
sensitive data with current technology. The FBI's testimony 
reinforced the conclusions of the security study conducted by 
AEGIS Research Corporation for the EPA that a national online 
database could easily aid terrorists in identifying targets of 
opportunity.
    I now want to comment, in particular, on the issues of 
local access to RMP and, particularly, the offsite consequence 
analysis information of concern to your committees. I believe 
that the primary value of RMP data lies at the local level. We 
know that the number of HAZMAT releases remains too high. We 
also know that the right-to-know data has made a significant 
contribution to reducing chemical hazards over the past 10 
years. And, already, there is evidence to suggest that the RMP 
data is contributing to improved dialog between chemical 
facilities and their neighbors. However, in order for citizens 
to participate in this process to safeguard their communities, 
they need accurate and complete chemical hazard information.
    I believe that the EPA has the resources and technology to 
distribute LEPC-specific information to citizens at the local 
level, and the data should be easy and understandable for the 
citizens to use.
    You know, another audience needing the national RMP dataset 
will be the research community. The National Safety Council, 
among other organizations, are committed to improving safe 
handling of chemicals and to preventing incidents. To achieve 
these goals, our researchers need the national data to 
understand the complexity of these issues. And this information 
can be distributed in a variety of ways to minimize the risk, 
but the data must be made available.
    As with so many areas involving sometimes conflicting 
rights of citizens, right-to-know, and the reality of the 
potentially dangerous world we live in, this is an area that 
will demand close and ongoing scrutiny as it plays out and 
practiced over the initial implementation phase.
    Beyond all else, it is critical that your subcommittees, no 
less than the local emergency responder or community planner, 
recognize that the best interests of all will be served by 
providing timely, creditable, and accurate information to those 
most in need of it. That is the local citizens and their 
emergency response infrastructure. Irresponsible information, 
irresponsibly communicated, or irresponsibly over or under 
communicated or interpreted, in the end, will serve no one well 
in this effort.
    Thank you very much.
    [The prepared statement of Jerry Scannell follows:]
   Prepared Statement of Jerry Scannell, President, National Safety 
                                Council
    Good morning, Mr. Chairman and Members of the House Commerce 
Committee, Subcommittees on Health and Environment, and Subcommittee on 
Oversight and Investigations.
    My name is Jerry Scannell, and I am the President of the National 
Safety Council, headquartered outside of Chicago, Illinois. The 
National Safety Council is an 86-year-old nonprofit, nongovernmental 
public service organization and a federally chartered organization 
committed to working on behalf of public health and safety. Council 
membership exceeds 18,500, and our member organizations employ more 
than 30 million Americans.
    Before becoming President of the National Safety Council in 1995, I 
served for 15 years with Johnson & Johnson in New Brunswick--ten years 
as Corporate Director, Health, Safety, and Environment, and five as 
Vice President, Safety and Health. Also, from 1989 until 1992 I served 
as Assistant Secretary for the U.S. Department of Labor for 
Occupational Safety.
    It is with my combined perspective through my years in public 
service-- including my two years as a consultant on the House Committee 
on Education and Labor from 1977 to 1979--the corporate community, and 
now the nonprofit public service community that I welcomed the 
opportunity to serve as one of 11 members on the Accident Prevention 
Sub-Committee of the Clean Air Federal Advisory Committee.
    Mr. Chairman, that experience, in the context of the 
extraordinarily exciting ``information revolution'' we have seen 
manifested most directly by the Internet and the World Wide Web, raised 
some profound public information questions and riddles, that have come 
to characterize this revolutionary new technology. Like the questions 
this subcommittee must deal with each day, clear and unequivocal 
answers--``bright lines,'' as they say--are often elusive, and 
reasonable people in fact may disagree.
    In my own case, the experience with the subcommittee proved to be a 
highly valuable and very educational one. With most of the FACA 
subcommittee members, I initially wanted to see the offsite consequence 
analysis information duly posted on the World Wide Web with minor 
security protection--the subcommittee referred to this as a speed bump. 
I took that position in large part given my understanding--one that may 
hold today just as it did then, by the way--that there is inevitable 
momentum in this age of ``right to know'' and of citizen access to 
information behind the data's being posted on the Web in any event. 
Still, we must not understate the ever-present danger of hazardous 
substances. The memory of the 1984 Bhopal, India, catastrophe remains 
strong, and, according to the National Response Center, there were more 
than 29,000 significant spills and releases reported in 1998.
    This is a critical point. Many observers continue to believe that 
the kind of sensitive information we are discussing here in fact will 
find its way to the public through the Web, newspaper articles, SERCs, 
LEPCs, and other emergency management organizations. If we accept that 
hypothesis--and it is not an entirely unreasonable one--the question 
then becomes whether the government itself should knowingly make that 
information part of the Web given the inevitable balance between 
competing needs: national security and community preparedness and 
safety. It was not until I listened to the testimony from 
representatives from the Federal Bureau of Investigation that I 
concluded that the scales at least for now--and in the wake of the very 
real terrorism experiences this nation has endured and the very real 
continuing threat it faces--weigh in favor of the national security 
concerns. Particularly compelling was the inability to secure online 
sensitive data with current technology. The FBI's testimony reinforced 
the conclusions of the security study conducted by Aegis Research 
Corporation for the EPA that a national online database could easily 
aid terrorists in identifying targets of opportunity throughout the 
country. Although there is little data to determine the nature of the 
security risk, we should exercise caution. I would recommend that EPA 
periodically review this policy to assess whether the security risk 
indeed outweighs the dangers of hazardous substances within our 
communities.
    I want now to comment in particular on the issues of local access 
to the RMP and particularly, the offsite consequence analysis 
information of concern to this subcommittee.
    I believe that the primary value of the RMP data lies at the local 
level. We know that the number of HAZMAT releases remains too high. We 
also know that ``right to know'' data has made a signification 
contribution to reducing chemical hazards over the past ten years. And 
already, there is evidence to suggest that RMP data is contributing to 
improved dialogue between chemical facilities and their neighbors. 
However, in order for citizens to participate in this process--to 
safeguard their communities--they need accurate and complete chemical 
hazard information.
    Currently, EPA does not have an assured method for distributing RMP 
data to local citizens. Yes, EPA must work with state and local 
emergency management organizations to distribute RMP data and, I 
believe, that process is now underway. Nevertheless, the commitment and 
capabilities of these largely voluntary organizations vary widely, and 
Congress has provided very few, if any, resources to help with this 
added burden. The Chemical Manufacturers Association has admirably 
recommended to its membership that they voluntarily distribute RMP data 
to their communities. But CMA members represent less than 15% of the 
universe affected by the RMP. Citizens need ready access to the entire 
RMP data set in their community to understand their risk.
    I believe that the EPA has the resources and technology to 
distribute LEPC specific information to citizens at the local level. 
The data should be easy for citizens to obtain and use. What about the 
security risk? According to Aegis Research Corporation, local 
distribution of RMP data is far less a terrorist risk than a national 
online database. Again, we need to balance the risks posed by terrorism 
and those posed by hazardous chemicals.
    Another audience needing the national RMP data set will be the 
research community. The National Safety Council, among many other 
organizations, is committed to improving the safe handling of chemicals 
and to preventing incidents. To achieve these goals our researchers 
need national data to understand the complexity of these issues. This 
information can be distributed in a variety of ways to minimize risk, 
but the data must be made available.
    As with so many areas involving the sometimes conflicting rights of 
citizens' ``right to know'' and the reality of the potentially 
dangerous world in which we live, this is an area that will demand 
close and ongoing scrutiny as it plays out in practice over its initial 
implementation phase. Beyond all else, it is critical that the 
subcommittee, no less than the local emergency responder or community 
planner, recognize that the best interests of all will be served by 
providing timely, credible, and accurate information to those most in 
need of it: local citizens and their emergency response infrastructure.
    Irresponsible information, irresponsibly communicated, or 
irresponsibly over- or under-interpreted, in the end will serve no one 
well in this effort.

    Mr. Upton. Thank you.
    Ms. Littles.

                 TESTIMONY OF PAULA R. LITTLES

    Ms. Littles. Thank you, Mr. Chairman.
    Mr. Chairman, members of the committee, my name is Paula R. 
Littles. I am the citizenship-legislative director of the 
Paper, Allied-Industrial, Chemical, and Energy Workers 
International Union, formerly the Oil, Chemical, and Atomic 
Workers and the United Papers Workers; we merged recently. 
Also, I have worked at a petrochemical facility for the last 18 
years, prior to assuming my present job.
    We very much appreciate the opportunity to appear before 
you today, because the question of full disclosure of RMP's is 
a vital importance to our organization, our members, and the 
communities in which they live.
    The Clean Air Act requires EPA to implement a program to 
assist in the prevention of chemical accidents. EPA developed a 
Risk Management Program rule. This rule requires some 66,000 
facilities that manage sufficient amounts of hazardous 
materials to develop a RMP and file it with EPA. These 
facilities include chemical manufacturers, refineries, water 
treatment facilities, ammonia refrigeration, propane storage, 
and semi-conductor fabrications. A project 85 million people 
live and work within a 5-mile radius of an RMP facility.
    The Clean Air Act also requires that EPA make this 
information available to the public. Our organization became 
very concerned in November when we discovered that EPA had made 
a decision on November 6, 1998, to not allow full access to RMP 
information.
    Our main area of concern surrounding full disclosures are 
members, their families, and the communities in which they 
live. Our members are the first respondents to the site of a 
manufacturing accident at their workplace. They also may work 
at a site near an incident, next door, across the street, or 5 
miles away, but near enough to be affected. Currently, not 
enough effort has been placed on hazard reduction for our 
organization to readily accept limited disclosure on hazardous 
materials that our members work or live near.
    There is also the issue of manufacturing security. It is to 
our advantage as an organization that represents workers in 
this arena that we can say to workers, their families, and the 
community, that these facilities have nothing to hide. It would 
also be to our advantage if we are able to tell workers that 
these facilities are working toward reducing hazards and that 
their RMP's are available in any form they need, electronic or 
other, to provide the information needed to show that they are 
really working toward hazard reduction. We believe that it is 
not the knowledge that is harmful, but the lack of knowledge 
that at times create mass hysteria and rushes to judgment.
    We feel that if we are ever to have an effective, ongoing 
hazard reduction, these plans must be fully disclosed to 
encourage safer technologies, honor the public's right-to-know, 
and overcome the institutional complacency that has overcome 
the chemical industry, thereby, allowing them to produce no 
serious quantifiable plan and timeline to reduce hazards.
    Although numbers vary, depending on the source of 
statistics and the period of time examined, there is no doubt 
about the effects of chemical accidents on human lives. Year 
after year, large numbers of people are killed or injured. In 
addition, the numbers of those suffering from long-term 
consequences of exposure must also be counted.
    The Chemical Safety Board currently is reviewing 27 
accidents in 20 States, as of February 3, 1998. And, also, in 
the last 3 months of 1998, they began four incident 
investigations. One investigation, 5 people were injured that 
required medical treatment and the local residents were advised 
to shelter in their homes; the other 3 investigations, 20 
people were killed. Those were just the investigations that the 
Chemical Safety Board began. That is a total of 20 workers that 
were killed on the job in the last 3 months of 1998 that are 
being investigated by the board.
    These numbers are clear, and the message they send should 
be equally clear; we need to work harder at reducing hazards, 
and it is our belief that full disclosure is the beginning 
step.
    We believe that there are many valid and information uses 
for RMP information by people who live, work, and conduct 
business well beyond the immediate community where a facility 
is located. RMP information can be useful in a number of ways.
    Some ways we think that we could utilize it to assist our 
members, the communities, and also people that aren't our 
members that work in those areas, would be to help develop 
studies on chemical hazards; effective accident prevention 
programs; link other worker, safety, and public health 
databases.
    Just as we believe strongly that our members, their 
families, and the communities they reside in would be made 
safer by full disclosure, we do not believe that they are being 
placed in any greater danger of sabotage and terrorism.
    Risk management plans do not include any information about 
how to sabotage an industrial facility, nor technical data 
about how to create a ``worst case'' event, no tank locations, 
no plant security information, and no classified information.
    Chemical accidents respect no geographic boundaries, and we 
must have the freedom to communicate concerning chemical 
hazards.
    Thank you for allowing me the opportunity to speak on 
behalf of PACE to you this afternoon.
    [The prepared statement of Paula R. Littles follows:]
Prepared Statement of Paula R. Littles, on Behalf of the Paper, Allied-
   Industrial, Chemical and Energy Workers International Union (PACE)
    Mr. Chairman, Members of the Committee, my name is Paula R. 
Littles. I am the Citizenship-Legislative Director for the Paper, 
Allied-Industrial, Chemical and Energy Workers International Union, 
AFL-CIO (PACE). Our union represents 320,000 workers employed 
nationwide in the paper, allied-industrial, chemical, oil refining, and 
nuclear industries.
    Our organization is deeply concerned over discussions surrounding 
the issue of the Environmental Protection Agency (EPA) not providing 
full disclosures of Risk Management Plans (RMPs). We very much 
appreciate the opportunity to appear before you today. The question of 
full disclosure of RMPs is of vital importance to our organization, our 
members, and the communities in which they live. We feel that if we are 
ever to have effective, ongoing hazard reduction. These plans must be 
fully disclosed to encourage safer technologies, honor the public's 
right to know, and to overcome the complacency of the chemical industry 
that has allowed it to produce no serious plan and timetable to reduce 
hazards.
    The Clean Air Act requires the EPA to implement a program to assist 
in the prevention of chemical accidents. EPA developed the Risk 
Management Program Rule. This Rule requires some 66,000 facilities that 
manage sufficient amounts of hazardous materials to develop a RMP and 
file it with EPA. These facilities include chemical manufacturers, 
refineries, water treatment facilities, ammonia refrigeration, propane 
storage, and semi-conductor fabrication. A projected 85 million people 
live within a five-mile radius of a RMP facility.
    The Clean Air Act also requires that EPA make this information 
available to the public. Our organization became very concerned in 
November when we discovered that EPA had made the decision on November 
6, 1998 to not allow full access to RMP information. In joint 
correspondence with other groups, we have expressed our concern to EPA 
Administrator Carol Browner about EPA's ability to effectively deliver 
full access to Risk Management Plans.
    Our main area of concern surrounding full discourse is our members, 
their families and the communities in which they live. Our members are 
the first respondents to the site of a manufacturing accident at their 
workplace. They also may work at a site near an incident, next door, 
across the street, or five miles away, but near enough to be affected. 
Currently, not enough effort has been placed on hazard reduction, for 
our organization to readily accept limited discourse on hazardous 
materials that our members work, or live near.
    There is also the issue of manufacturing security. It is to our 
advantage as an organization that represents workers in this arena that 
we can say to workers, their families, and the community, that these 
facilities have nothing to hide. It would also be to our advantage if 
we are able to tell workers that these facilities are working towards 
reducing hazards, and that their RMPs are available in any form they 
need--electronic or other--to provide the information needed to show 
that they are really working towards hazard reduction. We believe that 
it is not the knowledge that is harmful, but the lack of knowledge that 
has at times created mass hysteria and rushes to judgement.
    We feel that if we are to ever have effective, ongoing hazard 
reduction, these plans must be fully disclosed to encourage safer 
technologies, honor the public's right to know, and to overcome the 
institutional complacency that has infested the chemical industry, 
thereby allowing them to produce no serious quantifiable plan and 
timeline to reduce hazards.
    Although numbers vary, depending on the source of statistics and 
period of time examined, there is no doubt about the effects of 
chemical accidents on human lives. Year after year, large numbers of 
people are killed or injured. In addition, the numbers for those 
suffering the long-term consequences of exposure must also be counted.
    The Chemical Safety Board is currently reviewing or investigating 
accidents in Arizona, Arkansas, California, Florida, Georgia, Idaho, 
Iowa, Louisiana (3), Maryland, Michigan (2), Missouri, New Jersey (2), 
New York, Ohio (2), Oklahoma, Oregon, Pennsylvania (2), South Dakota, 
Texas, and Washington State (2), as of February 3, 1999. In the last 
three months of 1998, the Chemical Safety Board began four incident 
investigations. Of those four:

<bullet> 10-13-98: Five employees injured, local residents advised to 
        shelter in their homes;
<bullet> 10-24-98: Seven workers were killed;
<bullet> 11-25-98: Six workers were killed; and
<bullet> 12-11-98: Seven workers were killed.
    That is a total of 20 workers who were killed on the job in the 
last three months of 1998. These numbers are clear and the message they 
send should be equally clear--we need to work harder at reducing 
hazards and it is our belief that full disclosure is the beginning 
step.
    We believe that there are many valid and important uses for RMP 
information by people who live, work and conduct business well beyond 
the immediate community where a facility is located. RMP information 
can be useful in the following ways:

<bullet> To learn about vulnerability zones and prevention practices in 
        similar facilities in different states;
<bullet> To verify reported information by comparing data submitted 
        elsewhere;
<bullet> To hold government accountable for reducing hazards 
        nationwide;
<bullet> To develop studies on chemical hazards;
<bullet> To develop effective accident prevention programs;
<bullet> To develop and conduct effective education and training 
        programs;
<bullet> To link other worker safety and public health database; and
<bullet> To determine which facilities might pose ``Year 2000'' risks.
    Just as we believe strongly that our members, their families, and 
the communities they reside in will be made safer by these full 
disclosures, we do not believe that they are being placed in danger of 
sabotage or terrorism.
    In earlier discussions with EPA, the industry and everyone else 
agreed that a ``professional terrorist'' would not be deterred by 
keeping this information off the Internet. (For earlier discussion, see 
www.epagov/swcrccpp/pubs/rmp-rpt.html--look under Section 2.B. 
``Location of RMP* Info [Internet Issues]).
    Risk Management Plans do not include any information about how to 
sabotage an industrial facility, no technical data about how to cause a 
``worst-case'' event, no tank locations, no plant security information, 
and no classified information. Anyone can get readily available 
information regarding the largest and most dangerous facilities that 
store chemicals, without using the Internet. Also, keeping worst-case 
scenarios off the Internet offers no real protection to communities. 
Communities can only be protected when companies use safer chemicals, 
reduce dangerous storage, widen buffer zones and provide full 
information.
    Chemical accidents have no respect for geographic boundaries. We 
must have the freedom to communicate concerning chemical hazards, if we 
are to have real hazard reduction. Only with full information, 
disclosure, and opportunities to act can facilities, employees, and 
communities reduce chemical hazards.
    In conclusion, I would like to reiterate the following points:

<bullet> The chemical industry should and must produce a serious 
        quantifiable plan and timeline to reduce hazards; and
<bullet> Full disclosure of RMPs is the key tool needed to access the 
        impact of hazard reduction programs and activities.
    Thank you for allowing me the opportunity to speak on behalf of 
PACE today to explain our position on this important issue.

    Mr. Upton. Thank you for coming, and we gave you a little 
extra time because we spelled your name wrong. And so we are 
fixing it.
    Ms. Littles. Just an ``s.''
    Mr. Upton. So, it is there.
    Ms. Littles. That is okay.
    Mr. Upton. I apologize for that.
    Ms. Littles. That is okay; it happens all the time.
    Mr. Upton. Mr. Burk, some groups claim that terrorist risks 
associated with making the ``worst case scenario'' data 
available via the Internet is, in fact, a red herring. In 
giving your involvement with the Accident Prevention 
Subcommittee since its inception, could you, please, recall for 
this subcommittee how the issue of terrorism developed and how 
the Accident Prevention Subcommittee addressed the issue?
    Mr. Burk. Well, the issue of terrorism was raised at the 
very first meeting of the Accident Prevention Subcommittee, and 
that occurred in September 1996. There are 13 members on this 
Accident Prevention Subcommittee representing a broad cross-
section of stakeholders. It was agreed that that issue would be 
discussed at future subcommittee meetings, and I can say that 
that issue was debated and discussed at each and every 
subsequent meeting of that group and conference called of that 
particular group.
    With regard to your question of terrorist--could you just 
repeat the first part of your question?
    Mr. Upton. Terrorist risk associated with making the 
``worst case scenario'' available on the Internet----
    Mr. Burk. Right.
    Mr. Upton. [continuing] being a ``red herring.''
    Mr. Burk. Well, in the discussions, it became apparent 
pretty quickly that Federal security agencies were against 
posting sensitive information on the Internet such as distance-
to-endpoint, populations potentially affected, and chemical 
quantity. And one of the reasons cited is that it facilitates 
the targeting of--provides targeting information which would 
help terrorists select targets.
    Another example that was given by the Federal Bureau of 
Investigation was that, in their experience, once the 
information was posted on the Internet on how to produce bombs, 
there was an increase in bombings and bomb threats. I will 
acknowledge that there has been no evidence that posting 
``worst case scenario'' on the Internet has caused any 
terrorist threats, but we haven't yet done that either.
    Mr. Upton. Mr. Scannell, I noted in your testimony, and you 
write, ``The AEGIS Research Corporation for the EPA, that a 
national online database could easily aide terrorists in 
identifying targets of opportunity throughout the country.'' 
And you further add, ``According to AEGIS Research Corporation, 
local distribution of RMP data is far less a terrorist risk 
than a national online database.''
    My sense, after listening to some of the testimony earlier 
today, and reading yours last night, is that pretty much, we 
are all in agreement that the local folks, fire folks that were 
here today and other local leaders trained in that type of 
response, do have the need and should have that information on 
a local basis. But, putting it on online, for anyone, anywhere, 
is the real problem. Is that your firm belief?
    Mr. Scannell. Yes; that is the real problem. Where is the 
action going to be taken? Where are we going to accomplish the 
most? It is at the local level, and so the local community--
everyone in the local community there, whether it be the 
schools, the fire department, and all--they need that data. And 
that is where the dialog will take place, between the 
community, the emergency responders, and the industry. And that 
is where the progress will be made in reducing the risk to the 
community.
    You know, as I said, I was in favor of it originally, and I 
became very concerned when I heard the FBI and other 
organizations--although they weren't at the subcommittee 
meeting, but they were involved--the CIA and others.
    So, what don't just take it a little easy on this? Why 
don't we move ahead slowly? Let us see how this works; let us 
not do something that we would all look at and say, ``We should 
never have done that. We should have been a little more 
reasonable in approaching this issue.''
    Mr. Upton. Mr. Orum, given that your organization has 
already demonstrated the initiative to place information on the 
Internet before any risk management plan has been made 
available, and that is why you are sitting next to DuPont to 
your right.
    It is appropriate, as I understand it, about 10 DuPont 
facilities have been placed. It is appropriate, I think, to 
inquire about the intentions, what your intentions may be, with 
regard to placing the ``worst case scenario'' data on the 
Internet. And, if your organization was to receive the ``worst 
case scenario'' data for all the reporting facilities in the 
Nation and that that data was provided in the form requiring 
minimal effort to post it, is your sense that your organization 
would, in fact, do so?
    Mr. Orum. I trust this light doesn't mean I am out of time 
already?
    Mr. Upton. No; as we started--as long as the question 
starts, it gets to finish on the sought.
    Mr. Orum. There are four things that we would want you to 
understand.
    First, newspapers who write about this, and their stories 
will go on the Internet. LEPC's may make the decision to put 
this on the Internet because it is the only cheap way to do it; 
they don't have the funding. Industry, for community 
responsiveness, may put their own ``worst case scenarios'' on 
the Internet. I think that people will communicate this 
information in a lot of different ways.
    Second, the only party that, for sure, can keep their 
information off the Internet is the decisionmakers who brought 
these chemicals into the community in the first place. And this 
is true, third, because, you know, regardless of whether you 
have a Clean Air Act or not, people can post ``worst case 
scenarios.'' They can find this information out. Much better 
though, we think that the company do it themselves, in the 
context of a hazard reduction program, because that is much 
more likely to be successful.
    And then, fourth, you know, for us, the Internet actually 
is really not the issue. We need national data of the right-to-
know and hazard reduction, and a lot of other people do in the 
same way. Whether it is on the Internet is less important than 
meeting that need.
    Mr. Upton. Thank you. I have a followup, but I will wait 
until my turn.
    Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman.
    Ms. Littles, you made a very compelling case, I thought, 
for--I am sorry. You made a very compelling case for full 
disclosure so that your members that work in chemical plants 
really can know what they are working around.
    Do you typically--do your members and local union officials 
fairly often meet with management to talk about potential--
about chemical management practices and all that? Is that a 
pretty frequent occurrence?
    Ms. Littles. With some companies where you have fairly good 
union management relationships; with other companies where we 
don't have those relationships, then, it doesn't happen. I can 
speak very well for the area that I came from. I was an officer 
of a local union there, and we had eight--there were eight 
companies in our union, eight different companies. There were 
two companies that we had very good relationships with; we met 
with them continuously. We were actually able to have 
discussions with them to change some chemicals that they were 
using to less hazardous chemicals, based on discussions we had 
with people in other parts of the country, actually. We had 
some smaller companies that we didn't have that type of 
relationship with; they really were not interested in 
discussing their managerial practices with us, and so we were 
never able to work with them on any training or any other----
    Mr. Brown. Would the ``worst case scenario'' information 
have been useful to you in those discussions?
    Ms. Littles. Yes, it would have; it really would have, 
especially for some of our smaller plants.
    Mr. Brown. Okay.
    Mr. Orum, your testimony recalls some of the EPA workgroup 
discussions, of which, I believe, the Chemical Manufacturers of 
America and you both participated?
    Mr. Orum. You are correct.
    Mr. Brown. You mentioned that all participants agreed that 
professional terrorists are savvy enough to access this type of 
data, regardless of Internet access, and that no one claims the 
Internet is necessary for criminal activity at a chemical 
plant, therefore, the Internet is not the issue. So what is the 
motivation? Why are we doing this today? I mean, if they all 
kind of agreed that the Internet is not issue, what is this all 
about?
    Mr. Orum. Well, people clearly need access to national 
information and for a variety of means. And I have been very 
concerned all along that, in fact, the goal here of some 
parties was, not so much to keep information off the Internet, 
but to make sure that groups like ours couldn't get national 
information, to put it that directly.
    I mean, you need that information to hold Government 
accountable, in the Government Performance and Results Act, for 
example, which directs agencies to be able to set goals and 
measure results. You need that national information to 
prioritize correction of year 2000 computer safety problems, to 
do social research, and many other needs.
    That has been our primary interest here.
    Mr. Brown. Thank you. One moment.
    Okay; thank you.
    Mr. Upton. Thank you.
    The gentleman from Florida, the chairman of the Health and 
Environment Subcommittee, Mr. Bilirakis.
    Mr. Bilirakis. I would, first, like to place on record, 
because it is unique and I think very much appreciated that Mr. 
Gablehouse is still in the room. And I don't know that he has 
learned anything that he didn't know before but it is always 
appreciated when people want to pay attention to the entire 
hearing.
    And I also--we want to express our gratitude to the panel. 
You have been very patient. The last panel is always the one 
that has to be more patient than any others, and ordinarily you 
don't have near the number of members here that you would have 
during the earlier panels. So, it is always at a disadvantage, 
to be on one of the later panels.
    Mr. Scannell. You kept the best for the last.
    Mr. Bilirakis. The best--that is very well put.
    Well, Mr. Orum--Mr. Brown, with all due respect. Because I 
tell you, I really value his friendship and his knowledge and 
wisdom. But he said, ``The Internet is not an issue.'' Or, 
everybody seems to say--I am not sure he meant it the way it 
came out or it came into my ears.
    Certainly, the Internet is the issue here, the way the 
information is disseminated.
    Anyhow, this hearing has been called and concern has been 
expressed by the majority. It is not because we don't want 
community right-to-know to work. We don't want people to know 
what it is they should know about hazards in their community? 
Why is it that we are concerned here? Why is it that we are 
doing this? I mean, is it because we don't care about the 
safety of Ms. Littles' workers--and by the way, you made a 
compelling and a very interesting case.
    But, why are we doing this, Mr. Orum? Why are we even 
talking about maybe doing something? We haven't decided yet, 
contrary to what, maybe was said earlier in some of the opening 
statements.
    Mr. Orum. By doing this, you mean making available----
    Mr. Bilirakis. Why are we expressing concern here? Why are 
we concerned about the way the information is disseminated? The 
things that Mr. Scannell and Mr. Burk and the FBI and, 
particularly, the law enforcement agencies and the fire people, 
and what not, have expressed concern? Well, why are we doing 
this?
    Mr. Orum. As I understand it, you are expressing a concern 
over the potential, incremental increase in terrorism that you 
could see. What puzzles me, is the absence of the other half of 
the equation. You are talking about things that would make it 
harder for people to get this information.
    Mr. Bilirakis. That very well----
    Mr. Orum. But what about the other half of the question? 
What are you going to do to make it harder to actually carry 
out such an act? You know, what is being done to reduce these 
chemical hazards in hardened facilities where----
    Mr. Bilirakis. Well, but----
    Mr. Orum. [continuing] you don't have that in the first 
place?
    Mr. Bilirakis. Yes, but the Clean Air Act is within our 
jurisdiction, and this is, of course, why, you know, this comes 
up. I mean there is an awful lot of ways to go about this.
    Mr. Orum. There is----
    Mr. Bilirakis. There is so much that can be discussed, in 
terms of terrorism and in safety on the job and things of that 
nature. You are right. But, the subject is what it is; why? 
Because trade organizations have indicated that the FBI has 
been working with the EPA and other people have expressed 
concerns about third-party users and maybe the indiscriminate 
use of this information being available.
    Nobody up here is trying to keep community right-to-know 
from working. You know, I think it would be so much more 
responsible if we sat down and said, ``Hey, let us meet the 
community right-to-know standard that was intended.'' Before 
the days that Internet really took off, this committee played a 
large part in writing the Clean Air Act. We are very much 
concerned and supportive of community right-to-know. But 
Internet was not in the picture at that time and a lot of 
things were not contemplated.
    Well, Mr. Scannell, can you explain to this committee, 
whether you believe the right-to-know needs, as expressed in 
the act, of chemical facilities workers, as expressed of Ms. 
Littles, and the surrounding community will be met by local 
distribution of risk management plan data?
    Mr. Scannell. Yes; I mean it has to be well done and made 
available to the workers. You are absolutely right; the workers 
are the first ones that are affected by an incident.
    Mr. Bilirakis. And can you envision this being done in such 
a way that it will be very readily available to the workers?
    Mr. Scannell. Well, EPA has a chore to determine how that 
is to be done, but I think they are working on it, and I think 
they will find a way, and the answer is, yes.
    Mr. Bilirakis. All right. Thanks, Mr. Chairman.
    Mr. Upton. At this point, we will hear from a new member of 
the subcommittee, Mr. Pickering; welcome.
    Mr. Pickering. Thank you, Mr. Chairman.
    Mr. Orum, I guess all of our objectives here are how to 
maximize public safety. It is the common objective that I 
think, whether it is the communities right-to-know--can that 
type of information decrease the risk of ``worst case 
scenarios'' and the public health associated with those 
scenarios? And, at the same time, the concern expressed; would 
it make it easier possibly for terrorism?
    As you know, the President's budget has increased, he has 
made a priority of counterterrorism initiatives. We are now 
seeing increasing threats around the world related to terrorist 
activities. And, so, it seems to me that part of our national 
policy should be, or we should have a consistent policy across 
the board. If we are going to have a counterterrorist 
initiative that would try to reduce threats across the board 
for public safety, it should be consistent.
    But in that context, you raised the issue that we don't 
know whether restricting that type of information in any way 
will reduce a terrorist threat. A guess the counter, or the 
other side of the coin, and question would be; can you cite any 
specific evidence or example that, if this type of information 
were made available in the past, it would have averted any type 
of ``worst case scenario'' or would have provided any public 
health benefit? Can you give us a specific example or benefit?
    Mr. Orum. Yes; by comparison to our current best-known 
national program, the Toxics Release Inventory, which is 
created with having led to a 50 percent reduction in routine 
releases as waste to the environment of toxic emissions that 
are reported under that law. It was initially resisted quite a 
bit, I think, by many in Government and industry, but has since 
grown in popularity. I did include in my attachments, in the 
very back page, a list of quotes from many industry people, in 
particular, that were taken from newspapers indicating--that 
characterize, that give a flavor of the impact of that law on 
facilities, and what happens when, in fact, you do get the 
corporate managers' attention through public disclosure.
    Mr. Pickering. Would that benefit--and by your testimony, I 
assume that that potential benefit of reduced risk outweighs 
the cost of possible increase risks, as testified by the FBI 
for terrorism.
    Mr. Scannell seems to come with a reasonable approach to 
say, ``Maybe we need to step back.'' These are legitimate 
issues and concerns and see if we can work out a way where we 
can meet both the appropriate right-to-know responsibilities 
and disclosure, while at the same time building in safeguards 
that would not put information out there that could help a 
terrorist if he wanted to attack any type of facility in the 
country.
    Is there a process or a way that we can reach that common 
ground or a balanced reasonable way to go here?
    Mr. Orum. I suggested a number of areas in my testimony, 
areas of agreement, that I though would help in that sort of 
process. Yes, I think the potential benefits are dramatic. The 
potential downside is quite incremental, and, at this point, 
quite speculative. But, again, I think there is a third part of 
the equation that is missing. EPA has clear authority under 
112(r)(7)(a) to set regulations, to do real things to reduce 
hazards in real places. That could include a two-part annex 
attached to the Risk Management Program; first, a technology 
options analysis, especially when you have big changes going on 
in the plants of what are the safer alternatives and, then, 
second, for those processes that don't have safer alternatives, 
actual regulations, in terms of what needs to be done to make 
those sites as safe as possible from a terrorist attack.
    Mr. Pickering. Mr. Scannell, what process would you 
recommend to try to come up with legitimate safeguards to 
address both objectives and concerns raised by the FBI?
    Mr. Scannell. Well, when the community gets all the 
information that they should get and engages the industry, 
meets with them--I mean it is a partnership. You are living in 
the community; you have the right to ask questions. It was done 
in companies that I had worked for in the past. And, those 
questions need to be tough, and you are going to find that 
industry is going to be responsive of it--not every company, 
but virtually--I don't know of any CEO in this country that 
wants to see his or her name in the paper that they have not 
been responsive to the local community when they have an issue 
of, you know, large quantities of chemicals being used or 
storage is a question.
    It is going to be solved at the local level; it is not 
going to be solved at the national level. I mean, Paul can do 
certain things with the data, but he is not going to get the 
action that takes place at the local level as fast as the local 
community can get it done.
    Mr. Pickering. Could premature release of that type of 
sensitive and, at times, fear-producing information, could it 
actually work against those local partnerships if there is 
premature release, if it not done in the proper context and the 
proper partnership? For example, if you just had a ``worst case 
scenario'' released to a community, without any dialog 
established, could you create such fear that, then, you are not 
able work together constructively in a partnership way?
    Mr. Scannell. Me?
    Mr. Pickering. I was addressing that to you.
    Mr. Stupak. Okay; yes.
    There are processes now in place, and there are regulations 
in place. OSHA has the Process of Safety Management for Highly 
Hazardous Chemicals. It is a blueprint for knowing how to 
reduce hazards in the plant, for involving employees, change 
management. The processes are there. Again, you know, we are 
always facing large corporations versus small. Then, we discuss 
this at the subcommittee meetings. How do we get to the small 
community? There are processes to get to the small community 
through organizations such as the Chamber of Commerce and 
others who we have initiated discussions with and are willing 
to develop the process to help the small chemical manufacturer. 
And, so, yes; the processes are there, sir.
    Mr. Pickering. My question is; would premature public 
release of some of that type of sensitive information work 
against such procedures and partnerships?
    Mr. Scannell. Resentment and all, it could be, But I still 
stand on getting the information to the local levels so they 
can negotiate with the industry. If information is give 
premature or if, you know, companies are blind-sided, they are 
still going to react. CEO's are going to react, but, you know, 
the best way to do it is through some collaborative effort with 
the local community.
    Mr. Pickering. Thank you, Mr. Chairman.
    Mr. Upton. You are welcome.
    The gentleman from Texas, Mr. Green.
    Mr. Green. Thank you, Mr. Chairman. I apologize for running 
in and out, but we all know the schedules up here.
    My district is in Houston and east Harris county, and I 
know Ms. Littles knows it because she has recently moved from 
Texas to Washington. Our loss is Washington's gain, Paula.
    My district is the picture of a chemical area. I have 
worked with my industries on the ``worst case scenario'' that 
we are going through right now, the planning for it.
    After looking at the testimony and the concern today--
because I also support the public's right-to-know, whether you 
are at the plant and a worker, or whether you are on the fence 
line like most of my district. I guess my concern is that I did 
not realize until today that most communities, or a lot of 
communities, didn't have a LEPC, a local emergency planning 
committee, because, again, in an urban area, I think I have 
four of them for different parts of my community, whether it is 
on one side of the Houston ship channel or the other. And I 
agree that local agencies could get involved--our EMS, our fire 
departments, and everyone else.
    But the public's right-to-know was a law passed long before 
I got here--but I would have voted for it if I had been here. 
And that is so important that I don't think any of us want to 
give potential terrorists any information, but we also don't 
want that to limit the people I represent from being able to 
know what is across that fence or what they are handling if 
they are working there.
    Let me ask a question of Ms. Littles. As the representative 
of the organization, in a new organization called PACE--and I 
have to get used to PACE instead of OCAW--although I have paper 
mills, too, in my area, who work at the facilities that handle 
these substances and live in the community around it. It seems 
to me that you would be most concerned about the risk 
associated with that facility. Not only do they work there, but 
they live close to it. And if a person who is speculating here 
in Washington about somebody doing some terrible thing--and, 
again, I want to react to that terrorism but I also don't want 
to limit either your members or the constituents I represent 
from getting that information--do you have some suggestions on 
how we can deal with it?
    Ms. Littles. Well, actually, what I was hoping was that----
    Mr. Upton. If you could just move that microphone----
    Ms. Littles. Sorry.
    Mr. Upton. [continuing] a little closer.
    Ms. Littles. It is a problem, and I recognize that. I have 
listened to what everyone that spoke prior to me stated, and I 
have listened to their concerns. I have listened to our 
members, and I have listened to their concerns. I know what my 
concerns were when I was working in a plant, and I know what 
the communities' concerns are. And I also understand how our 
membership around the country is interested in knowing what 
other people are doing to make their work environment safer, so 
that they can maybe benefit from that and have a safer work 
environment by just trying to work with companies and changing 
processes and in changing the chemicals that they use.
    And, I honestly don't know what the answer is. In the past, 
our discussions were always--our thought process was always 
this was going to be on the Internet, the whole RMP's. We 
would, then, be able to look at ``worst case scenarios,'' but 
also would be able to look at what other companies were using. 
We would be able to effectively go into facilities around the 
country and sit down and try to have dialog with the company's 
safety departments--their, our people or whatever--to try to 
get them to maybe make the changes necessary for a safer work 
environment for our members, which, in our opinion, would 
actually spill over into the community because if we can get 
one company to stop using chlorine and to change to something 
that is safer, that is one RMP that won't have to be written.
    Mr. Green. Yes.
    Ms. Littles. And those were--that was just our thought 
process. Then when it changed--we are here today really giving 
our opinion and hoping that we can work with you all to come up 
with the best workable solution so that we would have full 
access and address the concerns that some others have.
    Mr. Green. There is more of a likelihood of an accident--I 
mean, I don't know, exponentially probably than a terrorist 
attack.
    Ms. Littles. That's true.
    Mr. Green. And my limiting your ability to network and 
plan, you know, that would cause even a bigger problem?
    Ms. Littles. That is true.
    Mr. Green. Mr. Chairman, I have one other question, and I 
know the red light went on, but I would like to ask.
    And I know there have been efforts, at least in--I am 
familiar with the reduction in hazardous substances. And we 
have had some success, at least in my district, because I 
monitored them. And if we could just get as quick an answer as 
possible from the industry about, you know, trying to reduce 
some of these substances that are out there. Because, again, I 
watched it for 15 years, and it is much better today than it 
was 10 years ago.
    Mr. Burk. Is that question to me?
    Mr. Green. Yes.
    Mr. Burk. Yes. Well, an integral part of the Risk 
Management Program rule is the section called process hazards 
analysis, which requires companies to systematically and 
methodically identify the hazards, evaluate how you can lose 
control of those particular hazards, and develop 
recommendations to strengthen your process of safety management 
at that particular process.
    Another piece of the EPA regulation is the EPA suggested, 
encouraged facilities to apply the principles of inherently 
safer technology, and that would appear as you do a process 
hazard unit developing recommendations. People would look at 
substituting other materials, reducing inventories, things that 
actually reduce the hazard on the facility.
    Mr. Green. Okay. And I know that is what is in the law, but 
I also know there is some success--and maybe, Mr. Orum, if you 
could touch on that because in the reduction of those 
substances that are available now.
    Mr. Orum. It is very similar to a question Mr. Pickering 
asked before which I answered by analogy, looking at the Toxics 
Release Inventory, which, through public disclosure, is 
credited with having great reductions in the release of routine 
pollutions. In terms of the ``worst case scenarios,'' that 
information isn't out there. It is the hope that there would be 
similar dramatic reductions in vulnerabilities. So, if there 
are 40 million people at risk this year, and 20 million people 
are at risk 3 years from now, then you know you had a pretty 
dramatic reduction.
    Mr. Upton. We'll probably adjourn at that point.
    But, Mr. Orum, I toured a plant in my facility earlier this 
year. And it is a big facility, a major town on a river that 
leads to Lake Michigan. And security is pretty tight; I had 
never actually been in that particular facility before, but 
there is a lot of barbed wire, a lot of cameras looking around. 
It is a pretty complex operation, a lot of employees, and they 
are very aware of the dangers that they all have, being very 
careful. OSHA is there, and I am not aware of any major 
accidents or problems that they have had. And I commented about 
the security. They said, ``Well, we don't really want to be in 
the press because, you know, we work well with our local folks. 
If there is an accident, you know, we have got a good 
relationship, people know what is going on. We really don't 
want to get a lot of attention at all. We just want to sort of 
be underneath that horizon.''
    And, I am sure that if I went back to them next week when I 
am back and said, ``How would you like being on the Internet so 
that people, not only--anywhere in the country could all of 
sudden see; all of sudden--you are that little beacon?'' And 
they are a major source of--I think they are in the top five 
utility users in the State of Michigan, which isn't bad when 
you have to count Ford, GM, and Chrysler. You know about what 
size that they might be.
    But my guess is that they would say, ``We don't want to be 
on the Internet. We have a very good relationship with a major 
department here; it is Kalamazoo. And we are just fine; things 
are going fine the way that they are now, and we have a feeling 
that if, you know, if there is some problem we are going to do 
the best we can under this scenario.''
    And going back to sort of my question before we started at 
this round; your organization has put some stuff online, maybe 
before it was ready. I am not going to make a judgment on that. 
But, you were here when you heard EPA, the administration, the 
FBI, colleagues there at the table, indicate that they really 
are against putting that for everyone to see. Not for the local 
folks. They ought to be involved; they ought to be in the 
planning. They ought to be able to figure out what might 
happen, that they have got some prior planning.
    But I didn't hear a, ``yes,'' or a ``no'' on my question 
before, or even a ``maybe,'' in terms of what your thoughts are 
if things go along without any change.
    Mr. Orum. Well, I have been trying to disguise the fact 
that I can barely manage Word on my desktop, let alone, you 
know, putting up all manner of other----
    Mr. Upton. I will send you my 10th grader because she is a 
good little coach.
    Mr. Orum. [continuing] information. I mean, yes, companies 
oppose releasing ``worst case scenarios'' at all, let alone on 
the Internet. Too, you know, again, the only party that can 
guarantee, let alone me, anybody, putting anything on the 
Internet--the only party that can guarantee the information 
doesn't go on the Internet is the person who brings the 
chemicals into the community, because they are the party, the 
decisionmaker, who can make changes to take them out again.
    And then, third, I can only point to examples like, from 
the West County Times. This was created in 1993; it didn't use 
any of this information. It used calculations that they made, 
you now, that the newspaper made, themselves. And if that were 
produced today, I am quite certain it would go on the Internet. 
And yet, that is a vital--the publication dissemination of 
information is simply a vital piece of the puzzle in getting 
companies' attention, ending denial, and getting changes such 
as real hazard reduction.
    Mr. Upton. Well, I will leave it at that, I guess.
    I don't know if anyone else has other questions.
    You heard that the other panel, at the end of the day--for 
those members that are not here or for members that are here, 
we do have the right to ask you questions for 30 days for the 
record. And I hope that you would accommodate us on that.
    And I thank you, again, for your testimony, particularly, 
in getting it here timely.
    Thank you very much.
    [Whereupon, at 3:19 p.m., the subcommittees were 
adjourned.]
    [Additional material submitted for the record follows:]

                         U.S. Department of Justice
                            Federal Bureau of Investigation
                                                     March 25, 1999
Honorable Ron Klink, Ranking Member
Subcommittee on Oversight and Investigations
Committee on Commerce
House of Representatives
Washington, D.C. 20515
    Dear Congressman Klink: The attached material is in response to 
your letter dated March 17, 1999, requesting responses to questions 
regarding Mr. Robert M. Burnham's testimony before your Subcommittee on 
March 16, 1999.
    If the FBI can be of any further assistance, please do not hesitate 
to call.
            Sincerely yours,
                                            A. Robert Walsh
    Legislative Counsel, Office of Public and Congressional Affairs
Enclosure

    Question. Has the FBI ever quantified the risk of a foreign 
terrorist attacking a U.S.-based chemical facility?
    Answer. The FBI regularly provides assessments of the vulnerability 
of potential targets. It is difficult, if not impossible however, to 
quantify a threat from any terrorist without specific intelligence 
regarding activities directed at a target or group of targets. The FBI 
has an ongoing Nuclear Site Security Program in conjunction with the 
Department of Energy in which our field offices around the country 
conduct reviews of the security and potential vulnerability of DOE 
facilities. The FBI field offices have also conducted these assessments 
with the Department of Defense on U.S. Army chemical storage facilities 
around the country. In addition, as part of the FBI's Special Events 
Management responsibilities, the FBI conducts assessments of facilities 
in locations involved in major special events, such as the upcoming 
Olympics in Salt Lake City, and the recently completed Papal visit to 
the U.S.
    In addition to specific vulnerability assessments, the FBI is 
involved in assessing the security of the Critical Infrastructure 
within the U.S. to ensure that the potential targets which could have a 
national impact, are properly identified and secured from terrorist or 
criminal attacks. This is an ongoing program, and includes chemical 
facilities.
    In general, most terrorist attacks in recent years have been 
planned and carried out by small cells or ad hoc groups which leave 
very small footprints and are difficult to identify or track. Upon 
reviewing the investigations of the World Trade Center and Oklahoma 
City bombings, it became obvious that there may be no prior knowledge 
or intelligence regarding some terrorist or criminal attacks of this 
kind. By conducting these assessments and security reviews, the FBI 
strives to protect targets that could be of interest to terrorists or 
criminals even when no specific intelligence may exist at the time of 
an imminent attack.
    Question. Has the FBI quantified the increased risk of a terrorist 
attack on a chemical facility based on the inclusion of the worst case 
scenarios on the Internet or through any other means of public access.
    Answer. As stated above, to attempt to attach a numerical indicator 
to this type of an assessment, without data or specific intelligence, 
would be speculative and would misrepresent the assessment as something 
that can be statistically determined. Assessments or analyses of this 
nature do not lend themselves to such a determination. Although many 
advocate attaching some type of a number to these assessments, such as 
a one in ten or a three in five chance, these numbers are normally not 
derived through an actual statistical compilation but rather are simply 
an attempt to provide an analyst's opinion in an easily communicated 
format.
    The FBI has not applied any analytical model to this issue. What we 
have done is examine the terrorism and criminal cases in which chemical 
or biological agents have been involved and determined that almost all 
of the subjects have used the Internet in various ways. A majority of 
the subjects have used the Internet to research recipes for chemical 
and biological agents, techniques for staging attacks and designs for 
devices and dissemination. Individuals and groups who have anti-
government views have sites where this type of information is regularly 
shared, and are constantly surfing the Internet for new information 
regarding these issues.
    Question. Based on the experience with the Toxic Release Inventory 
of a 50 percent reduction in routine toxic emission releases because of 
the public's knowledge of what was being released, we can assume that a 
similar reduction in hazardous chemicals--and the related accidental 
releases--may occur after their existence is made public. Has the FBI 
done an analysis of the benefits of fewer releases compared to the cost 
of terrorist attacks on chemical facilities?
    Answer. The FBI has provided a threat analysis regarding the 
release of OCA, or Worst Case Scenario data in electronic format. In 
doing so it should be emphasized that the FBI has stated that the 
information should be shared with the public. The FBI is on record 
repeatedly as supporting the ``Community Right to Know'' concept. 
Moreover, as stated in recent testimony to committees in both the 
Senate and the House of Representatives, the FBI applauds the gains 
made in accident prevention and chemical safety through the Clean Air 
Act, and wishes to assist the EPA and the interagency community in any 
way possible in furthering this progress.
    Question. A great deal of information about chemical facilities is 
already available on the Internet. Does the FBI have any records of 
attempts by terrorists to attack chemical facilities on existing 
information about the facility obtained on the Internet or elsewhere 
from these databases?
    Answer. As stated earlier, currently the FBI does not have any 
specific intelligence regarding terrorists acquiring information to 
target facilities within the U.S. The FBI of course does not monitor 
Internet sites to observe who is reviewing the sites or downloading the 
information contained therein. The trend in terrorism, as illustrated 
in the ``Leaderless Resistance'' concept, is the use of small, hard to 
track groups. It would be impossible to state that we were aware of all 
of the groups or individuals who may attempt to conduct an attack. 
Consequently, when the FBI was asked to provide an assessment of the 
security and terrorism issues related to the Internet distribution of 
the Risk Management Plans, we attempted to suggest a reasonable and 
responsible approach to providing the necessary information to the 
public without releasing the information in a manner that would create 
an unnecessarily adverse impact.
                                 ______
                                 
Jefferson County Local Emergency Planning Committee
                                           Denver, Colorado
                                                     March 18, 1999
The Honorable Diana DeGette
Member, Committee on Commerce
1404 Longworth HOB
Washington, DC 20515
    Dear Representative DeGette: In response to the question contained 
in your letter of March 17th, I am pleased to respond in my capacity as 
Chair of the Jefferson County Local Emergency Planning Committee.
    Question. In a recent tragic incident near Allentown, Pennsylvania, 
an explosion at a chemical plant killed four employees as well as a 
worker visiting from a neighboring company. According to news reports, 
the community responders and local citizens apparently were not aware 
of the hazards posed by the plant. Do you believe that it would have 
been reasonable for the local citizens to have had access to 
information about the risks? Could information about ``worst case 
scenarios'' have mitigated or even prevented this accident or others 
like it? How could such scenarios have been helpful in reducing the 
risk faced by workers, their families, communities, other companies and 
the general public?
    Response. The tragic accident in Allentown, Pennsylvania is an 
example of the numerous chemical accidents that occur every year in 
this country. In a recent report entitled ``The 600K Report'' the 
United States Chemical Safety and Hazard Investigations Board indicates 
that some 256 people are killed per year in chemical accidents. They 
observe that these accidents have impacts well beyond those killed as 
``Workers, companies, the public, emergency response organizations, and 
all levels of government pay the figurative and literal price.'' It is 
precisely this sense of community impact that is important to the 
understanding of why chemical risk and accident scenario information in 
the hands of the public and response agencies is so critical.
    One can never know for certain that an accident could have been 
prevented or a death avoided through the application of better 
planning. Of course, without such an effort we can be certain that 
prevention and avoidance are impossible. It is only through better 
planning, which can only occur through the availability of better 
information, that we have any opportunity to prevent chemical accidents 
and reduce the severity of those that occur.
    Better planning and response begins with better information. 
Facilities depend upon public response agencies to protect them or at 
least to support internal response efforts. Accordingly, information 
about chemicals and risks must be in the hands of these agencies if 
they are to be effective and protect the lives of their personnel. 
Equally important, however, is the idea that the general public has a 
role in the prevention and planning for accidents. This role is found 
in community decisions such as planning and zoning, funding the 
equipment a fire department should purchase, and the steps members of 
the public should take in the event of an accident.
    It is this last item that can be truly critical in the prevention 
of injuries and death in the event of an accident. Many times the best 
course of action for a citizen, school or neighboring business to take 
in the event of an accident is sheltering in-place. This can be a 
simple procedure involving closing doors and windows, and shutting off 
ventilation systems. This technique can be taught to the public and 
warning systems designed so that emergency response authorities can 
quickly communicate the need to take action. Tornado warnings are an 
excellent example of the sort of education and warning system that can 
be put into place.
    This sort of approach cannot be implemented in the midst of a 
chemical accident. It can only result from preplanning and education. 
Without information about the sorts of chemical risks and accidents 
that can occur at facilities a preplanned system is impossible. The 
emergency response agencies cannot begin to educate the public about 
the steps they should take in the event of an accident unless there is 
an understanding of the chemical accident scenarios faced in the 
community.
    This is not, however, a process that only involves the specific 
community in which the facility is located. Through mutual aid 
agreements it is likely that agencies from other communities will 
respond. They need to have the same information to plan their response 
and understand the equipment they may need.
    Communities are not islands. We look to each other across the 
country for advice and experience in handling the risks presented by 
chemical accidents. It is critical that we be able to share information 
about the risks similar facilities present in different communities as 
well as the planning and response efforts that these communities have 
adopted.
    When fire agencies respond to the scene of a chemical accident they 
must be careful and cautious. Obviously the safety of the response 
personnel is critical. If these agencies do not have adequate 
information about the nature of the accident it is very dangerous to 
take direct action to halt the chemical release. This means that 
critical time can pass before efforts to bring the chemical accident 
under control can be taken.
    Because of this problem response agencies routinely engage in 
preplanning where they attempt to predict the sort of chemical 
accidents they will face at a facility. This allows these agencies to 
anticipate and practice their response. This also allows them to obtain 
the appropriate equipment and practice its use. With preplanning these 
agencies routinely are able to save lives and reduce property damage 
because they are able to take offensive action to terminate the 
chemical accident.
    Access to information about chemical accident risk is critical to 
this preplanning process. Without such information it is impossible to 
predict scenarios for chemical accidents. EPA's risk management plan 
regulation will make great strides in providing this sort of 
information not only through worst case scenarios but also the 
alternative scenarios. These scenarios will provide response agencies 
with information critical to preplanning for chemical accidents.
    It is important to recognize that many response agencies in this 
country are volunteer organizations. It is difficult, if not 
impossible, for such agencies to study facilities and develop scenarios 
on their own. The owner or operator of a facility knows much more about 
how it operates and the chemical accident risk they face. It is 
necessary and appropriate for the facility to communicate this 
information directly to the response agencies and the public. There is 
simply no better way to manage the flow of information if our intent is 
to prevent chemical accidents.
    Each chemical accident is different in is cause, its immediate 
impact and the long-term impact on the facility and community. It is 
notoriously difficult to predict the impact of changed procedures and 
information in 20/20 hindsight. Nonetheless, there are several things 
of which I am certain.

1. No community can be prepared to respond to a chemical accident 
        unless it fully understands the chemicals present in that 
        community, the risk of accidents these chemicals present and 
        the accident impact scenarios they may face.
2. No community can take accident prevention and mitigation steps such 
        as zoning to keep dangerous facilities away from vulnerable 
        areas such as schools and hospitals unless they have this same 
        information.
3. No facility can prevent accidents unless it understands how 
        accidents can happen and the risks they face from the chemicals 
        in their facility.
4. No facility can properly plan to respond to a chemical accident 
        without understanding the accident scenarios they face.
5. No facility is an island--their accidents do have an impact beyond 
        the fence line. Chemical accidents kill and injure people that 
        live in these communities. Chemical accidents can devastate 
        local economies. Chemical accidents can damage or destroy 
        critical community services.
6. The prevention and mitigation of chemical accidents is a community-
        wide problem. Without adequate information on chemical risks 
        and accident scenarios the community cannot participate.
    I do believe that information access is central and vital to the 
prevention of chemical accidents. It is likely that chemical accidents 
in communities where there has been good preplanning will be fewer and 
less severe. It is likely that such communities will experience fewer 
injuries to the public and response agency personnel. Only facilities 
can provide this information and the accident scenarios. They are part 
of the community and depend upon the community for services and 
support. It is their obligation to enhance the protection of their 
communities by sharing information on chemical risks and accident 
scenarios so that better planning can occur.
    If I can add any additional information or answer any questions, 
please let me know.
            Best regards,
                                              Timothy R. Gablehouse
cc: The Honorable Tom Bliley, Chairman
   Committee on Commerce
   The Honorable John D. Dingell, Ranking Member
   Committee on Commerce
   The Honorable Fred Upton, Chairman
   Subcommittee on Oversight and Investigations
   The Honorable Ron Klink, Ranking Member
   Subcommittee on Oversight and Investigations
   The Honorable Michael Bilirakis, Chairman
   Subcommittee on Health and Environment
   The Honorable Sherrod Brown, Ranking Member
   Subcommittee on Health and Environment
                                 ______
                                 
                                    National Safety Council
                                                     March 19, 1999
The Honorable Sherrod Brown
Subcommittee on Health and Environment
Committee on Commerce
U.S. House of Representatives
2125 Rayburn House Office Building
Washington, D.C. 20515-6115
    Dear Congressman Brown: Thank you for your letter of March 17, 
1999, asking me to elaborate on my testimony before the Subcommittee on 
February 10 to the effect that the environmental ``right-to-know'' 
program has made a significant contribution to reducing chemical 
hazards over the past 10 years. I am pleased to provide you that 
elaboration.
    Since Congress enacted the Emergency Planning and Community Right-
to-Know Act as Title III of the Superfund Amendments and 
Reauthorization Act of 1986 (SARA), more than 3,200 local emergency 
planning committees (LEPCs) have been established nationwide to provide 
local contacts and local input into chemical safety issues in their 
communities. Consisting of a broadly representative cross-section of 
interested local groups--including, for instance, corporate and 
citizens leaders and representatives, emergency response personnel, and 
civic representatives--these volunteer committees in many cases have 
proven exceptionally useful in assisting in chemical safety programs.
    I must emphasize that as with any large number of organizations, 
particularly when the participation is entirely voluntary, not all of 
the LEPCs perform equally well. There clearly is room for improvement, 
along with a need for additional resources and training, before the 
LEPCs can consistently fulfill the obligations thrust upon them. But 
despite that common reality, few would doubt that the LEPCs--working in 
cooperation with their State and Tribal Emergency Response Commissions 
(SERCs and TERCs)--have helped significantly to increase community 
safety from chemical risks.
    In addition to the work of many of the LEPCs and SERCs and TERCs, 
it is useful also to point to the long-term trends in emissions of 
industrial releases of toxics over the past decade or so. I am not 
suggesting here that right-to-know alone deserves the credit for this 
commendable trend: corporate and community commitments to ``best 
management practices'' and the increased recognition that unnecessary 
pollution carries with it high economic and social costs--these too 
have been critical in forcing this trend.
    At the same time, it is clear, as Congress clearly intended in 
passing the right-to-know program and related Toxic Release Inventory 
in the first place, that these other advances have been spurred and 
accelerated by the right-to-know programs.
    The U.S. Environmental Protection Agency in 1998, for instance, 
reported that total TRI releases had declined by nearly 46 percent 
since industry first started reporting its releases annually. Just 
between 1995 and 1996, for instance, industries' TRI releases declined 
by 100 million pounds--four percent.
    These numbers of course vary from medium to medium, from air to 
water for instance, and they vary also by industrial category. For 
discharges to underground injection wells, for instance, the decline 
came to 14.9 percent for the one year period, and reported air 
emissions declined by seven percent for that year. For surface water 
and land discharges, that one-year period actually showed an increase, 
although releases to both surface water and land have declined--by 73 
and 35 percent respectively--since the beginning of TRI reporting in 
1988.
    It would be naive, and wishful thinking, to infer from these 
numbers that the decline in toxic release inventory emissions 
necessarily correlates to a one-for-one decline in potential health 
risks and hazards to our citizens. I emphasize that I make no such 
suggestion here. However, it is equally important to emphasize the 
clear correlation between reduced emissions and the resulting potential 
for also reducing exposures to those chemicals and substances.
    These stellar accomplishments are especially notable given the 
strong economic growth and development we have been experiencing during 
this same period.
    Congressman Brown, when the Congress in 1986 passed the Superfund 
reauthorization, Title III in many ways was just one small piece of a 
very large and highly visible puzzle. Title III in fact attracted 
relatively little attention either from the regulated community, from 
environmental organizations, or from the news media.
    In the interim, the Title III right-to-know program has been 
referred to by many environmental professionals and scholars as being 
akin to ``the mouse that roared'' or ``the little train that could'': 
that analogy applies because of the impact of this program on helping 
to reduce chemical risks, and doing so in a manner that is surprisingly 
non-litigious and generally quite free of burdensome regulations.
    As Congress recognized in passing the program initially, the 
``light of day'' approach has worked in this case to help reduce 
necessary risks. Having worked in both the government as Assistant 
Secretary of Labor for Occupational Safety and Health and in the 
private sector as vice president for health and safety for a major 
pharmaceutical manufacturer, I can assure you of this, Mr. Brown: 
Companies do not like seeing their name in a headline as, for instance, 
``the county's largest single polluter''--or even as among the 10 
largest or whatever. That kind of headline sends a real message through 
corporate board rooms, and in many cases it's just such a message that 
has led to emission reductions in subsequent years.
    Thank you for the opportunity to provide more detail on my 
testimony. I will of course be pleased to provide any additional 
information you might need.
            Sincerely,
                                                 Gerard F. Scannell
                                 ______
                                 
               Paper, Allied-Industrial, Chemical &
                         Energy Workers International Union
                                                     March 18, 1999
The Honorable Gene Green, Member
House Committee on Commerce
U.S. House of Representatives
2125 Rayburn House Office Building
Washington, D.C. 20515-6225
    Dear Representative Green: Following are answers to the additional 
questions put forth in your letter dated March 17th concerning my 
testimony before the Subcommittees on Health and Environment and 
Oversight and Investigations regarding implementation of the Clean Air 
Act's section 112(r) requirement for public release of chemical 
facilities ``worst case scenario'' data:

<bullet> Once chemical plants have submitted their Risk Management 
        Plans, the Environmental Protection Agency will have 
        information about worst case scenarios at chemical plants 
        across the nation. In implementing section 112(r),
    Question #1: Do you believe that the availability of national data 
to the public is important?
    Answer. Yes.
    Question #2: Should implementation of section 112(r) include 
dissemination of national data to the public?
    Answer: Yes.
    Question #3: What is the value of a national database of 
information about worst case scenarios to community responders, workers 
and their families, local communities, the general public and others?
    Answer: We believe a national database could and would be utilized 
by community responders, workers, the general public and others in many 
vitally important ways such as:

<bullet> Learning about vulnerability zones and prevention practices in 
        similar facilities in different states;
<bullet> Verifying reported information by comparing data submitted 
        elsewhere;
<bullet> Holding government accountable for reducing hazards 
        nationwide;
<bullet> Developing studies on chemical hazards:
<bullet> Developing effective accident prevention programs;
<bullet> Developing and conducting effective education and training 
        programs;
<bullet> Linking other worker safety and public health databases;
<bullet> Determining which facilities might pose ``Year 2000'' risks; 
        and
<bullet> Using media access in responding to chemical accidents.
    In addition to those listed above, I am certain there are numerous 
other ways a national database of ``worst case scenarios'' information 
could be used in responding to chemical plant accidents.
    Please do not hesitate to contact me if you require additional 
information.
            Sincerely,
                                 Paula R. Littles, Director
                                 Citizenship-Legislative Department
                                 ______
                                 
              United States Environmental Protection Agency
                        Offce of Solid Waste and Emergency Response
The Honorable Sherrod Brown
U.S. House of Representatives
Washington, D.C. 20515
    Dear Congressman Brown: I am writing in response to your request 
for additional information regarding my February 10, 1999 testimony 
before the Subcommittees on Health and Environment and Oversight and 
Investigations regarding implementation of the Clean Air Act's Section 
112(r) and public access to ``worst case scenario'' data. I am 
enclosing a response to your specific question. I appreciate your 
interest in this important issue. Please do not hesitate to contact me 
if you have additional questions.
            Sincerely,
                                        Timothy Fields, Jr.
                                     Acting Assistant Administrator
Enclosure

    Question: Based on the experience with the Toxic Release Inventory 
of a 50% reduction in routine toxic emission releases because of the 
public's knowledge of what was being released, we can assume that a 
similar reduction in hazardous chemicals--and the related accidental 
releases--may occur after their existence is made public. Has the EPA 
done an analysis of the benefits of fewer releases compared to the cost 
of terrorist attacks on chemical facilities?
    Answer. Implementing a risk management program at a facility and 
making risk management plan information public does not necessarily 
result in a reduction of hazardous chemicals (although some inventory 
reductions and process modifications are likely). However, EPA expects 
a reduction in the severity and number of accidental chemical releases 
through the RMP effort because facilities will have a greater 
understanding of the hazards present in their processes and will take 
action to prevent releases. In addition, sharing information with the 
public about the hazards, past releases, and prevention efforts leads 
to a greater awareness at the local level of the risks and action 
necessary to address them through prevention, emergency preparedness 
and response.
    In the Economic Impact Analysis prepared for the RMP rule, EPA 
showed that chemical accidents are very costly and disruptive but the 
benefits associated with the RMP effort outweigh the costs of 
prevention and making the information public. Although EPA has not 
analyzed the costs of a terrorist attack, we presume the costs would be 
similar to the costs associated with an equivalent chemical accident. 
Consequently, making information public through the RMP should lead to 
the same positive benefits; awareness by industry and the public of a 
threat should lead to action to reduce the vulnerability to such an 
attack (such as greater security measures and a reduction of hazards at 
the facility that could be used as a target) and to greater 
preparedness at the local level to respond and protect the public from 
harm.
                                 ______
                                 
           Working Group on Community Right-To-Know
                                       Washington, DC 20003
                                                     March 31, 1999
The Honorable Henry A. Waxman
U.S. House of Representatives
2204 Rayburn House Office Building
Washington, DC 20515
    Dear Mr. Waxman: Below are my responses to your questions about 
right-to-know and hazard reduction under the Clean Air Act, section 
112(r), of March 25, 1999. These questions and responses are consequent 
to testimony before the Health and Environment and Oversight and 
Investigations Subcommittees of the House Commerce Committee, February 
10, 1999.
    Question 1. Is information about worst case scenarios generally 
available to communities? Are on-site company records about worst case 
scenarios typically accessible to citizens who want access to them? 
Does a reliable process currently exist for workers and citizens to 
obtain this kind of information from facilities that handle listed or 
extremely hazardous substances? Is there any process or readily-
available data to compare worst-case scenarios among facilities owned 
by the same entity?
    Answer. Most communities lack basic public information about the 
potential worst-case harm of chemical fires, spills, or explosions at 
chemical-using facilities in their midst. (A few large companies have 
released such scenarios in anticipation of the Clean Air Act's legal 
requirements to do so, and some newspapers have independently 
calculated and published worst-case scenarios.) Currently available 
Federal right-to-know information for chemical hazards does not include 
companies' own estimates of worst-case chemical accident scenarios. 
Thus there is currently no reliable process for the public to obtain 
worst-case scenarios from facilities that handle listed or extremely 
hazardous substances. Nor is there any organized process for creating, 
compiling, and comparing worst-case scenarios among facilities owned by 
the same entity. An accessible national database of worst-case 
scenarios would enable people to hold companies accountable for 
reducing chemical hazards in communities.
    Question 2. The Administration will soon decide how to make 
information about worst case scenarios available to the public. In one 
potential scenario under discussion, the facilities would be required 
to make information about worst case scenarios available to the public 
on site at the facility. In your view, how would such a plan serve the 
local community's interests and the national interests? Is such a plan 
practically workable? Does sufficient enforcement authority and 
resources exist for such a plan? Do facilities have, or are they 
required to have, specific procedures and personnel to respond to such 
requests?
    Answer. The Clean Air Act, section 112(r), does not obligate 
covered facilities to provide worst-case scenario information directly 
to the public. Thus the law does not allow for this option. There is no 
legal requirement for covered facilities to have either procedures or 
personnel to respond to requests. There is no legal remedy for citizens 
if companies refuse information. This option is cumbersome (at best) 
for local residents, due to travel times and distances, hours of 
operation, lack of transportation, multiple covered facilities, and 
other barriers. The chemical industry has a poor record of responding 
to citizen requests for information. In one survey, citizens were 
unable to get answers to seven basic questions about chemical use and 
accidents from more than 75 percent of chemical facilities.\1\ This 
option is also inadvisable for local facilities, as small businesses 
could spend unnecessary sums responding to citizen requests for 
information that could be available in a simple database.
---------------------------------------------------------------------------
    \1\ U.S. Public Interest Research Group, Trust Us, Don't Track Us, 
1998.
---------------------------------------------------------------------------
    Nor does this option meet national needs. This option prevents 
people from readily learning about hazards in other jurisdictions where 
relatives live or children are sent to school. It prevents people from 
learning about safety improvements at similar facilities in other 
communities. It prevents people from holding corporations accountable 
for chemical hazards nationwide. It prevents people from identifying 
the most serious potential consequences of year-2000 computer and 
embedded chip failures that could trigger accidents. It prevents people 
from verifying reported information by comparing data submitted 
elsewhere. It prevents people from analyzing trends by geographic area, 
chemical, company, or industry, etc.
    Question 3. Are adequate steps currently being taken to achieve the 
stated goal of section 112(r)? What additional measure could or should 
be undertaken to achieve the purposes of section 112(r)? Would you 
consider limiting public access to worst-case scenarios a reversal of 
the policy established in section 112(r) to prevent accidental release?
    Answer. The goal of section 112(r) of the Clean Air Act is to 
prevent accidental releases of extremely hazardous substances. The law 
provides two principle means to achieve this goal: 1) right-to-know 
provisions (in Risk Management Plans), and; 2) release prevention 
regulations. Risk Management Plans, including worst-case accident 
scenarios, are due to U.S. EPA by June 21, 1999. However, proposals to 
limit public access to the vital right-to-know component of RMP 
information cast into doubt the right-to-know provisions of the law. 
Without these right-to-know provisions the alternative is to reduce 
hazards through release prevention regulations. Yet, the U.S. EPA has 
never used its authority under section 112(r)(7)(A) to compel companies 
to reduce chemical hazards. Thus nearly a decade after Congress passed 
the Clean Air Act Amendments, steps to achieve the stated goal of the 
act are plainly inadequate. At the same time, chemical accidents 
continue unabated. A new report indicates that some 600,000 chemical 
fires, spills, and explosions were reported to the Federal government 
over a recent ten-year period.\2\
---------------------------------------------------------------------------
    \2\ Chemical Safety and Hazard Investigation Board, The 600K 
Report: Commercial Chemical Incidents in the United States 1987-1996, 
February 1999.
---------------------------------------------------------------------------
    Limiting public access to worst-case scenarios would clearly 
reverse the accident prevention policy established in section 112(r) of 
the Clean Air Act. Current efforts are failing to reduce accidents. 
Additional measures are needed to reduce chemical hazards. Congress 
should:
    1) Ensure that EPA disseminates complete national RMP data on 
schedule, particularly in order to identify, set priorities, and 
correct potential ``year-2000 (Y2K) computer failures that can endanger 
communities with chemical accidents;
    2) Set a deadline by which EPA shall establish release prevention 
regulations under 112(r)(7)(A), emphasizing the use of safer 
technologies to prevent the possibility of a chemical accident;
    3) Require the Federal Bureau of Investigation to work with EPA in 
establishing release prevention regulations (or authorize the FBI to 
close facilities that pose a high risk to surrounding communities and 
that refuse to reduce hazards within a reasonable period of time);
    4) Require covered facilities to report materials accounting 
information in order to better track and control materials, assess 
hazards, and develop and adopt safer technologies.
    Question 4. Local Emergency Planning Communities (LEPCs) are 
appointed by states to plan for community responses to chemical 
accidents. How many LEPCs exist around the Country? Does every locality 
have a LEPC or access to one? How are LEPCs generally funded? Do LEPCs 
typically communicate effectively with the public about the risks at 
chemical plants? Can the public always rely on LEPCs as a dependable 
conduit of information about worst-case scenarios? The Administration 
is considering various approaches to making information about worst-
case scenarios available to the public. In one proposal, the 
information about scenarios would be made available to the LEPCs. Do 
you believe that the public will always be able to obtain accurate 
information from LEPCs about worst-case scenarios? Do you foresee any 
difficulties with implementing the section in this manner?
    Answer. On paper, there are an estimated 3,800 Local Emergency 
Planning Committees (LEPCs) in the United States.\3\ These LEPCs are 
unevenly distributed by state. Some states have many, such as New 
Jersey with over 500 LEPCs. Some states have few, such as Oregon with 
one statewide LEPC. According to one report, ``[t]he number of LEPCs in 
the United States is not known; estimates vary between 3,000 and 
4,500.'' The report continues: ``[m]any LEPCs exist only on paper, and 
many others exist, but have not succeeded in meeting even their basic 
responsibilities.'' \4\ A 1994 Nationwide LEPC Survey conducted by 
George Washington University concluded that 21 percent of LEPCs were 
``inactive,'' 39 percent were ``quasi-active,'' 16 percent were 
``compliant,'' and 24 percent were ``proactive.'' \5\ Thus in many 
communities there is no effective LEPC, and in many communities 
institutional and resource constraints prevent LEPCs from carrying out 
basic functions.
---------------------------------------------------------------------------
    \3\ Ruth Ellen Schelhaus, LEPC Information Exchange, How LEPCs are 
Organized Across the U.S., 1999.
    \4\ Resources for the Future, The Future of Local Emergency 
Planning Committees, 1993.
    \5\ George Washington University Department of Public 
Administration, Nationwide LEPC Survey, 1994.
---------------------------------------------------------------------------
    Funding for LEPCs is poor and inconsistent. As of 1993, by one 
estimate, only 22 states provided funding to their LEPCs.<SUP>4</SUP> 
Further, some states that have fee systems for emergency planning do 
not pass money to the LEPCs.\6\ Other sources of LEPC funding include 
voluntary contributions from industry, Federal grants, and enforcement 
settlements. Thus many LEPCs do not have a reliable ongoing source of 
funding. Asking LEPCs to disseminate RMP information--the legal 
responsibility of a Federal agency--is an unnecessary ``unfunded 
mandate.''
---------------------------------------------------------------------------
    \6\ National Governors' Association, Emergency Planning and 
Community right to Know Act: A Status of State Actions--1991-1992 (p. 
5).
---------------------------------------------------------------------------
    Major studies show weak communications between LEPCs and the 
public. The U.S. General Accounting Office identified three major 
studies that show weak LEPC communication with the public: 
Communicating With the Public About Hazardous Materials: An Examination 
of Local Practice, U.S. EPA, 1990; Risk Communication and Community 
Right-to-Know, Tufts University, 1991; and Nationwide LEPC Survey, 
George Washington University, 1994.\7\
---------------------------------------------------------------------------
    \7\ U.S. General Accounting Office, Chemical Accident Safety; EPA's 
Responsibilities for Preparedness, Response, and Prevention, 1996.
---------------------------------------------------------------------------
    For example, according to one analysis, ``[M]ost LEPCs have little 
contact with the public or even with community organizations that could 
introduce a citizens' perspective . . . Moreover, many members come 
from emergency response backgrounds that stress one-way communications 
with the public . . . and make little room for questioning or critical 
analysis of options. Under these conditions, it is unrealistic to 
expect LEPCs to attempt to foster public debate of environmental issues 
or to focus on hazard reduction rather than emergency response.'' Due 
to a variety of constraints in resources, programs, and communications 
strategies most LEPCs ``have not made a concerted effort to bring 
hazardous materials issues to public attention''.\8\
---------------------------------------------------------------------------
    \8\ Richard C. Rich, W. David Conn, and William L. Owens, 
``Indirect Regulation'' of Environmental Hazards Through the Provision 
of Information to the Public: The Case of SARA, Title III, Policy 
Studies Journal, 21, No. 1, 1993 (16-34).
---------------------------------------------------------------------------
    In addition, the Clean Air Act does not require LEPCs to 
disseminate Risk Management Plan information. There is no legal 
mechanism in the Clean Air Act or the Emergency Planning and Community 
Right-to-Know Act that citizens can currently use to obtain Risk 
Management Plan information through LEPCs, if the LEPC fails to act.
    Notably, LEPCs already have authority to request worst-case 
scenarios from industry, under EPCRA, section 303(d)(3). However, very 
few LEPCs have used this authority. Citizens have unsuccessfully 
requested that their LEPC obtain worst-case scenarios from industry. In 
some cases, citizen members have been forced off LEPCs after raising 
concerns that others opposed.\9\
---------------------------------------------------------------------------
    \9\ Sunday Advocate (Baton Rouge, La.), Panels drop environmental 
advocates, July 29, 1990.
---------------------------------------------------------------------------
    In summary, many communities do not have active LEPCs. Many LEPCs 
lack funding. Few LEPCs communicate effectively with the public. The 
LEPCs are not a reliable conduit for RMP information. The public will 
not always be able to obtain accurate worst-case scenarios from LEPCs. 
Disseminating RMP information is legal the responsibility of a Federal 
agency. These are but a few of the many problems of relying on LEPCs to 
disseminate RMP information.
    LEPCs face many difficulties in planning for emergencies, and 
should be one point of public access to RMP information, not the only 
point of access.
    Additional barriers created by dispersed access to worst-case 
scenario information are set forth ``Ten Reasons for a National, Public 
Data System for Risk Management Plans,'' an attachment to testimony of 
February 10, 1999.
    Thank you for your interest in right-to-know and chemical hazard 
reduction.
            Sincerely,
                                                  Paul Orum
                                          Working Group Coordinator

</pre></body></html>
